       Fiscal Year 2012
       United States Air Force
2012   Agency Financial Report
             THE AIRMAN’S CREED
          I AM AN AMERICAN AIRMAN.
                I AM A WARRIOR.
     I HAVE ANSWERED MY NATION’S CALL.
          I AM AN AMERICAN AIRMAN.
     MY MISSION IS TO FLY, FIGHT, AND WIN.
     I AM FAITHFUL TO A PROUD HERITAGE,
A TRADITION OF HONOR, AND A LEGACY OF VALOR.
          I AM AN AMERICAN AIRMAN,
     GUARDIAN OF FREEDOM AND JUSTICE,
       MY NATION’S SWORD AND SHIELD,
           ITS SENTRY AND AVENGER.
     I DEFEND MY COUNTRY WITH MY LIFE.
            I AM AN AMERICAN AIRMAN:
          WINGMAN, LEADER, WARRIOR.
     I WILL NEVER LEAVE AN AIRMAN BEHIND,
   I WILL NEVER FALTER, AND I WILL NOT FAIL.
Table of Contents
Message from the Secretary of the Air Force ………………………………………………………………………………………………...                         ii

Message from the Assistant Secretary of the Air Force for Financial Management and Comptroller ………..…...    iii

Management Discussion and Analysis
   Air Force Heritage ………………………………………………………………………………………………………………………………………                                    1
   Air Force in Action—FY 2012 ………………………………………………………………………………………………………………………                                 2
   Air Force Structure ……………………………………………………………………………………………………………………………………..                                  3
   Air Force Resources ……………………………………………………………………………………………………………………………………                                    6
   Management Assertions …………………………………………………………………………………………………………………………....                                  7
   Analysis of Financial Statements
        General Fund ……………………………………………………………………………………………………………………………………..                                   10
        Working Capital Fund …………………………………………………………………………………………………………………………                                 11
   Financing the Fight …………….………………………………………………………………………………..…………………………………....                              14

Financial Statements
     General Fund
          Principal Statements …………………………………………………………………………………………………………………………..                             16
          Notes to the Principal Statements ……………………………………………………………………………………………………...                       25
          Required Supplementary Stewardship Information …………………………………………………………………………...                    79
          Required Supplementary Information ………………………………………………………………………………………………..                         89
          Audit Opinion ……………………………………………………………………………………………………………………………………..                                97
     Working Capital Fund
          Principal Statements …………………………………………………………………………………………………………………………..                            107
          Notes to the Principal Statements ………………………………………………………………………………………………………                        116
          Required Supplementary Information ………………………………………………………………………………………………..                        156
          Audit Opinion ……………………………………………………………………………………………………………………………………..                               158




                                                        i
       United States Air Force




                                         November 2012

                        Message from the Secretary of the Air Force



I am pleased to present the Air Force Annual Financial Report for Fiscal Year 2012 (FY 12). The Annual
Financial Report details how the Air Force is using budgeted resources to deliver our Nation’s air, space, and
cyber defense capability. It also provides an overview of the Air Force’s achievements, objectives, and
challenges.

The Air Force is striving to reach audit readiness and is fully committed to meeting Secretary Panetta’s
directive to produce an auditable Statement of Budgetary Resources by FY14 and to have all financial
statements auditable by FY17. Improving the accuracy, reliability, and timeliness of financial information
promotes better decision making at every level. Submitting financial statements that have passed the scrutiny
of an independent audit will demonstrate to Congress, the President, and the American people that the funds
entrusted to us are spent prudently.

As our Nation continues its focus on economic recovery, the Air Force is placing emphasis on achieving
internal efficiencies within our budget. We must continue to provide the essential force structure and
capabilities on which our Nation depends, and be ready to respond to a challenging and dynamic security
environment. Making far-sighted decisions now on how to best utilize our resources will position the Air Force
for success in the future. As we make these difficult budget decisions, taking care of our Airmen will remain a
top priority.

We are mindful of the current fiscal situation that our Nation faces and recognize that the Air Force must do its
part to support getting our economic house in order. Whatever the future brings, we know that the members of
our Total Force are up to the challenge and that Integrity, Service, and Excellence will continue to be our
guiding principles.




                                           Michael B. Donley




                                                        ii
                                        November 2012
                   Message from the Principal Deputy Assistant Secretary
                 of the Air Force for Financial Management and Comptroller
                                      (Performing as SAF/FM)



The Air Force Annual Financial Statement for Fiscal Year 2012 reports the Air Force’s financial position and
results of operations. It provides Congress, Department of Defense (DoD) leadership, and the American
taxpayers with information on the financial status of the Air Force. The Air Force financial management staff is
working diligently to improve financial management processes and systems to reach our goal of producing
financial statements which are auditable by an independent public audit firm in accordance with the priorities
identified by the Department of Defense.

In October 2011, Secretary Panetta accelerated the deadline for having an auditable Statement of Budgetary
Resources (SBR) to FY 2014. The Air Force has made considerable progress towards achieving this goal. As
a test of our ability to audit a major acquisition program, we asserted audit readiness for the Space Based
Infrared System, an advanced missile warning satellite constellation, two months ahead of schedule. The Air
Force also asserted Budgetary Funds Distribution to base level.

The accelerated deadline requires the Air Force to assert the SBR before our new enterprise resource
planning system, the Defense Enterprise Accounting and Management System (DEAMS), is fully implemented.
While we will continue to rely on DEAMS for achieving sustainable auditability and financial system
modernization over the medium-term, we are simultaneously working to advance audit readiness within the
current legacy system environment by improving internal controls and financial processes.

Secretary Panetta has also directed the department to increase its emphasis on accountability of mission
critical assets. In June, the DoD Inspector General (IG) issued a clean examination opinion on Air Force
aircraft, intercontinental ballistic missiles, satellites, cruise missiles, and aerial targets and drones. The
combined value of these assets is approximately $86 billion, which represents 41 percent of the Air Force’s
mission critical assets and 14 percent of DoD mission critical assets. The DoD IG is currently examining the
Air Force assertion of spare engines and uninstalled missile motors and initial testing was completed for Real
Property.

Auditable financial statements will provide the transparency necessary to demonstrate good stewardship of the
funds entrusted to us. We remain committed to providing the war fighter with the resources needed to fly, fight,
and win in air, space and cyberspace while maintaining excellence in fiscal accountability.




                                              Marilyn M. Thomas




                                                       iii
    United States Air Force




                                  Air Force Vision
“The United States Air Force will be a trusted, reliable joint partner with our sister
 services known for integrity in all of our activities, including supporting the joint
    mission first and foremost. We will provide compelling air, space, and cyber
capabilities for use by the Combatant Commanders. We will excel as stewards of all
Air Force resources in service to the American people, while providing precise and
              reliable Global Vigilance, Reach and Power for the nation.”




                                 Air Force Mission
                  The mission of the United States Air Force is to
                  fly, fight and win…in air, space and cyberspace.
                                                                                 Agency Financial Report                           2012
                                                                                              Management Discussion and Analysis



Management Discussion and Analysis
                                                                          Excellence in All We Do
Air Force Heritage
                                                                       Our critical capabilities are:
                                                                         Global Vigilance
                                                                         Global Reach
                                                                         Global Power
                                                                       Our priorities are:
                                                                         Continue to Strengthen the Nuclear Enterprise
                                                                         Partner with the Joint and Coalition Team to
                                                                          Win Today’s fight
                                                                         Develop and Care for Airmen and their Families
                                                                         Modernize our Air and Space Inventories,
                                                                          Organizations and Training
                                                                         Recapture Acquisition Excellence
                                                                       Our core functions are:
                                                                         Nuclear Deterrence Operations
                                                                         Air Superiority
     OVER GERMANY -- B-17 Flying Fortresses fly a bombing run to         Space Superiority
      Neumunster, Germany, on April 13, 1945. On May 8, Germany          Cyberspace Superiority
            surrendered, and Victory in Europe Day was declared.
                                                                         Command and Control
                                                                         Global Integrated Intelligence, Surveillance, and
―Air power is the total aviation activity—                                Reconnaissance (ISR)
civilian and military, commercial and                                    Global Precision Attack
private, potential as well as existing.‖                                 Special Operations
Hap Arnold                                                               Rapid Global Mobility
                                                                         Personnel Recovery Operations
We are America’s Airmen. We follow and celebrate                         Agile Combat Support
the path of greatness that has led us on the course                      Building Partnerships
to develop the capabilities with which we fly, fight,                  One of the key enablers of our operational success,
and win. As we celebrate our 65th anniversary as a                     whether on the approaches into Berlin in the 1940s
stand alone service, we recognize the pursuit of air                   or in the skies over Iraq and Afghanistan today,
and space dominance for our country was not won                        remains our Air Force Financial Management
by words alone, but by the unending efforts of our                     professionals from all components of the total force.
forebears. Our mission is to fly, fight and win…in                     They demonstrate their devotion to duty,
air, space and cyberspace. We are constantly                           capabilities, and innovation on a daily basis.
aware of our vision:
The United States Air Force will be a trusted and
reliable joint partner with our sister services known
for integrity in all of our activities, including
supporting the joint mission first and foremost. We
will provide compelling air, space, and cyber
capabilities for use by the combatant commanders.
We will excel as stewards of all Air Force resources
in service to the American people, while providing
precise and reliable Global Vigilance, Reach and
Power for the nation.
Our core values are:
                                                                       C-130H Hercules deploys flares over Alaska as part of a training
  Integrity First                                                     exercise during Red Flag Alaska
  Service Before Self

                                                                   1
        United States Air Force

                                                            As part of the FY12 budget, the Air Force exceeded
Air Force in Action--FY 2012                                our efficiency target by $5 billion and identified
Since the first clash of battle, warriors have relied       $33.3 billion in efficiencies in an effort to make
on breaking through the lines to achieve victory.           resources available to better support warfighter and
However, once the airplane was used over the                readiness programs across the FYDP. Examples of
battlefields of World War I, the battle itself was          these efficiencies include:
forever revolutionized. In the 65 years since the              Consolidating installation support management
establishment of the United States Air Force as a               to improve Air Force-wide standardization and
separate Service, our technological, strategic, and             prioritization;
tactical innovations have played an important role             Reducing fuel consumption by leveraging
in shaping the way the United States engages in                 proven commercial aviation practices for flight
war, deters aggression, and maintains peace. The                planning and weight reduction;
Air Force has pioneered advancements that have                 Reducing acquisition costs by consolidating
been essential in ensuring our nation’s security                services, scrutinizing contracts, and reducing
while reducing combat casualties. As the                        contract support;
Department of Defense faces fiscal pressures and               Improving our procurement of satellites with a
an evolving strategic environment, America will                 new acquisition strategy which will lower
continue to depend on the Air Force to contribute               procurement costs and stabilize the defense
innovative strategies and systems to conduct our                industrial base.
most important military missions.
                                                            The realization of these efficiencies allowed the Air
During the past decade, the United States has               Force to reallocate funding to modernize and
engaged in a prolonged war aimed at disrupting,             recapitalize weapons systems, improve capabilities
dismantling and defeating al-Qa’ida and its                 and enhance warfighter operations. Examples
network. A major part of this effort involved a long-       include:
term and large-scale presence on the ground. The               Investing in the Long-Range Strike Family of
withdrawal of combat forces from Iraq and the                   Systems, including a new penetrating bomber
drawdown in Afghanistan signal the beginning of a               as a key component of the Joint portfolio;
new chapter for America in which we will rely more             Repurposing 5,600 active duty billets to support
heavily on airpower to complement innovative,                   ISR capability, including the U-2 continuation
lower-cost, lighter footprint approaches around the            Procuring an additional 16 simulators for F-35
world. As the Nation sustains its global presence               aircrew training;
with a renewed emphasis on the Asia-Pacific                    Recapitalizing aging aircraft;
region, in addition to continued focus on the Middle           Improving aircraft computer infrastructure;
East, we must maintain the best military in the
world—a force capable of deterring conflict, a force        All of this is possible with the multi-talented Total
capable of projecting power, and a force capable of         Force. The overall programmed Air Force end
winning wars. We will preserve the capability and           strength for FY 2012 is more than 693,540
expertise in irregular warfare that we developed            personnel. This includes 328,800 active duty,
over the past decade and we will invest in fielding         75,840 Reserve, 106,700 Air National Guard, and
appropriate amounts of new and existing military            182,200 civilian personnel. The Secretary of
capabilities in order to meet the national security         Defense has limited our civilian workforce to FY
challenges of today and the future.                         2010 levels, with limited growth allowed for specific
                                                            priorities like the acquisition workforce. The Air
In June 2010, the Secretary of Defense challenged           Force conducted an enterprise-wide review of
the Services to increase funding for mission                civilian personnel end strength and, to facilitate
activities by identifying efficiencies in overhead,         DoD’s efforts for efficiencies and reinvestment
support and other less mission-essential areas. The         possibilities, offered early retirement to those
efficiency target for the Air Force was $28.3 billion       eligible civilian personnel. At the completion of this
across the Future Years Defense Program (FYDP).             effort, the Air Force anticipates meeting its manning
The Air Force is committed to enhancing                     restrictions without adverse displacement of the
capabilities by reducing expenses allocated to              civilian workforce.
overhead and support functions, while shifting
resources to modernization and readiness
programs.

                                                        2
                                                                    Agency Financial Report                         2012
                                                                              Management Discussion and Analysis

―Although we will be smaller and leaner,                  of several flights. Additionally, there are other
                                                          types of organizations in the Air Force structure
we will not sacrifice readiness.‖                         such as centers, field operating agencies and direct
Secretary of the Air Force Michael B. Donley
                                                          reporting units.


                                                          Air Combat Command (ACC)
Air Force Structure                                                     Mission: Air Combat Command is the
The command line of the Air Force flows from the                        primary force provider of combat
President and the National Command Authority to                         airpower to America’s warfighting
the Secretary of Defense and the Department of                         commands.
the Air Force. The Air Force is headed by the
Secretary of the Air Force (SECAF), with the Chief        Responsibilities: To support global
of Staff reporting to the Secretary (see Figure 1).       implementation of national security strategy, ACC
Immediately subordinate to the departmental               operates fighter, bomber, reconnaissance, battle-
headquarters are the Major Commands                       management, and electronic-combat aircraft. It
(MAJCOMs), Field Operating Agencies (FOAs),               also provides command, control, communications
Direct Reporting Units (DRUs), and the Auxiliary.         and intelligence systems, and conducts global
                                                          information operations.
                Figure 1: Air Force Organization
Chart                                                     As a force provider, ACC organizes, trains, equips
                                                          and maintains combat-ready forces for rapid
                                                          deployment and employment while ensuring
                                                          strategic air defense forces are ready to meet the
                                                          challenges of peacetime air sovereignty and
                                                          wartime air defense. ACC numbered air forces
                                                          provide the air component to the Central, Southern
                                                          and Northern Combatant Commands. ACC also
                                                          augments forces to the European, Pacific, and
                                                          Strategic Combatant Commands.
                                                          Command Personnel: 153,000




Major Command Structure
Most units of the Air Force are assigned to a
specific major command (MAJCOM), led by a
general officer. MAJCOMs have extensive
functional responsibilities as will be shown on the
following pages. They may be subdivided into
Numbered Air Forces (NAF) with each responsible
for one or more wings or independent groups.
Wings are the primary units of the working Air
Force and are responsible for maintaining an Air
Force base or carrying out a specific mission.
                                                          Air Force Thunderbirds (F-16) perform above Turku Airport, Finland
Wings may be commanded by a general officer or a
colonel. A wing may have several squadrons in
more than one dependent group. Wings typically
contain an operations group, a maintenance group,
a support group and a medical group.
The majority of individual officers and Airmen are
assigned to a squadron, which may be composed

                                                      3
       United States Air Force

Air Education and Training Command (AETC)                   Air Force Reserve Command (AFRC)
                                                                        Mission: To provide combat ready
             Mission: Develop America’s Airmen
                                                                        forces to fly, fight, and win in air,
             today……for tomorrow.
                                                                        space, and cyberspace.
              Responsibilities: With a vision to
                                                                          Responsibilities: The AFRC
              deliver unrivaled air, space and
                                                            augments the active component. The AFRC is
cyberspace education and training, the command
                                                            extremely cost effective and retains valuable
recruits Airmen and provides basic military training,
                                                            military expertise and mission continuity on a
initial and advanced technical training, flying
                                                            ready-now, but called-up as needed basis.
training, medical training, space and missile
                                                            Reserve units are staffed and trained to meet the
training, cyber training, and professional military
                                                            same training standards and readiness levels as
and degree-granting professional education. The
                                                            the active component forces, and are supplied with
command also conducts joint, readiness and Air
                                                            the same equipment on an equal priority. Because
Force security assistance training. AETC’s role
                                                            Reservists are community neighbors and civilian
makes it the first command to touch the life of
                                                            employees in society, many Americans who
nearly every Airman.
                                                            interact with them have a better understanding of
Command Personnel: 65,960                                   the Armed Forces and military service.
Air Force Global Strike Command (AFGSC)                     Command Personnel: 75,747
            Mission: Develop and provide
                                                                         Air Force Space Command (AFSPC)
            combat-ready forces for nuclear
                                                                         Mission: Provide resilient and cost-
            deterrence and global strike operations
                                                                         effective space and cyberspace
            ... Safe, Secure, Effective, to support
                                                                         capabilities for the joint force and the
            the President of the United States and
                                                            nation.
combatant commanders.
                                                            Responsibilities: Organizing, equipping, training
Responsibilities: Organize, train and equip the
                                                            and maintaining mission-ready space and
Air Force’s three intercontinental ballistic missile
                                                            cyberspace forces and capabilities for North
wings, two B-52 Stratofortress wings and the single
                                                            American Aerospace Defense Command, U.S.
B-2 Spirit wing. The three weapons systems make
                                                            Strategic Command and other combatant
up two-thirds of the nation’s strategic nuclear triad
                                                            commands world-wide. AFSPC oversees Air Force
by providing the land-based and airborne nuclear
                                                            network operations to provide capabilities in,
deterrent forces.
                                                            through, and from cyberspace; manages a global
Command Personnel: 24,983                                   network of satellites, and is responsible for space
Air Force Materiel Command (AFMC)                           system development and acquisition. It executes
           Mission: Deliver technology,                     spacelift to launch satellites with a variety of
           acquisition, test, sustainment and               expendable launch systems and operates them to
           expeditionary capabilities to the                provide space capabilities in support of combatant
           warfighter.                                      commanders around the clock. It provides
                                                            positioning, navigation, timing, communications,
Responsibilities: AFMC delivers war-winning                 missile warning, weather and intelligence
expeditionary capabilities to the warfighter through        warfighting support.
development and transition of technology,
professional acquisition management, exacting test          AFSPC operates sensors that provide direct attack
and evaluation, and world-class sustainment of all          warning and assessment to U.S. Strategic
Air Force weapon systems. From cradle-to-grave,             Command and North American Aerospace Defense
AFMC provides the work force and infrastructure             Command. The command develops, acquires,
necessary to ensure the United States remains the           fields, operates and sustains space systems and
world’s most respected Air and Space Force.                 fields and sustains cyber systems.

Command Personnel: 81,956                                   Command Personnel: 42,000




                                                        4
                                                                    Agency Financial Report                2012
                                                                             Management Discussion and Analysis

Air Mobility Command (AMC)                                  State Mission: When ANG units are not mobilized
             Mission: Provide global air mobility ...       or under federal control, they report to the governor
             right effects, right place, right time.        of their respective state, territory or the
                                                            commanding general of the District of Columbia
              Responsibilities: AMC Airmen —
                                                            National Guard. Under state law, ANG provides
              active duty, Air National Guard, Air
                                                            protection of life and property, and preserves
Force Reserve and civilians — provide airlift and
                                                            peace, order and public safety through emergency
aerial refueling for all of America’s armed forces.
                                                            relief support during natural disasters, search and
They also provide aeromedical evacuation and
                                                            rescue operations, support to civil defense
Global Reach laydown. The command has many
                                                            authorities, maintenance of vital public services and
special duty and operational support aircraft and
                                                            counterdrug operations.
plays a crucial role in providing humanitarian
support at home and around the world.                       Responsibilities: The Air National Guard provides
                                                            tactical airlift, air refueling tankers, general purpose
Command Personnel: 133,975
                                                            fighters, rescue and recovery capabilities, tactical
                                                            air support, weather flights, strategic airlift, special
                                                            operations capabilities and aeromedical evacuation
                                                            units.
                                                            Command Personnel: 106,700
                                                                          Pacific Air Forces (PACAF)
                                                                          Mission: Provide Pacific Command
                                                                          integrated expeditionary Air Force
                                                                          capabilities to defend the homeland,
                                                            promise stability, dissuade/deter aggression, and
                                                            swiftly defeat enemies.
                                                            Responsibilities: PACAF’s area of responsibility
                                                            extends from the west coast of the United States to
C-5M Super Galaxy transports two M-1 Abrams tanks.
                                                            the east coast of Africa and from the Arctic to the
              Air National Guard (ANG)                      Antarctic, covering more than 100 million square
              Mission: The Air National Guard has           miles. The area is home to 50 percent of the
              both a federal and state mission. The         world’s population in 36 nations and over one-third
              dual mission, a provision of the U. S.        of the global economic output. The unique location
Constitution, results in each guardsman holding             of the strategic triangle (Hawaii-Guam-Alaska)
membership in the National Guard of his or her              gives our nation persistent presence and options to
state and in the National Guard of the United               project U.S. airpower from sovereign territory.
States.                                                     Command Personnel: 43,623
Federal Mission: Maintain well-trained, well-               U.S. Air Forces in Europe (USAFE)
equipped units available for prompt mobilization
                                                                          Mission: As the air component for
during war and provide assistance during national
                                                                          both U.S. European Command
emergencies, such as natural disasters or civil
                                                                          (USEUCOM), and U.S. Africa
disturbances. During peace, the combat-ready units
                                                                          Command (USAFRICOM), USAFE
and support units are assigned to Air Force major
                                                            directs air operations in a theater spanning three
commands to carry out missions compatible with
                                                            continents, covering more than 19 million square
training, mobilization readiness, humanitarian and
                                                            miles, containing 105 independent states, and
contingency operations. ANG provides almost half
                                                            possessing more than a quarter of the world's
of the Air Force’s tactical airlift support, combat
                                                            population and more than a quarter of the world's
communications functions, aeromedical evacuation
                                                            Gross Domestic Product.
and aerial refueling. In addition, ANG has total
responsibility for air defense of the entire United         Responsibilities: USAFE is an Air Expeditionary
States.                                                     Force with a mobile and deployable mix of people
                                                            and resources that can simultaneously operate in
                                                            multiple locations. Its role in Europe and Africa has

                                                        5
          United States Air Force

expanded from warfighting to include humanitarian              organizational responsibilities as MAJCOMs. The
and peacekeeping operations, as well as other non-             DRUs are the Air Force Academy, Air Force District
traditional contingencies throughout its area of               of Washington, and Air Force Operational Test and
responsibility. In peacetime, USAFE trains and                 Evaluation Center.
equips U.S. Air Force units pledged to the North
                                                               Civil Air Patrol (CAP)
Atlantic Treaty Organization (NATO).
                                                                           Mission: Support America’s
Command Personnel: 36,763                                                   communities with emergency
                                                                            response, diverse aviation and ground
              Air Force Special Operations
                                                                            service, youth development and
              Command (AFSOC)
                                                               promotion of air and space power.
              Mission: America’s specialized air
              power — a step ahead in a changing               Responsibilities: Civil Air Patrol provides
world, delivering special operations power anytime,            operational capabilities in support of aerial and
anywhere.                                                      ground search and rescue disaster relief and
                                                               counterdrug and homeland security missions. It
Responsibilities: Air Force Special Operations
                                                               conducts 90 percent of all inland search-and-
Command provides Air Force special operations
                                                               rescue missions tasked by the Air Force Rescue
forces (SOF) for worldwide deployment and
                                                               Coordination Center. It builds strong citizens for the
assignment to combatant commands. The
                                                               future by providing leadership training, technical
command’s SOF are composed of highly trained,
                                                               education, scholarships and career education to
rapidly deployable airmen, conducting global
                                                               young men and women, ages 12 to 21, in the CAP
special operations missions ranging from precision
                                                               cadet program. It promotes and supports
application of firepower, to infiltration, exfiltration,
                                                               aerospace education, both for its members and the
resupply, and refueling of SOF operational
                                                               general public, and conducts a national school
elements.
                                                               enrichment program from K-12.
The command’s core missions include battlefield air
                                                               Personnel: 61,451
operations; agile combat support; aviation foreign
internal defense; information operations; precision            Field Operating Agency (FOA)
aerospace fires; psychological operations;                     A FOA is a subdivision of the Air Force that carries
specialized air mobility; specialized refueling; and           out field activities under the operational control of a
intelligence, surveillance and reconnaissance.                 Headquarters U.S. Air Force functional manager.
                                                               FOAs perform field activities beyond the scope of
Command Personnel: 17,820
                                                               any of the MAJCOMs. Examples of FOAs include
                                                               the Air Force Audit Agency, Air Force Center for
                                                               Engineering and the Environment, Air Force
                                                               Financial Services Center, Air Force Services
                                                               Agency, and Air Force Weather Agency, among
                                                               others.


                                                               Air Force Resources
                                                               The three vital resources to successful
                                                               accomplishment of the Air Force mission are:
                                                               Places: A network of bases that reflect the Air
                                                               Force’s global competencies. The Air Force is a
CV-22 Osprey, Hurlbert Field, Fla. (Search & Rescue)
                                                               global force, spanning facilities both in the United
                                                               States and around the world. The Air Force
Direct Reporting Unit (DRU)                                    currently has 65 major bases in the continental
A DRU is a subdivision of the Air Force that is                United States and another 14 major bases outside
directly subordinate to Headquarters Air Force,                the continental United States. The Air Force
separate from any MAJCOM or FOA because of a                   maintains an additional 79 minor bases, which are
unique mission, legal requirements, or other                   primarily used by the Air National Guard.
factors. DRUs have the same administrative and

                                                           6
                                                                    Agency Financial Report               2012
                                                                             Management Discussion and Analysis

People: Trained, motivated, and dedicated. The                     Execute a full review of the Department’s
Air Force consists of over 693,540 military and                     financial controls over the next two years
civilian personnel. Aerospace power is a proven                     and establish interim goals against which to
necessity for victory on land, sea, air, space, and                 assess progress.
cyberspace. The foundation for this is our people.                 Meet the legal requirements to achieve full
The reserve component (Air Force Reserve and Air                    audit readiness for all DoD financial
National Guard) has become more important than                      statements by 2017.
ever in sustaining worldwide operations. These
warriors make possible the successful                        Legal requirements in the National Defense
accomplishment of Air Force missions.                        Authorization Act of 2010 require the DoD to assert
                                                             all financial statements as audit ready by
Systems: Modern weapons platforms that                       September 30, 2017. The Department has
integrate air, space, and cyber assets into an               developed an accelerated plan to asset the SBR as
undefeatable force. Air Force “systems” no longer            audit ready by 2014 and is committed to full audit
mean only “manned aircraft.” Systems also include            readiness by 2017.
space launch vehicles, satellites, intelligence,
surveillance and reconnaissance assets,                      While these dates are a challenging deadline for a
unmanned aerial systems, and the cohesive                    military organization as large and diverse as the Air
infrastructure to all Air Force systems. All Air Force       Force, the strong engagement of senior leadership,
systems are essential assets for Air Force people            additional financial resources provided in recent
to accomplish the mission.                                   years, and a focus on fielding effective financial
                                                             systems will help the Air Force achieve audit
Management Assertions                                        readiness. We are focusing our efforts on the
We are mindful of the current fiscal situation and           information most relevant to decision makers, and
recognize that we must contribute to government-             the Air Force Financial Improvement Plan is closely
wide deficit reduction as a national security                aligned with the DoD strategy to achieve a clean
imperative. Our ability to make proper investments           audit opinion.
to modernize and sustain the capabilities of the Air
Force is directly tied to the economic health of the         Progress Towards Auditability
United States. As stewards of the American                   Statement of Budgetary Resources
taxpayer’s dollars, the Air Force is committed to            During FY 2012, the Air Force continued to employ
achieving audit readiness and meeting Secretary              a strategy to achieve audit readiness of the SBR
Panetta’s accelerated goal to achieve auditability of        that focused on the lifecycle of appropriated funds.
the Statement of Budgetary Resources (SBR) by                A methodology for achieving auditability of the SBR
2014.                                                        was developed by the Air Force with input and
                                                             coordination from the Defense Finance and
Statutory Requirements                                       Accounting Service (DFAS). This methodology
The Chief Financial Officers’ Act of 1990 requires           focused on assessable units that cover the fund
the 24 largest federal agencies to prepare annual            receipt and distribution, obligation, outlay,
financial statements. The Government                         reimbursement and reconciliation processes that
Management Reform Act of 1994 requires these                 impact the entire SBR.
financial statements to be audited. The DoD is
striving to improve financial systems and processes          In previous years the Air Force asserted audit
so that it could undergo an audit without being              readiness on Appropriations Received and Fund
disclaimed.                                                  Balance with Treasury (FBWT) reconciliation
                                                             process. An independent public accounting firm
In a memorandum dated October 13, 2011,                      issued unqualified examination opinions in August
Secretary of Defense Panetta directed the DoD to             2011 and October 2011, respectively.
accelerate audit readiness efforts. Specifically the
Secretary called for the Department to:                      In April 2012, the Air Force released its Statement
                                                             of Budgetary Resources Audit Acceleration Plan.
      Achieve audit readiness of the SBR by the             Described within the plan is the Air Force’s
       end of calendar year 2014.                            resources and schedule to accomplish the
      Increase emphasis on accountability of                Secretary of Defense’s goals of: (1) audit readiness
       assets.                                               of the SBR by the end of 2014. This plan revealed
                                                             the collective expertise of functional leaders, key

                                                         7
        United States Air Force

stakeholder from Headquarters Air Force and Major              from REMIS. The test results indicate that the Air
Commands (MAJCOMs), representatives from the                   Force has effective internal controls over the
Office of the Under Secretary for Defense                      accountability for cruise missiles and aerial
(Comptroller) and DFAS.                                        target/drone assets.
The Under Secretary of Defense (Comptroller)                   In the 3rd quarter of FY 2012, the DoD Inspector
requested that each military service perform an                General issued a clean examination opinion on
assessment of a major acquisition program. For                 military equipment, cruise missiles, and aerial
that reason, the Air Force asserted the Major                  targets/drones. The value of these assets is
Defense Acquisition Program (MDAP) as audit                    approximately $86 billion, which represents 41
ready in 3rd quarter 2012, two months ahead of                 percent of Air Force mission critical assets and 14
schedule. The Air Force selected the Space-Based               percent of DoD mission critical assets.
Infrared System (SBIRS), an advanced space
                                                               During the 2nd quarter of FY 2012, the Air Force
surveillance system. The objective of this assertion
                                                               asserted spare engines and uninstalled missile
was to demonstrate financial stewardship of funds
                                                               motors as audit ready. These two assertions are
allotted for a major acquisition program and to
                                                               undergoing DoD Inspector General examination
determine that Appropriation Status by FY Program
                                                               and results are expected in November 2012.
and Subaccount Report (the AR(M) 1002) serves
as the basis for documenting and verifying the                 Internal Controls
viability of the SBIRS's business processes. Funds             The Air Force operates a robust Managers’ Internal
distribution, obligations and expenditures were                Control Program in compliance with OMB Circular
reviewed to determine that the amounts reported in             A-123 and the Government Accountability Office’s
the AR(M) 1002 were materially correct and were                standards for internal control. This program
supported by the required documentation.                       employs a comprehensive system of continuous
                                                               evaluation of internal controls and is fully integrated
In the 4th quarter 2012, the Air Force asserted the
                                                               with functional program control assessments used
funds distribution process from the MAJCOM level
                                                               to help ensure that the goals of the Department of
to base-level entities as audit ready.
                                                               the Air Force are achieved each year. Under the
Existence and Completeness (E&C)                               guidance of the Office of the Under Secretary of
                                                               Defense (Comptroller), the Secretary of the Air
The Air Force continues to execute a consistent
                                                               Force reports a level of assurance over its internal
strategy to achieve E&C audit readiness for
                                                               controls in three distinct areas: Internal Control over
mission-critical assets, with a specific focus on the
                                                               Nonfinancial Operations (ICONO), Internal Control
validation of physical inventory documentation. The
                                                               over Financial Reporting (ICOFR), and Internal
Air Force is also leveraging existing E&C field work
                                                               Control over Financial Systems (ICOFS).
performed by the Air Force Audit Agency (AFAA) to
shorten the time required to draft primary assertion           Internal Control Over Financial Reporting
documentation and provide supporting physical                  As directed in the Under Secretary of Defense
inventory documentation and working papers.                    (Comptroller) Memorandums dated August 2009,
                                                               and the December 2011, Financial Improvement
Military equipment was asserted as audit ready in
                                                               and Audit Readiness Guidance, the Air Force
the 1st Quarter of FY 2011. Military equipment
                                                               integrated FIAR methodology into ICOFR and
includes aircraft, inter-continental ballistic missiles,
                                                               focused on the strategic prioritization of the SBR
and satellites. This assertion was supported by
                                                               and the existence and completeness (E&C) of
physical inventory testing of selected aircraft assets
                                                               mission critical assets. Under this plan, the Air
in the Reliability and Maintainability Information
                                                               Force completed ICOFR reviews as a part of
System (REMIS). The test results indicate that the
                                                               existence and completeness audit ready assertions
Air Force has highly effective internal controls over
                                                               for elements of OM&S and the audit examination of
military equipment asset accountability.
                                                               military equipment. During FY 2012, the Air Force
Cruise missiles and aerial targets/drones, two sub-            established sustainable valuation and reporting
assessable units of Operating Materials and                    requirements for military equipment and validated
Supply, was asserted as audit ready in the 3rd                 the effectiveness of corrective actions to mitigate
quarter of FY 2011. AFAA performed physical                    portions of the OM&S ICOFR material weakness.
inventory testing by selecting a representative                In addition, the Air Force evaluated the
sample of cruise missiles and aerial targets/drones            effectiveness of internal controls over the key

                                                           8
                                                                  Agency Financial Report               2012
                                                                           Management Discussion and Analysis

Procure to Pay and Order to Cash business                  under what was the Defense Department’s
processes utilizing the Department's newest                Business Transformation Agency. The DEAMS
financial management system, the Defense                   mission is to support the Nation’s warfighters with
Enterprise Accounting Management System                    timely, accurate, and reliable financial information,
(DEAMS). This system will serve as the future              enabling more efficient and effective decision
enterprise core financial management solution              making by DoD managers. DEAMS is enabling
enabling the Air Force to achieve financial                reengineered financial management processes and
statement audit readiness. This effort involved            activities through a unified system and business
documenting key processes and internal controls,           enterprise architecture, standardized business rules
performing risk assessments, and testing and               and processes, and the first implementation of the
analyzing the effectiveness of the key controls            new Standard Financial Information Structure.
consistent with OMB A-123, Appendix A. We
                                                           The Air Force is implementing DEAMS through a
continue to track and report on seven other
                                                           two-increment development approach with eight
previously identified ICOFR material weaknesses
                                                           scheduled software releases. Increment 1, Release
that are included in the Secretary's Annual
                                                           1 supports a technology demonstration at Scott
Statement of Assurance.
                                                           AFB, Illinois, involving USTRANSCOM;
Continuous Improvement                                     Headquarters, Air Mobility Command; and Air
The Air Force has issued a Commander’s Checklist           Force Active Duty, selected Air National Guard and
to assist commanders and directors in evaluating           Air Force Reserve tenant organizations on or
and reporting the organization’s financial                 associated with Scott AFB.
management effectiveness and audit readiness.
                                                           During FY 2007, the program successfully
Just as a command uses checklists to assess
                                                           demonstrated the system’s capability to support
engineering, logistics, medical, and operational
                                                           commitment accounting. In May of 2010 an
readiness before the next deployment, the
                                                           operational version of Release 1 was deployed at
Commander’s Checklist assess an organization’s
                                                           Scott AFB, taking the full Oracle E-Business Suite
financial readiness for upcoming financial audits.
                                                           to those same units.
As the Air Force conducted the prescribed phases
of discovery and evaluation for assessable units           Scheduled software Releases 1-2 under Increment
within the Air Force audit readiness strategy, there       1 will expand DEAMS capability to the remaining
were several issues that surfaced, corrective              AMC bases. Releases 3-4 will enable a major
actions were developed, and a way forward to audit         system upgrade and further deploy the system to
readiness was identified. The continual evolution of       the HQ’s of the Surface Deployment and
the Air Force audit readiness strategy incorporates        Distribution Command (SDDC) and Military Sealift
lessons learned, identifies best practices from past       Command (MSC). By FY 2017 DEAMS Increment
assertions and the other Services, leverages the           2, through a series of software support releases, is
knowledge of the personnel in the field that perform       scheduled to have deployed DEAMS to the
the current processes, and integrates with the ERP         remaining Air Force MAJCOMs, their installations
systems of the future to ensure audit readiness is         and supported tenant organizations providing full
sustained. The existing governance structure               financial management and reporting capabilities to
continued to monitor progress, address obstacles           the Air Force.
and work collectively as an enterprise to ensure           When fully fielded, DEAMS will transform financial
audit readiness is a priority and remains one until        management and set a new standard for effective
complete Air Force audit readiness is achieved.            and efficient stewardship of our Nation’s Defense
Current and Future Financial Systems - Defense             resources.
Enterprise Accounting and Management System                Analysis of Financial Statements
(DEAMS)                                                    As discussed in the accompanying independent
Our systems enable us to maintain stewardship              auditor’s report, long-standing financial
over the resources entrusted to us. DEAMS is key           management challenges prevent the Air Force from
to our current and future ability to manage the Air        producing auditable financial statements for either
Force’s resources. DEAMS was launched in August            the General Fund or the Working Capital Fund. The
2003 as a joint initiative between the Air Force,          Air Force has made significant progress toward
U.S. Transportation Command (USTRANSCOM)                   improving the quality and timeliness of our financial
and the Defense Finance and Accounting Service

                                                       9
        United States Air Force

information. However, we are currently unable to              Research, Development, Test and Evaluation
fully implement all elements of U.S. Generally                (RDT&E)
Accepted Accounting Principles and Office of                  This appropriation provides funding for the research
Management and Budget (OMB) Circular A-136,                   and development of next generation weapons and
“Financial Reporting Requirements,” due to                    platforms and for the testing and evaluation of
limitations of our financial and non-financial                current prototypes and upgrades. The FY 2012
management processes and systems.                             initiatives include:
                                                                Continue F-35 flight testing
Air Force General Fund                                          Invest in Long Range Strike Family of Systems,
The General Fund is the fund into which most                     including a new penetrating bomber
receipts of the United States Government are                    Continue development of four KC-X integration
deposited. Exceptions include receipts from specific             & capability demonstration aircraft
sources required by law to be deposited into other              Continue Defense Weather Satellite System
designated funds and receipts from appropriations                development
made by Congress to carry on the general and                    Continue development and integration of ISR
ordinary operations of the Government. The Notes                 enhancements to unmanned platforms
to the Principal Statements provide more detail on
                                                              Military Construction (MILCON)
the appropriations. The major appropriations in the
                                                              Typically this appropriation applies to any military
Air Force General Fund and their uses are
                                                              construction project, either major or minor, than
introduced below.
                                                              exceeds $750,000, and for the planning and design
Military Personnel (MILPERS)                                  for those projects.
This appropriation provides funding for the care and
                                                              Military Family Housing
payroll of our Airmen. It includes all direct military
compensation for active duty, reserve, guard, and             The Military Family Housing Construction account
retired personnel including regular pay, allowances,          funds new construction, construction
and bonuses. Additionally, this appropriation funds           improvements, planning and design and the
all Permanent Change of Station (PCS) moves and               Federal government costs for family housing
supports a total force (active, reserve and guard) of         privatization projects. The Air Force closed the
511,340.                                                      Western Group privatization project in FY 2012.
                                                              Also, the appropriation delivered 1,932 units at
Operations & Maintenance (O&M)
                                                              Japan, Europe, United Kingdom, and the United
This appropriation funds key readiness programs
                                                              States in FY 2012. The Military Family Housing
critical to prepare forces for combat operations and
                                                              Operation and Maintenance accounts pays for
other peacetime missions. These include day-to-
                                                              maintenance and repair, furnishings, management,
day operating costs such as flying hours, depot
                                                              services, utilities, leasing, interest, mortgage
maintenance, training, spare parts, and base
                                                              insurance, and miscellaneous expenses. The FY
operations. The FY 2012 appropriation supported
                                                              2012 Military Family Housing program was
79 major installations, including operations at two
                                                              approximately $499 million.
space lift ranges, and funded approximately 1.2
million flying hours.                                         Base Realignment and Closure (BRAC)
                                                              The law authorizes the BRAC accounts to fund
Procurement
                                                              one-time, nonrecurring costs required to implement
This appropriation provides for purchase of aircraft,
                                                              approved BRAC recommendations. Following the
missiles, vehicles, electronic and
                                                              completion of the statutory implementation period,
telecommunications equipment, satellite and launch
                                                              the accounts may only be used for environmental
equipment, base maintenance and support
                                                              restoration and property management and to
equipment, and investment-type spares. The FY
                                                              discharge legal obligations incurred. In addition,
2012 program expanded, modified and upgraded
                                                              the law stipulates the accounts as the sole source
weapons systems (ISR-Reaper procurement &
                                                              of environmental restoration for base closures
RPA capabilities, Light Attack Armed
                                                              covered by the law. The FY 2012 BRAC program
Reconnaissance buys, Joint Strike Fighter,
                                                              was approximately $125 million.
satellites).



                                                         10
                                                                             Agency Financial Report                       2012
                                                                                      Management Discussion and Analysis

Results of Operation                                                  Total assets were $313.5 billion as of September
The Combined Statement of Budgetary Resources                         30, 2012, compared to $306.8 billion as of
presents total budgetary resources of $215.3 billion                  September 30, 2011. Total liabilities were $26.0
that were available to the AFGF during FY 2012.                       billion as of September 30, 2012, compared to
Total budgetary resources for FY 2011 were $215.6                     $24.8 billion as of September 30, 2011.
billion. Total obligations incurred in FY 2012 were
                                                                                 AFGF Total Assets, FY 2012
$182.3 billion compared to $177.6 billion for FY
                                                                                               ($ in Billions)
2011.
                                                                                                $13.3
               AFGF Sources of Funds, FY 2012
                           ($ in Billions)                                                $50.7                $112.4


                        $42.0                                                            $137.1
       $10.4

                                             $162.9
                                                                                   Fund Balance with Treasury
                                                                                   General Property, Plant and Equipment
                                                                                   Inventory
                                                                                   Remaining Assets
           Appropriations
           Reimbursements
           Unobligated Balance Forward From Prior Years                         AFGF Total Liabilities, FY 2012
                                                                                             ($ in Billions)

The Combined Statement of Net Cost presents net                                                $1.2
cost of operations of $158.7 billion during FY 2012
                                                                                                                 $9.1
compared to $157.7 billion for FY 2011. Net cost of                               $8.8
operations represents gross costs incurred by the
AFGF less earned revenue.
                                                                                                    $6.9
       AFGF Net Cost of Operation, FY 2008 - 2012
                           ($ in Billions)


$200                                                                                      Environmental Liabilities
                                                                                          Accounts Payable
                                                                                          Other Liabilities
$150
                                                                                          Remaining Liabilities
$100

 $50                                                                  Air Force Working Capital Fund
                                                                      The Air Force Working Capital Fund (AFWCF)
  $0                                                                  conducts business in two primary areas: the
         2008         2009          2010         2011     2012        Consolidated Sustainment Activity Group (CSAG)
                  Fiscal Year Ending September 30                     and the Supply Management Activity Group-Retail
                                                                      (SMAG-R). Air Force Materiel Command (AFMC)
                                                                      manages more than 90 percent of the AFWCF
Financial Position
                                                                      business activity for Supply Management and
The AFGF continued to report a positive net
                                                                      Depot Maintenance activities. These functions
position on its Consolidated Balance Sheet. Net
                                                                      provide goods and services to the Air Force and
position is the difference between total assets (what
                                                                      DoD customers, as well as customers outside the
is owned) and total liabilities (what is owed). As of
                                                                      DoD (e.g., local and foreign governments). Supply
September 30, 2012, net position totaled $287.6
                                                                      Management provides expedited repair,
billion. As of September 30, 2011 net position
                                                                      replenishment and inventory control for spare parts
totaled $282.0 billion.
                                                                      and associated logistics support services to fulfill
                                                                      Air Force needs during war and peacetime. Depot

                                                                 11
       United States Air Force

Maintenance provides economical and responsive              surge repair operations and realign capacity to
repair, overhaul and modification of aircraft,              support the war fighter’s immediate needs.
missiles, engines, other major end items and
                                                            CSAG Maintenance Division is managed by AFMC
associated components.
                                                            and employs over 24,000 personnel supporting four
In FY 1998 the Air Force was appointed the                  industrial locations:
Executive Agent for Transportation Working Capital
                                                             Ogden Air Logistics Center (OO-ALC), UT
Fund (TWCF) cash. Even though AFWCF manages
                                                             Oklahoma City Air Logistics Center (OC-ALC),
TWCF’s cash, daily operations are managed by the
                                                              OK
United States Transportation Command. As a
                                                             Warner Robins Air Logistics Center (WR-ALC),
result, TWCF’s financial statements are reported
                                                              GA
with other Defense Agencies.
                                                             Aerospace Maintenance and Regeneration
The AFWCF allows the Air Force to accomplish the              Group (AMARG), Tucson, AZ
following: ensure readiness through reduced
                                                            The CSAG Supply Division is primarily
support costs, stabilized rates and responsive
                                                            responsible for Air Force-managed, depot-level
customer service; flexibility to respond to customer
                                                            reparable spares and consumable spares unique to
support needs in real-world situations; focus
                                                            the Air Force. Spares are an individual part,
management attention on net operating results,
                                                            subassembly, or assembly supplied for the
including cost and performance; identify the total
                                                            maintenance or repair of systems or equipment. In
cost of providing support products and services;
                                                            addition to management of these inventories, the
and establish strong customer/provider
                                                            Supply Division provides a wide range of logistics
relationships.
                                                            support services including requirements
Consolidated Sustainment Activity Group (CSAG)              forecasting, item introduction, cataloging,
CSAG is an AFWCF business activity chartered for            provisioning, procurement, repair, technical
operation in FY 2009. The CSAG consolidates the             support, data management, item disposal,
Depot Maintenance Activity Group (DMAG) and the             distribution management and transportation.
previous Material Support Division (MSD) from the
                                                            Supply Management Activity Group–Retail
Supply Management Activity Group (SMAG) into a
                                                            The Air Force Supply Management Activity Group-
single business enterprise. This consolidation
                                                            Retail (SMAG-R) is comprised of three divisions:
eliminates internal transactions between MSD and
                                                            General Support, Medical-Dental, and the United
DMAG, resulting in a more efficient business
                                                            States Air Force Academy.
enterprise and customer support improvements.
The mission of CSAG is supply management of                 The Air Force SMAG-R provides a wide range of
reparable and Air Force managed consumable                  logistics support services including requirements
items as well as maintenance services. Under                forecasting, item introduction, cataloging,
CSAG, business operations formerly known as                 provisioning, procurement, repair, technical
DMAG are now characterized as the Maintenance               support, data management, item disposal,
Division and business operations formerly known             distribution management and transportation.
as MSD are now designated the Supply Division.              Consumable item inventories are an integral part of
                                                            SMAG-R and are maintained by each of the
The CSAG Maintenance Division repairs systems
                                                            divisions in support of customer requirements. The
and spare parts to ensure readiness in peacetime
                                                            SMAG-R objective is to replenish inventories and
and to provide sustainment for combat forces in
                                                            provide supplies to customers in a timely manner
wartime. This division operates on the funds
                                                            within customer funding constraints, while
received from its customers through sales of its
                                                            maintaining fund solvency. The Air Force SMAG-R
services. In peacetime, the Air Force enhances
                                                            manages weapon system spare parts, medical-
readiness by efficiently and economically repairing,
                                                            dental supplies and equipment, and other supply
overhauling and modifying aircraft, engines,
                                                            items used in non-weapon system applications.
missiles, components and software to meet
customer demands. The Maintenance Division’s                The General Support Division (GSD) manages
depots have unique skills and equipment required            nearly 1.1 million items, which are procured from
to support and overhaul both new, complex                   Defense Logistics Agency (DLA) and General
components as well as aging weapon systems.                 Services Administration (GSA). GSD customers
During wartime or contingencies, the depots can             use the majority of these items to support field and

                                                       12
                                                                     Agency Financial Report                 2012
                                                                             Management Discussion and Analysis

depot maintenance of aircraft, ground and airborne                       AFWCF Sources of Funds, FY 2012
communication and electronic systems, as well as                                    ($ in Billions)
other sophisticated systems and equipment. The
GSD also manages many items related to
installation, maintenance, and administrative                        $4.8
functions.
The Medical-Dental Division (MDD) manages                                                             $7.6
nearly 76,000 different items for 74 Medical
Treatment Facilities (MTF) worldwide. All supply
and equipment requirements generated by Air
Force MTFs are procured through this division.
MDD also maintains a War Readiness Materiel
                                                                                 Contract Authority
(WRM) requirement. WRM provides initial war
fighting capability until re-supply lines can sustain                            Reimbursements
wartime demands for medical and dental supplies
and equipment.                                               AFWCF assesses financial performance using the
The Air Force Academy Division finances the                  Statement of Net Costs. The Statement of Net
purchase of uniforms and uniform accessories for             Costs represents gross costs incurred by the
sale to cadets in accordance with regulations of the         AFWCF less earned revenue. For budget
Air Force Academy and related statutes. The                  purposes, the Statement of Net Costs is adjusted
customer base consists of approximately 4,000                by removing all non-recoverable activity to arrive at
cadets who receive distinctive uniforms procured             a bottom-line profit or loss indicator, also referred to
from various manufacturing contractors.                      as the recoverable Net Operating Result (NOR).
                                                             The NOR objective of an activity group is to break
Air Force Working Capital Fund Customers                     even over a two year period. Prices are established
AFWCF provides support to a variety of customers:            to achieve this objective by recovering or returning
Air Force Major Commands (including the Air                  all prior-year losses or gains.
National Guard & Air Force Reserves), the Army,
the Navy, other WCFs, other government agencies              Financial Position
and foreign countries.                                       The AFWCF continued to report a positive net
Results of Operation                                         position on its Consolidated Balance Sheet. Net
                                                             position is the difference between total assets (what
The combined Statement of Budgetary Resources
                                                             is owned) and total liabilities (what is owed). As of
presents total budgetary resources of $12.4 billion
                                                             September 30, 2012, net position totaled $28.1
that were available to AFWCF during FY 2012 and
                                                             billion. As of September 30, 2011, net position
the status of those resources at fiscal year-end.
                                                             totaled $28.9 billion.
Total budgetary resources for FY 2011 were $12.9
billion. Total obligations incurred during FY 2012
were $12.3 billion, compared to $12.4 billion during
FY 2011.




                                                        13
           United States Air Force


                    AFWCF Total Assets, FY 2012                                           Cash Management
                                      ($ in Billions)                                     The AF manages working capital fund cash at the
                                                                                          Department level. This cash is made up of both
                                                                                          AFWCF and the USTRANSCOM cash balances
                                $1.2 $0.6               $1.5
                                                                                          and is reported by the U.S. Treasury as part of the
                                                                                          AFWCF. However, for the purposes of Audited
                                                                                          Financial Statements (AFS), USTRANSCOM is
                                                                                          included with the Other Defense Organizations
                                                                                          reporting which is separate from the AFWCF. AF
                                                                                          targets to maintain cash levels at seven to ten days
                                           $26.1                                          of operational costs plus sufficient cash reserves to
                                                                                          meet six months of projected capital outlays, as
                                                                                          required by the Department of Defense Financial
                                                                                          Management Regulation. The AF WCF FY 2012
                   General Property, Plant and Equipment                                  seven-day cash requirement was $477.0 million
                   Inventory                                                              and the ten-day requirement was $628.0 million. AF
                   Remaining Assets                                                       WCF yearend cash balance, $556.5 million, fell
                   Fund Balance with Treasury                                             with the 7 to 10 day targets.

                                                                                          Financing the Fight
Total assets were $29.4 billion as of September 30,                                       Despite new challenges and fiscal stress, America
2012, compared to $30.3 billion as of September                                           is and will unquestionably remain the global leader.
30, 2011. Total liabilities were $1.3 billion as of                                       As the Department of Defense’s recently released
September 30, 2012, compared to $1.4 billion as of                                        strategic guidance mentions, the Joint Force of the
September 30, 2011.                                                                       future must be smaller and leaner—but agile,
                                                                                          flexible, ready, and technologically advanced. The
                                                                                          Air Force will leverage the innovative ability and
               AFWCF Total Liabilities, FY 2012                                           technological acumen of its Airmen as we conduct
                            ($ in Billions)                                               military missions that protect our core national
                                                                                          interests. We have made the hard choices to
                                                                                          closely align with the new strategic guidance by
                                                                                          trading size for quality. We will be a smaller, but
                     $0.3                  $0.2
                                                                                          superb, force that maintains the agility, flexibility,
                                                                                          and readiness to engage a full range of
                                                                                          contingencies and threats. We will provide the
                                                                                          necessary capability, capacity and versatility
                                            $0.8
                                                                                          required to prevail today and in the future as we
                                                                                          continue “Financing the Fight.”



                  Military Retirement and Other Federal

                  Accounts Payable

                  Other Liabilities


--------------------------------------------------------------------------------------------------------------------------------------------------
References:
Department of the Air Force. “2012 United States Air Force Posture Statement.” United States Air Force. February 2012
Department of the Air Force. “United States Air Force FY 2012 Budget Overview.” United States Air Force. February 2011
Department of the Air Force. “Air Force 101 Briefing.” United States Air Force. April, 2012




                                                                                  14
                                                              Agency Financial Report 2012



Fiscal Year 2012
Annual Financial Statements

Limitations to the Financial Statements
The principal financial statements have been prepared to report the financial position and results
of operations of the entity, pursuant to the requirements of Title 31, United States Code, Section
3515 (b). While the statements have been prepared from the books and records of the entity, in
accordance with U.S. generally accepted accounting principles promulgated by the Federal
Accounting Standards Advisory Board, and the formats prescribed by Office of Management and
Budget, the statements are in addition to the financial reports used to monitor and control
budgetary resources which are prepared from the same books and records. The statements should
be read with the realization that they are for a component of the U.S. Government, a sovereign
entity.




                                               15
United States Air Force


General Fund
Principal Statements
Fiscal Year 2012
The FY 2012 Department of the Air Force General Fund Principal Statements and related notes
are presented in the format prescribed by the Department of Defense Financial Management
Regulation 7000.14-R, Volume 6B. The statements and related notes summarize financial
information for individual activity groups and activities within the General Fund for the fiscal
year ending September 30, 2012, and are presented on a comparative basis with information
previously reported for the fiscal year ending September 30, 2011.
The following statements comprise the Department of the Air Force General Fund Principal
Statements:
Consolidated Balance Sheet
The Consolidated Balance Sheet presents as of September 30, 2012 and 2011 those resources
owned or managed by the Air Force which are available to provide future economic benefits
(assets); amounts owed by the Air Force that will require payments from those resources or
future resources (liabilities); and residual amounts retained by the Air Force, comprising the
difference (net position)

Consolidated Statement of Net Cost
The Consolidated Statement of Net Cost presents the net cost of the Air Force’s operations for
the years ended September 30, 2012 and 2011. The Air Force’s net cost of operations includes
the gross costs incurred by the Air Force less any exchange revenue earned from Air Force
activities.
Consolidated Statement of Changes in Net Position
The Consolidated Statement of Changes in Net Position presents the change in the Air Force’s
net position resulting from the net cost of Air Force’s operations, budgetary financing sources
other than exchange revenues, and other financing sources for the years ended September 30,
2012 and 2011.
Combined Statement of Budgetary Resources
The Combined Statement of Budgetary Resources presents the budgetary resources available to
the Air Force during FY 2012 and 2011, the status of these resources at September 30, 2012 and
2011, and the outlay of budgetary resources for the years ended September 30, 2012 and 2011.
The Principal Statements and related notes have been prepared to report financial position
pursuant to the requirements of the Chief Financial Officers Act of 1990, the Government
Management Reform Act of 1994, and the Office of Management and Budget’s Circular A-136,
“Financial Reporting Requirements.”




                                               16
                                                                             Agency Financial Report             2012
                                                                                                         General Fund
                                                                                                   Principal Statements
                                                      Department of Defense
                                                   Department of the Air Force
                                                CONSOLIDATED BALANCE SHEET
                                                As of September 30, 2012 and 2011
                                                         ($ in Thousands)



                                                                        2012 Consolidated          2011 Consolidated

ASSETS (Note 2)
      Intragovernmental:
        Fund Balance with Treasury (Note 3)                         $            112,402,627   $            110,088,325
        Investments (Note 4)                                                           1,072                      1,077
        Accounts Receivable (Note 5)                                                 465,673                    588,063
        Other Assets (Note 6)                                                        175,315                     85,368
        Total Intragovernmental Assets                              $            113,044,687   $            110,762,833


      Cash and Other Monetary Assets (Note 7)                       $                 80,838   $                 95,583
      Accounts Receivable,Net (Note 5)                                               422,316                    366,409
      Inventory and Related Property,Net (Note 9)                                 50,711,684                 48,650,905
      General Property, Plant and Equipment,Net (Note 10)                        137,082,241                134,784,123
      Other Assets (Note 6)                                                       12,207,338                 12,108,803
 TOTAL ASSETS                                                       $            313,549,104   $            306,768,656
STEWARDSHIP PROPERTY, PLANT & EQUIPMENT (Note 10)


 LIABILITIES (Note 11)
      Intragovernmental:
        Accounts Payable (Note 12)                                  $              2,493,311   $              2,553,974
        Other Liabilities (Note 15 & 16)                                           2,193,658                  2,029,335
        Total Intragovernmental Liabilities                         $              4,686,969   $              4,583,309


      Accounts Payable (Note 12)                                    $              4,435,280   $              3,013,935
      Military Retirement and Other Federal                                        1,150,353                  1,126,143
      Employment Benefits (Note 17)
      Environmental and Disposal Liabilities (Note 14)                             9,084,414                 10,564,623
      Other Liabilities (Note 15 and Note 16)                                      6,606,541                  5,478,873
 TOTAL LIABILITIES                                                  $             25,963,557   $             24,766,883


COMMITMENTS AND CONTINGENCIES (NOTE 16)
 NET POSITION
     Unexpended Appropriations - Other Funds                                     113,050,127                114,254,051
     Cumulative Results of Operations - Earmarked Funds                               19,479                     12,425
     Cumulative Results of Operations - Other Funds                              174,515,941                167,735,297
 TOTAL NET POSITION                                                 $            287,585,547   $            282,001,773


 TOTAL LIABILITIES AND NET POSITION                                 $            313,549,104   $            306,768,656




                                                               17
         United States Air Force

                                                  Department of Defense
                                                Department of the Air Force
                                       CONSOLIDATED STATEMENT OF NET COST
                                    For the periods ended September 30, 2012 and 2011
                                                     ($ in Thousands)



                                                                          2012 Consolidated          2011 Consolidated


Program Costs
       Gross Costs                                                    $           168,983,383    $           166,451,900
        Military Personnel                                                         35,365,094                 36,391,504
        Operations, Readiness & Support                                            56,975,553                 62,207,918
        Procurement                                                                44,410,025                 38,706,085
        Research, Development, Test & Evaluation                                   28,534,874                 28,007,745
        Family Housing & Military Construction                                      3,697,837                  1,138,648




       (Less: Earned Revenue)                                                     (10,325,178)                (8,751,985)
      Net Cost before Losses/(Gains) from Actuarial Assumption                    158,658,205                157,699,915
Changes
      for Military Retirement Benefits
       Net Program Costs Including Assumption Changes                             158,658,205                157,699,915
 Net Cost of Operations                                               $           158,658,205    $           157,699,915




                                                                 18
                                                                           Agency Financial Report                2012
                                                                                                          General Fund
                                                                                                    Principal Statements
                                                  Department of Defense
                                                Department of the Air Force
                                CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
                                    For the periods ended September 30, 2012 and 2011
                                                     ($ in Thousands)




                                                                    2012 Earmarked Funds           2012 All Other Funds

CUMULATIVE RESULTS OF OPERATIONS
Beginning Balances                                              $                  12,425      $              167,735,297
Prior Period Adjustments:
  Corrections of errors (+/-)                                                              0                              0
Beginning balances, as adjusted                                                    12,425                     167,735,297
Budgetary Financing Sources:
  Appropriations used                                                                      0                  162,287,754
  Nonexchange revenue                                                                 898                                 0
  Donations and forfeitures of cash and cash equivalents                            1,762                                 0
  Transfers-in/out without reimbursement                                                   0                      370,000
Other Financing Sources:
  Transfers-in/out without reimbursement (+/-)                                         (9)                     (1,200,669)
  Imputed financing from costs absorbed by others                                          0                      763,656
  Other (+/-)                                                                              0                    3,222,511
Total Financing Sources                                                             2,651                     165,443,252
Net Cost of Operations (+/-)                                                       (4,394)                    158,662,599
Net Change                                                                          7,045                       6,780,653
Cumulative Results of Operations                                                   19,470                     174,515,950
UNEXPENDED APPROPRIATIONS
Beginning Balances                                              $                          0   $              114,254,051
Beginning balances, as adjusted                                                            0                  114,254,051
Budgetary Financing Sources:
  Appropriations received                                                                  0                  162,893,282
  Appropriations transferred-in/out                                                        0                    1,659,029
  Other adjustments (rescissions, etc)                                                     0                   (3,468,481)
  Appropriations used                                                                      0                 (162,287,754)
Total Budgetary Financing Sources                                                          0                   (1,203,924)
Unexpended Appropriations                                                                  0                  113,050,127
Net Position                                                                       19,470                     287,566,077




                                                           19
         United States Air Force

                                                  Department of Defense
                                                Department of the Air Force
                                CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
                                    For the periods ended September 30, 2012 and 2011
                                                     ($ in Thousands)




                                                                    2012 Eliminations           2012 Consolidated

CUMULATIVE RESULTS OF OPERATIONS
Beginning Balances                                              $                       0   $            167,747,722
Prior Period Adjustments:
  Corrections of errors (+/-)                                                           0                             0
Beginning balances, as adjusted                                                         0                167,747,722
Budgetary Financing Sources:
  Appropriations used                                                                   0                162,287,754
  Nonexchange revenue                                                                   0                           898
  Donations and forfeitures of cash and cash equivalents                                0                      1,762
  Transfers-in/out without reimbursement                                                0                    370,000
Other Financing Sources:
  Transfers-in/out without reimbursement (+/-)                                          0                 (1,200,678)
  Imputed financing from costs absorbed by others                                       0                    763,656
  Other (+/-)                                                                           0                  3,222,511
Total Financing Sources                                                                 0                165,445,903
Net Cost of Operations (+/-)                                                            0                158,658,205
Net Change                                                                              0                  6,787,698
Cumulative Results of Operations                                                        0                174,535,420
UNEXPENDED APPROPRIATIONS
Beginning Balances                                              $                       0   $            114,254,051
Beginning balances, as adjusted                                                         0                114,254,051
Budgetary Financing Sources:
  Appropriations received                                                               0                162,893,282
  Appropriations transferred-in/out                                                     0                  1,659,029
  Other adjustments (rescissions, etc)                                                  0                 (3,468,481)
  Appropriations used                                                                   0               (162,287,754)
Total Budgetary Financing Sources                                                       0                 (1,203,924)
Unexpended Appropriations                                                               0                113,050,127
Net Position                                                                            0                287,585,547




                                                           20
                                                                         Agency Financial Report               2012
                                                                                                          General Fund
                                                                                                    Principal Statements
                                                  Department of Defense
                                                Department of the Air Force
                                CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
                                    For the periods ended September 30, 2012 and 2011
                                                     ($ in Thousands)



                                                                    2011 Earmarked Funds           2011 All Other Funds

CUMULATIVE RESULTS OF OPERATIONS
Beginning Balances                                              $                  18,568      $              179,970,391
Prior Period Adjustments:
  Corrections of errors (+/-)                                                              0                  (15,513,410)
Beginning balances, as adjusted                                                    18,568                     164,456,981
Budgetary Financing Sources:
  Appropriations used                                                                      0                  159,703,254
  Nonexchange revenue                                                                 913                                 0
  Donations and forfeitures of cash and cash equivalents                            4,728                                 0
  Transfers-in/out without reimbursement                                                   0                              0
Other Financing Sources:
  Transfers-in/out without reimbursement (+/-)                                             0                      867,507
  Imputed financing from costs absorbed by others                                          0                      855,639
  Other (+/-)                                                                              1                     (459,954)
Total Financing Sources                                                             5,642                     160,966,446
Net Cost of Operations (+/-)                                                       11,785                     157,688,130
Net Change                                                                         (6,143)                      3,278,316
Cumulative Results of Operations                                                   12,425                     167,735,297
UNEXPENDED APPROPRIATIONS
Beginning Balances                                              $                          0   $              108,832,210
Beginning balances, as adjusted                                                            0                  108,832,210
Budgetary Financing Sources:
  Appropriations received                                                                  0                  167,631,093
  Appropriations transferred-in/out                                                        0                      772,813
  Other adjustments (rescissions, etc)                                                     0                   (3,278,811)
  Appropriations used                                                                      0                 (159,703,254)
Total Budgetary Financing Sources                                                          0                    5,421,841
Unexpended Appropriations                                                                  0                  114,254,051
Net Position                                                                       12,425                     281,989,348




                                                           21
         United States Air Force

                                                  Department of Defense
                                                Department of the Air Force
                                CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
                                    For the periods ended September 30, 2012 and 2011
                                                     ($ in Thousands)



                                                                    2011 Eliminations           2011 Consolidated

CUMULATIVE RESULTS OF OPERATIONS
Beginning Balances                                              $                       0   $            179,988,959
Prior Period Adjustments:
  Corrections of errors (+/-)                                                           0                (15,513,410)
Beginning balances, as adjusted                                                         0                164,475,549
Budgetary Financing Sources:
  Appropriations used                                                                   0                159,703,254
  Nonexchange revenue                                                                   0                           913
  Donations and forfeitures of cash and cash equivalents                                0                      4,728
  Transfers-in/out without reimbursement                                                0                             0
Other Financing Sources:
  Transfers-in/out without reimbursement (+/-)                                          0                    867,507
  Imputed financing from costs absorbed by others                                       0                    855,639
  Other (+/-)                                                                           0                   (459,953)
Total Financing Sources                                                                 0                160,972,088
Net Cost of Operations (+/-)                                                            0                157,699,915
Net Change                                                                              0                  3,272,173
Cumulative Results of Operations                                                        0                167,747,722
UNEXPENDED APPROPRIATIONS
Beginning Balances                                              $                       0   $            108,832,210
Beginning balances, as adjusted                                                         0                108,832,210
Budgetary Financing Sources:
  Appropriations received                                                               0                167,631,093
  Appropriations transferred-in/out                                                     0                    772,813
  Other adjustments (rescissions, etc)                                                  0                 (3,278,811)
  Appropriations used                                                                   0               (159,703,254)
Total Budgetary Financing Sources                                                       0                  5,421,841
Unexpended Appropriations                                                               0                114,254,051
Net Position                                                                            0                282,001,773




                                                           22
                                                                               Agency Financial Report           2012
                                                                                                              General Fund
                                                                                                        Principal Statements
                                                    Department of Defense
                                                  Department of the Air Force
                                     COMBINED STATEMENT OF BUDGETARY RESOURCES
                                      For the periods ended September 30, 2012 and 2011
                                                       ($ in Thousands)



                                                                              2012 Combined             2011 Combined

Budgetary Resources:
Unobligated balance brought forward, Oct 1                                            38,007,021                 36,090,271
     Unobligated balance brought forward, Oct 1, as adjusted,             $           38,007,021    $            36,090,271
     as Adjusted
Recoveries of prior year unpaid obligations                                            5,451,702                  4,488,152
Other changes in unobligated balance (+ or -)                                         (1,436,459)                (1,513,515)
Unobligated balance from prior year budget authority, net                             42,022,264                 39,064,908
Appropriations (discretionary and mandatory)                                         162,892,954                166,644,250
Spending Authority from offsetting collections                                        10,414,411                  9,925,864
Total Budgetary Resources                                                            215,329,629                215,635,022


Obligations Incurred                                                                 182,251,093                177,628,001
Unobligated balance, end of year
   Apportioned                                                                        28,142,256                 33,990,184
   Exempt from Apportionment                                                              11,493                     11,170
   Unapportioned                                                                       4,924,787                  4,005,667
Total unobligated balance, end of year                                                33,078,536                 38,007,021
Total Budgetary Resources                                                            215,329,629                215,635,022


Change in Obligated Balance:
Unpaid obligations, brought forward, October 1 (gross)                                74,701,468                 74,007,637
Uncollected customer payments from Federal sources,                                   (3,032,491)                (2,968,685)
brought forward, October 1 (-)
Obligated balance start of year (net), before adjustments (+ or -)                    71,668,977                 71,038,952
Obligated balance, start of year (net), as adjusted                                   71,668,977                 71,038,952
Obligations incurred                                                                 182,251,093                177,628,001
Outlays (gross) (-)                                                                 (170,489,664)              (172,446,017)
Change in uncollected customer payments from                                             858,758                    (63,806)
Federal Sources (+ or-)
Recoveries of prior year unpaid obligations (-)                                       (5,451,701)                (4,488,153)
Obligated balance, end of year
  Unpaid Obligations, end of year (gross)                                             81,011,196                 74,701,468
  Uncollected customer payments from Federal sources, end of                          (2,173,733)                (3,032,491)
Obligated balance, end of year                                                        78,837,463                 71,668,977




                                                                     23
          United States Air Force

                                                     Department of Defense
                                                   Department of the Air Force
                                      COMBINED STATEMENT OF BUDGETARY RESOURCES
                                       For the periods ended September 30, 2012 and 2011
                                                        ($ in Thousands)



                                                                       2012 Combined         2011 Combined

Budget Authority and Outlays, Net:
Budget authority, gross (discretionary and mandatory)                         173,307,365           176,570,114
Actual offsetting collections (discretionary and mandatory) (-)               (11,273,169)           (9,862,060)
Change in uncollected customer payments from Federal                              858,758               (63,806)
Sources (discretionary and mandatory) (+ or -)
Budget Authority, net (discretionary and mandatory)                           162,892,954           166,644,248
Outlays, gross (discretionary and mandatory)                                  170,489,664           172,446,017
Actual offsetting collections (discretionary and mandatory) (-)               (11,273,169)           (9,862,060)
Outlays, net (discretionary and mandatory)                                    159,216,495           162,583,957
Distributed offsetting receipts (-)                                             (177,075)             (154,152)
Agency Outlays, net (discretionary and mandatory)                             159,039,420           162,429,805




                                                                  24
                                                            Agency Financial Report          2012



General Fund
Fiscal Year 2012
Notes to the Principal Statements
Notes to the financial statements communicate information essential for fair presentation
of the financial statements that is not displayed on the face of the financial statements.




                                               25
        United States Air Force



 Note 1.          Significant Accounting Policies

1.A. Basis of Presentation

These financial statements have been prepared to report the financial position and results of operations of the Air Force,
as required by the Chief Financial Officers Act of 1990, expanded by the Government Management Reform Act of 1994,
and other appropriate legislation. The financial statements have been prepared from the books and records of the Air
Force in accordance with, and to the extent possible, U.S. generally accepted accounting principles (USGAAP)
promulgated by the Federal Accounting Standards Advisory Board; the Office of Management and Budget (OMB) Circular
No. A-136, Financial Reporting Requirements; and the Department of Defense (DoD), Financial Management Regulation
(FMR). The accompanying financial statements account for all resources for which the Air Force is responsible unless
otherwise noted.

Information relative to classified assets, programs, and operations is excluded from the statements or otherwise
aggregated and reported in such a manner that it is not discernible.

The Air Force is unable to implement fully all elements of USGAAP and the OMB Circular No. A-136, due to limitations of
financial and nonfinancial management processes and systems that support the financial statements. The Air Force
derives reported values and information for major asset and liability categories largely from nonfinancial systems, such as
inventory and logistic systems. These systems were designed to support reporting requirements for maintaining
accountability over assets and reporting the status of federal appropriations rather than preparing financial statements in
accordance with USGAAP. The Air Force continues to implement process and system improvements addressing these
limitations.

The DoD currently has 13 auditor identified material weaknesses. Of these the Air Force has the following: (1) Financial
Management Systems; (2) Accounts Receivable; (3) Operating Materials and Supplies; (4) General Property, Plant, and
Equipment; (5) Government-Furnished Material and Contractor-Acquired Material; (6) Accounts Payable; (7)
Environmental Liabilities; (8) Statement of Net Cost; (9) Intragovernmental Eliminations; (10) Other Accounting Entries;
and (11) Reconciliation of Net Cost of Operations to Budget.

1.B. Mission of the Reporting Entity

The United States Air Force was created on September 18, 1947, by the National Security Act of 1947 and operates
under the direction, authority, and control of the Secretary of the Air Force. The Air Force’s overall mission is to deliver
sovereign options for the defense of the United States of America and its global interests to "Aim High…Fly, Fight, Win‖ in
air, space, and cyberspace. The Air Force carries out its mission by adhering to a strategic framework of Core Values
consisting of Integrity First, Service Before Self, and Excellence in All We Do. In addition, the Air Force is committed to
providing Global Vigilance, Global Reach, and Global Power, while defending and protecting the United States.

1.C. Appropriations and Funds

The Air Force receives appropriations and funds as general, working capital (revolving), trust, special, and deposit funds.
The Air Force uses these appropriations and funds to execute its missions and subsequently report on resource usage.

General funds are used for financial transactions funded by congressional appropriations, including personnel, operation
and maintenance, research and development, procurement, and military construction.

These general funds also include supplemental funds enacted by the American Recovery and Reinvestment Act
(Recovery Act) of 2009. Details relating to Recovery Act appropriated funds are available online at
http://www.defenselink.mil/recovery.

Trust funds contain receipts and expenditures of funds held in trust by the government for use in carrying out specific
purposes or programs in accordance with the terms of the donor, trust agreement, or statute. Special fund accounts are
used to record government receipts reserved for a specific purpose. Certain trust and special funds may be designated as
earmarked funds. Earmarked funds are financed by specifically identified revenues, required by statute to be used for
designated activities, benefits or purposes, and remain available over time. The Air Force is required to separately

                                                             26
                                                                              Agency Financial Report                   2012
                                                                                                               General Fund
                                                                                            Notes to the Principal Statements

account for and report on the receipt, use and retention of revenues and other financing sources for earmarked funds.

Deposit funds are used to record amounts held temporarily until paid to the appropriate government or public entity. They
are not Air Force funds, and as such, are not available for Air Force’s operations. The Air Force is acting as an agent or a
custodian for funds awaiting distribution.

The Air Force is a party to allocation transfers with other federal agencies as a receiving (child) entity. An allocation
transfer is an entity’s legal delegation of authority to obligate budget authority and outlay funds on its behalf. Generally, all
financial activity related to allocation transfers (e.g. budget authority, obligations, outlays) is reported in the financial
statements of the parent entity. Exceptions to this general rule apply to specific funds for which OMB has directed that all
activity be reported in the financial statements of the child entity. These exceptions include U.S. Treasury-Managed Trust
Funds, Executive Office of the President (EOP), and all other funds specifically designated by OMB.

The Air Force receives allocation transfers for EOP (Foreign Military Sales – Military Assistance Program) meeting the
OMB exception; however, activities for this fund are reported separately from the DoD financial statements.

The accounts used to prepare the financial statements are categorized as either entity or nonentity. The Air Force
accounts consist of resources that are available for use in the operations of the entity. The Air Force is authorized to
decide how to use resources in entity accounts or may be legally obligated to use these resources to meet entity
obligations. Nonentity accounts, on the other hand, consist of assets that are held by an entity but that are not available
for use in the operations of the entity. The following is a list of the major Air Force account numbers and titles (all accounts
are entity accounts unless otherwise noted):

AF Account Number              Title
57 * 0704                      Military Family Housing, Operations and Maintenance (O&M) and Construction, Air Force
57 * 0740                      Military Family Housing (Construction), Air Force
57 * 0743                      Military Family Housing (Construction), Air Force, Recovery Act
57 * 0745                      Military Family Housing, Operations and Maintenance (O&M), Air Force
57 * 0748                      Military Family Housing, Operations and Maintenance (O&M), Air Force, Recovery Act
57 * 0810                      Environmental Restoration, Air Force
57 * 1007                      Medicare Eligible Retiree Health Fund Contributions, Air Force
57 * 1008                      Medicare Eligible Retiree Health Fund Contributions, Air Force Reserve
57 * 1009                      Medicare Eligible Retiree Health Fund Contributions, Air National Guard
57 * 3010                      Aircraft Procurement, Air Force
57 * 3011                      Procurement of Ammunition, Air Force
57 * 3020                      Missile Procurement, Air Force
57 * 3080                      Other Procurement, Air Force
57 * 3300                      Military Construction, Air Force
57 * 3307                      Military Construction, Air Force, Recovery Act
57 * 3400                      Operations and Maintenance (O&M), Air Force
57 * 3404                      Operations and Maintenance (O&M), Air Force, Recovery Act
57 * 3500                      Military Personnel, Air Force
57 * 3600                      Research, Development, Testing, and Evaluation (RDT&E), Air Force
57 * 3605                      Research, Development, Testing, and Evaluation (RDT&E), Air Force, Recovery Act
57 * 3700                      Personnel, Air Force Reserve
57 * 3730                      Military Construction, Air Force Reserve
57 * 3740                      Operations and Maintenance (O&M), Air Force Reserve
57 * 3744                      Operations and Maintenance (O&M), Air Force Reserve, Recovery Act
57 * 3830                      Military Construction, Air National Guard
57 * 3834                      Military Construction, Air National Guard, Recovery Act
57 * 3840                      Operations and Maintenance (O&M), Air National Guard
57 * 3844                      Operations and Maintenance (O&M), Air National Guard, Recovery Act
57 * 3850                      Personnel, Air National Guard
57 X 5095                      Wildlife Conservation, etc., Military Reservations, Air Force
57 X 8418                      Air Force Cadet Fund
57 X 8928                      Air Force General Gift Fund
57 * 3XXX (Incl Nonentity)     Budget Clearing Accounts


                                                               27
        United States Air Force


57 * 6XXX (Nonentity)         Deposit Fund Accounts
57 **** (Nonentity)           Receipt Accounts

1.D. Basis of Accounting

The Air Force’s financial management systems are unable to meet all full accrual accounting requirements. Many of the
Air Force’s financial and nonfinancial feeder systems and processes were designed and implemented prior to the
issuance of USGAAP. These systems were not designed to collect and record financial information on the full accrual
accounting basis as required by USGAAP. Most of Air Force’s financial and nonfinancial legacy systems were designed to
record information on a budgetary basis.

The Air Force's financial statements and supporting trial balances are compiled from the underlying financial data and trial
balances of the Air Force's sub-entities. The underlying data is largely derived from budgetary transactions (obligations,
disbursements, and collections), nonfinancial feeder systems, and accruals made for major items such as payroll
expenses, accounts payable, and environmental liabilities. Some of the sub-entity level trial balances may reflect known
abnormal balances resulting largely from business and system processes. At the consolidated Air Force level these
abnormal balances may not be evident. Disclosures of abnormal balances are made in the applicable footnotes, but only
to the extent that the abnormal balances are evident at the consolidated level.

The DoD is determining the actions required to bring its financial and nonfinancial feeder systems and processes into
compliance with USGAAP. One such action is the current revision of accounting systems to record transactions based on
the U.S. Standard General Ledger (USSGL). Until all Air Force financial and nonfinancial feeder systems and processes
are updated to collect and report financial information as required by USGAAP, Air Force’s financial data will be derived
from budgetary transactions, data from nonfinancial feeder systems, and accruals.

1.E. Revenues and Other Financing Sources

The Air Force receives congressional appropriations as financing sources for general funds that expire annually, on a
multi-year basis, or do not expire. When authorized by legislation, these appropriations are supplemented by revenues
generated by sales of goods or services. The Air Force recognizes revenue as a result of costs incurred for goods and
services provided to other federal agencies and the public. Full-cost pricing is Air Force’s standard policy for services
provided as required by OMB Circular A-25, User Charges. The Air Force recognizes revenue when earned within the
constraints of its current system capabilities. In some instances, revenue is recognized when bills are issued.

The Air Force does not include nonmonetary support provided by U.S. allies for common defense and mutual security in
amounts reported in the Statement of Net Cost and the Note 21, Reconciliation of Net Cost of Operations to Budget. The
U.S. has cost sharing agreements with countries having a mutual or reciprocal defense agreement, where U.S. troops are
stationed, or where the U.S. Fleet is in a port.

1.F. Recognition of Expenses

For financial reporting purposes, DoD policy requires the recognition of operating expenses in the period incurred. Current
financial and nonfinancial feeder systems were not designed to collect and record financial information on the full accrual
accounting basis. Estimates are made for major items such as payroll expenses, accounts payable, environmental
liabilities, and unbilled revenue. Some accounts such as civilian pay, military pay, and accounts payable are presented on
the accrual basis of accounting on the financial statements, as required by USGAAP.

In the case of Operating Materials & Supplies (OM&S), operating expenses are generally recognized when the items are
purchased. Efforts are underway to transition to the consumption method for recognizing OM&S expenses. Under the
consumption method, OM&S would be expensed when consumed.

Due to system limitations, in some instances expenditures for capital and other long-term assets may be recognized as
operating expenses. The Air Force continues to implement process and system improvements to address these
limitations.




                                                             28
                                                                            Agency Financial Report                  2012
                                                                                                             General Fund
                                                                                          Notes to the Principal Statements

1.G. Accounting for Intragovernmental Activities

Accounting standards require that an entity eliminate intraentity activity and balances from consolidated financial
statements in order to prevent overstatement for business with itself. However, the Air Force cannot accurately identify
intragovernmental transactions by customer because Air Force’s systems do not track buyer and seller data at the
transaction level. Generally, seller entities within the DoD provide summary seller-side balances for revenue, accounts
receivable, and unearned revenue to the buyer-side internal DoD accounting offices. In most cases, the buyer-side
records are adjusted to agree with DoD seller-side balances and are then eliminated. The DoD is implementing
replacement systems and a standard financial information structure that will incorporate the necessary elements that will
enable DoD to correctly report, reconcile, and eliminate intragovernmental balances.

The U.S. Treasury’s Federal Intragovernmental Transactions Accounting Policy Guide and Treasury Financial Manual
Part 2 – Chapter 4700, Agency Reporting Requirements for the Financial Report of the United States Government,
provide guidance for reporting and reconciling intragovernmental balances. While Air Force is unable to fully reconcile
intragovernmental transactions with all federal agencies, Air Force is able to reconcile balances pertaining to investments
in federal securities, borrowings from the U.S. Treasury and the Federal Financing Bank, Federal Employees’
Compensation Act transactions with the Department of Labor, and benefit program transactions with the Office of
Personnel Management.

The DoD’s proportionate share of public debt and related expenses of the Federal Government is not included. The
Federal Government does not apportion debt and its related costs to federal agencies. The DoD’s financial statements do
not report any public debt, interest, or source of public financing, whether from issuance of debt or tax revenues.

Generally, financing for the construction of DoD facilities is obtained through appropriations. To the extent this financing
ultimately may have been obtained through the issuance of public debt, interest costs have not been capitalized since the
U.S. Treasury does not allocate such costs to DoD.

1.H. Transactions with Foreign Governments and International Organizations

Each year, Air Force sells defense articles and services to foreign governments and international organizations under the
provisions of the Arms Export Control Act of 1976. Under the provisions of the Act, DoD has authority to sell defense
articles and services to foreign countries and international organizations generally at no profit or loss to the Federal
Government. Payment in U.S. dollars is required in advance.

1.I. Funds with the U.S. Treasury

The Air Force’s monetary resources are maintained in U.S. Treasury accounts. The disbursing offices of Defense Finance
and Accounting Service (DFAS), the Military Departments, the U.S. Army Corps of Engineers (USACE), and the
Department of State’s financial service centers process the majority of the Air Force’s cash collections, disbursements,
and adjustments worldwide. Each disbursing station prepares monthly reports to the U.S. Treasury on checks issued,
electronic fund transfers, interagency transfers, and deposits.

In addition, DFAS sites and USACE Finance Center submit reports to the U.S. Treasury by appropriation on interagency
transfers, collections received, and disbursements issued. The U.S. Treasury records these transactions to the applicable
Fund Balance with Treasury (FBWT) account. On a monthly basis, Air Force’s FBWT is adjusted to agree with the U.S.
Treasury accounts.

1.J. Cash and Foreign Currency

Cash is the total of cash resources under the control of DoD which includes coin, paper currency, negotiable instruments,
and amounts held for deposit in banks and other financial institutions. Foreign currency consists of the total U.S. dollar
equivalent of both purchased and nonpurchased foreign currencies held in foreign currency fund accounts. Foreign
currency is valued using the U.S. Treasury prevailing rate of exchange.

The majority of cash and all foreign currency is classified as ―nonentity‖ and is restricted. Amounts reported consist
primarily of cash and foreign currency held by disbursing officers to carry out their paying, collecting, and foreign currency
accommodation exchange missions.


                                                              29
        United States Air Force


The Air Force conducts a significant portion of operations overseas. Congress established a special account to handle the
gains and losses from foreign currency transactions for five general fund appropriations: (1) operations and maintenance;
(2) military personnel; (3) military construction; (4) family housing operation and maintenance; and (5) family housing
construction. The gains and losses are calculated as the variance between the exchange rate current at the date of
payment and a budget rate established at the beginning of each fiscal year. Foreign currency fluctuations related to other
appropriations require adjustments to the original obligation amount at the time of payment. The Air Force does not
separately identify currency fluctuation transactions.

1.K. Accounts Receivable

Accounts receivable from other federal entities or the public include: accounts receivable, claims receivable, and refunds
receivable. Allowances for uncollectible accounts due from the public are based upon analysis of collection experience by
fund type. The DoD does not recognize an allowance for estimated uncollectible amounts from other federal agencies.
Claims against other federal agencies are to be resolved between the agencies in accordance with dispute resolution
procedures defined in the Intragovernmental Business Rules published in the Treasury Financial Manual.

1.L. Direct Loans and Loan Guarantees

Not applicable.

1.M. Inventories and Related Property

The Air Force manages only military or government specific materiel under normal conditions. Materiel is a unique term
that relates to military force management, and includes items such as self-propelled weapons, aircraft, etc., and related
spares, repair parts, and support equipment. Items commonly used in and available from the commercial sector are not
managed in Air Force’s materiel management activities. Operational cycles are irregular and the military risks associated
with stock-out positions have no commercial parallel. The Air Force holds materiel based on military need and support for
contingencies. The DoD is currently developing a methodology to be used to account for ―inventory held for sale‖ and
―inventory held in reserve for future sale.‖

Related property includes OM&S and stockpile materiel. The majority of OM&S, with the exception of munitions not held
for sale, are valued using the moving average cost method. Munitions not held for sale are valued at standard purchase
price. The Air Force uses both the consumption method and the purchase method of accounting for OM&S. Items that are
centrally managed and stored, such as ammunition and engines, are generally recorded using the consumption method
and are reported on the Balance Sheet as OM&S. When current systems cannot fully support the consumption method,
Air Force uses the purchase method. Under this method, materiel and supplies are expensed when purchased. During FY
2012 and FY 2011, Air Force expensed significant amounts using the purchase method because the systems could not
support the consumption method or management deemed that the item was in the hands of the end user. This is a
material weakness for the DoD and long-term system corrections are in process. Once the proper systems are in place,
these items will be accounted for under the consumption method of accounting.

The Air Force determined that the recurring high dollar value of OM&S in need of repair is material to the financial
statements and requires a separate reporting category. Many high-dollar items, such as aircraft engines, are categorized
as OM&S rather than military equipment.

The Air Force recognizes excess, obsolete, and unserviceable OM&S at a net realizable value of $0 pending development
of an effective means of valuing such materiel.

Inventory available and purchased for resale includes consumable spare and repair parts and repairable items owned and
managed by Air Force. This inventory is retained to support military or national contingencies. Inventory held for repair is
damaged inventory that requires repair to make it suitable for sale. Often, it is more economical to repair these items
rather than to procure them. Air Force often relies on weapon systems and machinery no longer in production. As a
result, Air Force supports a process that encourages the repair and rebuilding of certain items. This repair cycle is
essential to maintaining a ready, mobile and armed military force. Work in process balances include (1) costs related to
the production or servicing of items, including direct material, labor, overhead; (2) the value of finished products or
completed services that are yet to be placed in service; and (3) munitions in production and depot maintenance work with
its associated costs incurred in the delivery of maintenance services.


                                                            30
                                                                             Agency Financial Report                    2012
                                                                                                              General Fund
                                                                                           Notes to the Principal Statements

1.N. Investments in U.S. Treasury Securities

The Air Force reports investments in U.S. Treasury securities at cost, net of amortized premiums or discounts. Premiums
or discounts are amortized over the term of the investments using the effective interest rate method or another method
obtaining similar results. The Air Force’s intent is to hold investments to maturity, unless they are needed to finance
claims or otherwise sustain operations. Consequently, a provision is not made for unrealized gains or losses on these
securities.

The Air Force invests in nonmarketable market-based U.S. Treasury securities, which are issued to federal agencies by
the U.S. Treasury’s Bureau of Public Debt. They are not traded on any securities exchange but mirror the prices of
particular U.S. Treasury securities traded in the government securities market.

1.O. General Property, Plant and Equipment

The Air Force uses the estimated historical cost for valuing military equipment. The DoD identified the universe of military
equipment by accumulating information relating to program funding and associated military equipment, equipment useful
life, program acquisitions, and disposals to establish a baseline. The military equipment baseline is updated using
expenditure, acquisition, and disposal information.

The DoD’s General Property, Plant, and Equipment (PP&E) capitalization threshold is $100 thousand except for real
property, which is $20 thousand. The Air Force has not fully implemented the threshold for real property; therefore, DoD is
primarily using the capitalization threshold of $100 thousand for General PP&E, and most real property.

With the exception of USACE Civil Works and Working Capital Fund, General PP&E assets are capitalized at historical
acquisition cost when an asset has a useful life of two or more years and when the acquisition cost equals or exceeds the
DoD’s capitalization threshold. The DoD also requires the capitalization of improvements to existing General PP&E assets
if the improvements equal or exceed the capitalization threshold and extend the useful life or increase the size, efficiency,
or capacity of the asset. The DoD depreciates all General PP&E, other than land, on a straight-line basis.

When it is in the best interest of the government, the Air Force provides government property to contractors to complete
contract work. The Air Force either owns or leases such property, or it is purchased directly by the contractor for the
government based on contract terms. When the value of contractor-procured General PP&E meets or exceeds the DoD
capitalization threshold, federal accounting standards require that it be reported on Air Force’s Balance Sheet.

The DoD developed policy and a reporting process for contractors with government furnished equipment that provides
appropriate General PP&E information for financial statement reporting. The DoD requires Air Force to maintain, in its
property systems, information on all property furnished to contractors. These actions are structured to capture and report
the information necessary for compliance with federal accounting standards. The Air Force has not fully implemented this
policy primarily due to system limitations.

1.P. Advances and Prepayments

When advances are permitted by law, legislative action, or presidential authorization, DoD’s policy is to record advances
or prepayments in accordance with USGAAP. As such, payments made in advance of the receipt of goods and services
should be reported as an asset on the Balance Sheet. The DoD’s policy is to expense and/or properly classify assets
when the related goods and services are received. The Air Force has not fully implemented this policy primarily due to
system limitations.

1.Q. Leases

Lease payments for the rental of equipment and operating facilities are classified as either capital or operating leases.
When a lease is essentially equivalent to an installment purchase of property (a capital lease), and the value equals or
exceeds the current capitalization threshold, Air Force records the applicable asset as though purchased, with an
offsetting liability, and depreciates it. The Air Force records the asset and the liability at the lesser of the present value of
the rental and other lease payments during the lease term (excluding portions representing executory costs paid to the
lessor) or the asset’s fair market value. The discount rate for the present value calculation is either the lessor’s implicit
interest rate or the government’s incremental borrowing rate at the inception of the lease. The Air Force, as the lessee,
receives the use and possession of leased property, for example real estate or equipment, from a lessor in exchange for a

                                                               31
        United States Air Force


payment of funds. An operating lease does not substantially transfer all the benefits and risk of ownership. Payments for
operating leases are expensed over the lease term as they become payable.

Office space and leases entered into by Air Force are the largest component of operating leases and are based on costs
gathered from existing leases, General Services Administration (GSA) bills, and interservice support agreements. Future
year projections use the Consumer Price Index.

1.R. Other Assets

Other assets include those assets, such as military and civil service employee pay advances, travel advances, and certain
contract financing payments that are not reported elsewhere on Air Force’s Balance Sheet.

The Air Force conducts business with commercial contractors under two primary types of contracts: fixed price and cost
reimbursable. To alleviate the potential financial burden on the contractor that long-term contracts can cause, Air Force
may provide financing payments. Contract financing payments are defined in the Federal Acquisition Regulations, Part 32,
as authorized disbursements to a contractor prior to acceptance of supplies or services by the Government. Contract
financing payments clauses are incorporated in the contract terms and conditions and may include advance payments,
performance-based payments, commercial advances and interim payments, progress payments based on cost, and
interim payments under certain cost-reimbursement contracts. It is DoD policy to record certain contract financing
payments as other assets. The Air Force has fully implemented this policy.

Contract financing payments do not include invoice payments, payments for partial deliveries, lease and rental payments,
or progress payments based on a percentage or stage of completion. The Defense Federal Acquisition Regulation
Supplement authorizes progress payments based on a percentage or stage of completion only for construction of real
property, shipbuilding, and ship conversion, alteration, or repair. Progress payments based on percentage or stage of
completion are reported as Construction in Progress.

1.S. Contingencies and Other Liabilities

The Statement of Federal Financial Accounting Standards (SFFAS) No. 5, Accounting for Liabilities of the Federal
Government, as amended by SFFAS No. 12, Recognition of Contingent Liabilities Arising from Litigation, defines a
contingency as an existing condition, situation, or set of circumstances that involves an uncertainty as to possible gain or
loss. The uncertainty will be resolved when one or more future events occur or fail to occur. The Air Force recognizes
contingent liabilities when past events or exchange transactions occur, a future loss is probable, and the loss amount can
be reasonably estimated.

Financial statement reporting is limited to disclosure when conditions for liability recognition do not exist but there is at
least a reasonable possibility of incurring a loss or additional losses. The Air Force’s risk of loss and resultant contingent
liabilities arise from pending or threatened litigation or claims and assessments due to events such as aircraft and vehicle
accidents, medical malpractice, property or environmental damages, and contract disputes.

Other liabilities also arise as a result of anticipated disposal costs for Air Force assets. Consistent with SFFAS No. 6,
Accounting for Property, Plant, and Equipment, recognition of an anticipated environmental disposal liability begins when
the asset is placed into service. Based on DoD’s policy, which is consistent with SFFAS No. 5, Accounting for Liabilities of
the Federal Government, nonenvironmental disposal liabilities are recognized when management decides to dispose of
an asset. The DoD recognizes nonenvironmental disposal liabilities for military equipment nuclear-powered assets when
placed into service. These amounts are not easily distinguishable and are developed in conjunction with environmental
disposal costs. The Air Force does not recognize contingent liabilities associated with nonenvironmental disposals due to
immateriality.

1.T. Accrued Leave

The Air Force reports liabilities for military leave and accrued compensatory and annual leave for civilians. Sick leave for
civilians is expensed as taken. The liabilities are based on current pay rates.




                                                              32
                                                                          Agency Financial Report                  2012
                                                                                                           General Fund
                                                                                        Notes to the Principal Statements

1.U. Net Position

Net position consists of unexpended appropriations and cumulative results of operations.

Unexpended appropriations represent the amounts of budget authority that are unobligated and have not been rescinded
or withdrawn. Unexpended appropriations also represent amounts obligated for which legal liabilities for payments have
not been incurred.

Cumulative results of operations represent the net difference between expenses and losses, and financing sources
(including appropriations, revenue, and gains), since inception. The cumulative results of operations also include
donations and transfers in and out of assets that were not reimbursed.

1.V. Treaties for Use of Foreign Bases

The DoD has the use of land, buildings, and other overseas facilities that are obtained through various international
treaties and agreements negotiated by the Department of State. The Air Force purchases capital assets overseas with
appropriated funds; however, the host country retains title to the land and capital improvements. Treaty terms generally
allow Air Force continued use of these properties until the treaties expire. In the event treaties or other agreements are
terminated, use of the foreign bases is prohibited and losses are recorded for the value of any nonretrievable capital
assets. The settlement due to the U.S. or host nation is negotiated and takes into account the value of capital investments
and may be offset by the cost of environmental cleanup.

1.W. Undistributed Disbursements and Collections

Undistributed disbursements and collections represent the difference between disbursements and collections matched at
the transaction level to specific obligations, payables, or receivables in the source systems and those reported by the U.S.
Treasury.

Supported disbursements and collections are evidenced by corroborating documentation. Unsupported disbursements
and collections do not have supporting documentation for the transaction and most likely would not meet audit scrutiny.
However, both supported and unsupported adjustments may have been made to the Air Force Accounts Payable and
Receivable trial balances prior to validating underlying transactions required to establish the Accounts
Payable/Receivable were previously made. As a result, misstatements of reported Accounts Payable and Receivables
are likely present in the Air Force financial statements.

Due to noted material weaknesses in current accounting and financial feeder systems, the DoD is generally
unable to determine whether undistributed disbursements and collections should be applied to federal or
nonfederal accounts payable/receivable at the time accounting reports are prepared. Accordingly, the DoD
policy is to allocate supported undistributed disbursements and collections between federal and nonfederal
categories based on the percentage of distributed federal and nonfederal accounts payable and accounts
receivable. Both supported and unsupported undistributed disbursements and collections are then applied to
reduce accounts payable and receivable accordingly.

1.X. Fiduciary Activities

Fiduciary cash and other assets are not assets of the Air Force and are not recognized on the Balance Sheet. Fiduciary
activities are reported on the financial statement note schedules.

1.Y. Military Retirements and Other Federal Employment Benefits

Not applicable.

1.Z. Significant Events

Not applicable.




                                                             33
        United States Air Force



 Note 2.         Nonentity Assets


 As of September 30                                                2012                                2011
 (Amounts in thousands)

 1. Intragovernmental Assets
    A. Fund Balance with Treasury                   $                        122,890    $                        126,641
    B. Accounts Receivable                                                         0                                   0
    C. Other Assets                                                                0                                   0
    D. Total Intragovernmental Assets               $                        122,890    $                        126,641


 2. Nonfederal Assets
    A. Cash and Other Monetary Assets               $                          80,838   $                          95,583

    B. Accounts Receivable                                                   293,607                              296,028

    C. Other Assets                                                          179,050                             184,825
    D. Total Nonfederal Assets                      $                        533,495    $                        576,436


 3. Total Nonentity Assets                          $                        676,385    $                        703,077


 4. Total Entity Assets                             $                     312,872,718   $                     306,065,578



 5. Total Assets                                    $                     313,549,104   $                     306,768,655


Relevant Information for Comprehension

Nonentity assets are assets for which the Air Force maintains stewardship accountability and reporting responsibility but
are not available for the Air Force’s normal operations.

Intragovernmental Fund Balance with Treasury represents amounts in Air Force’s deposit fund and two suspense fund
accounts (Uniformed Services Thrift Savings Plan Suspense and Thrift Savings Plan Suspense) that are not available for
Air Force use.

Nonfederal Accounts Receivable include interest receivable that upon collection is remitted to the U.S. Treasury as
miscellaneous receipts.

Nonfederal Cash and Other Monetary Assets represent disbursing officers’ cash and undeposited collections as reported
on the Statement of Accountability (Standard Form 1219). These assets are held by the Air Force Disbursing Officers as
agents of the U.S. Treasury. The Nonfederal Cash and Other Monetary assets represent a fiduciary capacity held by Air
Force Disbursing Officers as agents for U.S. Treasury and are not available for use in operations.

Nonfederal Other Assets consist of advances to contractors as part of the advance payment pool agreements with the
Massachusetts Institute of Technology and other nonprofit institutions. These agreements are used for the financing of
cost-type contracts with nonprofit educational research institutions for experimental research and development work when
several contracts or a series of contracts require financing by advance payments. These funds are not available for use in
Air Force operations.



                                                            34
                                                                           Agency Financial Report                  2012
                                                                                                            General Fund
                                                                                         Notes to the Principal Statements


 Note 3.          Fund Balance with Treasury


 As of September 30                                                    2012                               2011
 (Amounts in thousands)


 1. Fund Balances
    A. Appropriated Funds                                $                    112,266,178    $                 109,948,002
    B. Revolving Funds                                                                  0                                0
    C. Trust Funds                                                                 11,568                           11,635
    D. Special Funds                                                                1,990                            2,046
    E. Other Fund Types                                                           122,890                          126,641
    F. Total Fund Balances                               $                    112,402,626    $                 110,088,324



 2. Fund Balances Per Treasury Versus Agency
    A. Fund Balance per Treasury                         $                    114,557,011    $                 111,739,128
    B. Fund Balance per Agency                                                112,402,626                      110,088,324

 3. Reconciling Amount                                   $                      2,154,385    $                    1,650,804

Relevant Information for Comprehension

Other Fund Types include balances in deposit accounts which consist of taxes, small escrow accounts and other federal
payroll withholding allotments.

The Air Force shows a reconciling amount of $ 2.2 billion with U.S. Treasury, which is comprised of the net value of the
following:

$26.6 million in allocation transfers to Air Force from the Department of Agriculture and the Foreign Military Sales-Military
Assistance Program (MAP). An allocation transfer occurs when the Treasury appropriates funds to one federal entity,
which then transfers the authority to execute its funds to another federal entity. Treasury reports these funds as Air Force
in the Fund Balance with Treasury (FBWT), but Air Force does not include in its FBWT because the Departments of
Agriculture and MAP report these balances in their financial statements.

$21.9 million in allocation transfers from Air force to the Department of Transportation (DoT). These funds are reported in
FBWT by Air Force but are not included in FBWT at Treasury, because Treasury reports these balances under DoT.

$1.8 million of unavailable receipt accounts due to fiduciary activity consisting of the Savings Deposit Program (SDP). The
U.S. Treasury reported these funds as Air Force FBWT, but activity recorded within the SDP must be excluded form the
Air Force FBWT.

$2.0 billion in withdrawal of the FBWT in the cancelling appropriations at September 30, 2012. These funds are included
in FBWT per Treasury but are not included in FBWT per Air Force.

$98.7 million in withdrawal of the FBWT for unavailable receipt accounts at September 30, 2012. These funds are
included in FBWT per Treasury but are not included in FBWT per Air Force.




                                                             35
        United States Air Force



 Status of Fund Balance with Treasury

 As of September 30                                             2012                                 2011
 (Amounts in thousands)
 1. Unobligated Balance
    A. Available                                 $                        28,153,750   $                     34,001,355
    B. Unavailable                                                         4,924,787                          4,005,666

 2. Obligated Balance not yet Disbursed          $                        81,011,195   $                     74,701,468

 3. Nonbudgetary FBWT                            $                           487,686   $                        413,385

 4. NonFBWT Budgetary Accounts                   $                       (2,174,792)   $                     (3,033,550)

 5. Total                                        $                      112,402,626    $                    110,088,324


Relevant Information for Comprehension

The Status of FBWT reflects the budgetary resources to support the FBWT and is a reconciliation between budgetary and
proprietary accounts. It primarily consists of unobligated and obligated balances. The balances reflect the budgetary
authority remaining for disbursement against current or future obligations.

Unobligated Balance is classified as available or unavailable and represents the cumulative amount of budgetary authority
that has not been set aside to cover outstanding obligations. The unavailable balance consists primarily of funds invested
in U.S. Treasury securities that are temporarily precluded from obligation by law. Certain unobligated balances are
restricted for future use and are not apportioned for current use. Unobligated balances for trust fund accounts are
restricted for use by the public law that established the funds.

Obligated Balance not yet Disbursed represents funds that have been obligated for goods and services not received, and
those received but not paid.

Nonbudgetary FBWT includes accounts that do not have budgetary authority, such as deposit funds, unavailable receipt
accounts, clearing accounts and nonentity FBWT. The items reported as Nonbudgetary FBWT account comprises the
FBWT for suspense, deposit and receipt accounts.

NonFBWT Budgetary Accounts reduce the Status of FBWT. The items that comprise the amount reported as NonFBWT
receipts are from investments and discounts in U.S. Treasury securities, and unfilled customer orders without advances.




                                                           36
                                                                                        Agency Financial Report                           2012
                                                                                                                            General Fund
                                                                                                         Notes to the Principal Statements



 Note 4.             Investments and Related Interest

 As of September 30                                                                     2012
                                                       Amortization               Amortized                                           Market Value
                                             Cost                                                         Investments, Net
                                                           Method             (Premium) / Discount                                      Disclosure
(Amounts in thousands)
 1. Intragovernmental
    Securities
    A. Nonmarketable,
       Market-Based
       1. Military Retirement Fund    $          0                        $                      0   $                      0   $                  0
       2. Medicare Eligible Retiree
       Health Care Fund                          0                                               0                          0                      0
       3. US Army Corps of
       Engineers                                 0                                               0                          0                      0
       4. Other Funds                        1,072   Effective Interest                        (5)                   1,067                   1,067
       5. Total Nonmarketable,
       Market-Based                          1,072                                             (5)                   1,067                   1,067

   B. Accrued Interest                           5                                                                          5                      5
   C. Total
      Intragovernmental
      Securities                      $      1,077                        $                    (5)   $               1,072      $            1,072



 2. Other Investments
    A. Total Other
       Investments                    $          0                        $                      0   $                      0                  N/A



 As of September 30                                                                     2011
                                                     Amortization               Amortized                                           Market Value
                                          Cost                                                           Investments, Net
                                                       Method              (Premium) / Discount                                      Disclosure
 (Amounts in thousands)
 3. Intragovernmental
    Securities
    A. Nonmarketable,
       Market-Based
       1. Military Retirement Fund    $          0                        $                     0    $                      0   $                  0
       2. Medicare Eligible Retiree
       Health Care Fund                          0                                              0                           0                      0
       3. US Army Corps of
       Engineers                                 0                                               0                       0                       0
       4. Other Funds                        1,077   Effective Interest                        (5)                   1,072                   1,072
       5. Total Nonmarketable,
       Market-Based                          1,077                                             (5)                   1,072                   1,072

   B. Accrued Interest                           6                                                                          6                      6
   C. Total
      Intragovernmental
      Securities                      $      1,083                        $                    (5)   $               1,078      $            1,078

 4. Other Investments
    A. Total Other
       Investments                    $          0                        $                     0    $                      0                  N/A




                                                                      37
        United States Air Force


Relevant Information for Comprehension


The U.S. Treasury securities are issued to the earmarked funds as evidence of its receipt and are an asset to the Air
Force and a liability to the U.S. Treasury. The Federal Government does not set aside assets to pay future benefits or
other expenditures associated with earmarked funds. The cash generated from earmarked funds are deposited in the U.S.
Treasury, which uses the cash for general Government purposes. Since the Air Force and the U.S. Treasury are both part
of the Federal Government, these assets and liabilities offset each other from the standpoint of the Federal Government
as a whole. For this reason, they do not represent an asset or a liability in the U.S. Governmentwide financial statements.

The U.S. Treasury securities provide the Air Force with authority to draw upon the U.S. Treasury to make future benefit
payments or other expenditures. When the Air Force requires redemption of these securities to make expenditures, the
Government will finance them from accumulated cash balances, by raising taxes or other receipts, borrowing from the
public or repaying less debt, or curtailing other expenditures. The Federal Government used the same method to finance
all other expenditures.

Intragovernmental Securities (Other Funds) primarily represents the Air Force Gift Fund investment in U.S. Treasury
Securities.




                                                            38
                                                                      Agency Financial Report                  2012
                                                                                                        General Fund
                                                                                     Notes to the Principal Statements


 Note 5.        Accounts Receivable


 As of September 30                                                 2012
                                                           Allowance For Estimated
                              Gross Amount Due                                              Accounts Receivable, Net
                                                                  Uncollectibles
(Amounts in thousands)
 1. Intragovernmental
    Receivables           $                 465,674                             N/A     $                     465,674
 2. Nonfederal
    Receivables (From
    the Public)           $                 700,231    $                   (277,915)    $                     422,316

 3. Total Accounts
    Receivable            $               1,165,905    $                   (277,915)    $                     887,990




 As of September 30                                                2011
                                                           Allowance For Estimated
                              Gross Amount Due                                               Accounts Receivable, Net
                                                                  Uncollectibles
 (Amounts in thousands)
 1. Intragovernmental
    Receivables           $                  588,063                             N/A     $                    588,063
 2. Nonfederal
    Receivables (From
    the Public)           $                  672,052   $                   (305,644)     $                    366,408

 3. Total Accounts
    Receivable            $                1,260,115   $                   (305,644)     $                    954,471


Relevant Information for Comprehension

The accounts receivable represent the Air Force’s claim for payment from other entities. The Air Force only
recognizes an allowance for uncollectible amounts from the public. Claims with other federal agencies are
resolved in accordance with the Intragovernmental Business Rules.




                                                       39
        United States Air Force



 Note 6.          Other Assets


 As of September 30                                                           2012                          2011
 (Amounts in thousands)


 1. Intragovernmental Other Assets
    A. Advances and Prepayments                                    $                  175,315    $                  93,765
    B. Other Assets                                                                         0                            0
    C. Total Intragovernmental Other Assets                        $                  175,315    $                  93,765

 2. Nonfederal Other Assets
    A. Outstanding Contract Financing Payments                     $               11,999,840    $              11,288,053
    B. Advances and Prepayments                                                        28,449                       92,343
    C. Other Assets (With the Public)                                                 179,050                      184,825
    D. Total Nonfederal Other Assets                               $               12,207,339    $              11,565,221


 3. Total Other Assets                                             $               12,382,654    $              11,658,986


Relevant Information for Comprehension

Nonfederal Other Assets (With the Public) is comprised exclusively of advance payment pool agreements with nonprofit
educational institutions. These agreements are funded under cost-type contract procedures and are mainly for
experimental research and development requirements.

Contract terms and conditions for certain types of contract financing payments convey certain rights to the Federal
Government that protect the contract work from state or local taxation, liens or attachment by the contractor's creditors,
transfer of property, or disposition in bankruptcy. However, these rights should not be misconstrued to mean that
ownership of the contractor’s work has transferred to the Federal Government. The Federal Government does not have
the right to take the work, except as provided in contract clauses related to termination or acceptance, and Air Force is not
obligated to make payment to the contractor until delivery and acceptance.




                                                             40
                                                                    Agency Financial Report              2012
                                                                                                   General Fund
                                                                                Notes to the Principal Statements


 Note 7.         Cash and Other Monetary Assets


 As of September 30                                             2012                            2011
 (Amounts in thousands)

 1. Cash                                            $                      65,202   $                     77,946
 2. Foreign Currency                                                       15,636                         17,638
 3. Other Monetary Assets                                                       0                              0

 4. Total Cash, Foreign Currency, & Other
    Monetary Assets                                 $                      80,838   $                     95,584


Relevant Information for Comprehension

The amount reported as cash and foreign currency consists primarily of cash held by Disbursing Officers. The
foreign currency amount reported is valued at U.S. Treasury’s prevailing exchange rate, which is the most
favorable rate available to the Government for foreign exchange transactions. Foreign currency is primarily
used to make vendor disbursements and to exchange U.S. dollars for military personnel.

Cash and foreign currency are nonentity assets and, as such, considered restricted assets that are held by the
Air Force but are not available for use in its operations. These assets are held by Air Force Disbursing Officers
as agents of U.S. Treasury. The total balance of $80.8 million is restricted.


 Note 8.         Direct Loans and Loan Guarantees

Not applicable




                                                        41
        United States Air Force



 Note 9.         Inventory and Related Property


 As of September 30                                           2012                             2011
 (Amounts in thousands)

 1. Inventory, Net                              $                              0   $                           0
 2. Operating Materials & Supplies, Net                               50,711,683                      48,650,905
 3. Stockpile Materiel, Net                                                    0                               0

 4. Total                                       $                     50,711,683   $                  48,650,905


Relevant Information for Comprehension

General Composition of OM&S

The Operating Materials and Supplies (OM&S) include weapon systems spares, ammunition, tactical missiles,
aerial target drones, uninstalled aircraft and cruise missile engines, and uninstalled intercontinental ballistic
missile motors.

In addition to the account balances shown in Note 9, the federal accounting standard requires disclosure of the
amount of OM&S held for future use. Except for an immaterial amount of munitions, the Air Force is not holding
any items for future use.

Restrictions on the Use of OM&S

The Air Force does not maintain any OM&S restricted assets.

Decision Criteria for Identifying the Category to Which OM&S Items Are Assigned

The category Held for Use includes all materiel available for issuance. OM&S classified as such is marked
within each supply or inventory system.

The category Held for Repair generally includes all economically reparable materiel as defined by the Military
Standard Transaction Reporting and Accounting Procedures Manual (DoD 4000.25-2-M). The category Held
for Repair represents suspended, unserviceable (but reparable) items recorded at Moving Average Cost
(MAC) or standard price.

The category Held as Excess, Obsolete, and Unserviceable includes all materiel that managers determine to
be more costly to repair than to replace. Items retained for management purposes which are beyond economic
repair are coded ―condemned.‖ These items are held until proper disposal can be made. Excess, Obsolete,
and Unserviceable are valued at zero. This allowance results in a zero value to the Air Force.

Changes in the Criteria for Identifying the Category to Which OM&S Items Are Assigned

Under current DoD policy, no allowance is made for serviceable, ready-to-issue items (Held for Use). An
allowance equal to 100% of MAC or standard price, however, is made for the category Excess, Obsolete, and
Unserviceable. This allowance results in a net book value of zero to the Air Force. Excess, Obsolete, and
Unserviceable are valued at zero. This allowance results in a zero value to the Air Force. The category Held for
Repair represents suspended, unserviceable (but reparable) items recorded at MAC or standard price.


                                                       42
                                                                  Agency Financial Report             2012
                                                                                                 General Fund
                                                                              Notes to the Principal Statements

Operating Materiel and Supplies (OM&S) Value

The OM&S data reported on the financial statements are derived from logistics systems designed for materiel
management purposes. Some of these systems do not maintain the historical cost data necessary to comply
with the valuation requirements of the Statement of Federal Financial Accounting Standards (SFFAS) No. 3,
―Accounting for Inventory and Related Property.‖

In general, the Air Force uses the consumption method of accounting for OM&S, since OM&S is defined in
SFFAS No. 3 as materiel that has not yet been issued to the end user. Once issued, the materiel is expensed.
According to federal accounting standards, the consumption method of accounting should be used to account
for OM&S unless: (1) the amount of OM&S is not significant, (2) OM&S are in the hands of the end user for
use in normal operations, or (3) it is cost beneficial to expense OM&S when purchased (purchase method).

Other Air Force Disclosures

In the past, the Air Force provided only minimal OM&S accounting data that can be used to prepare the
financial statements but has made considerable strides in improving the systems to provide actual transactions
for completing the financial statements. However, in some cases, the data provided still consists of only
beginning and ending balances for each of the asset accounts Held for Use; Excess, Obsolete, and
Unserviceable; and Held for Repair. Without the required additional data (acquisitions, transfers in, amounts
consumed, transfers out, trading partner data, etc.), DFAS can only report the net change between prior period
ending balances and the values reported as current period ending balances.




                                                      43
        United States Air Force




 Inventory, Net
Not applicable

 Operating Materials and Supplies, Net

 As of September 30                                                 2012
                                       OM&S
                                                                                                              Valuation
                                     Gross Value         Revaluation Allowance          OM&S, Net
                                                                                                               Method
 (Amounts in thousands)


 1. OM&S Categories
   A. Held for Use               $         39,196,024    $                     0    $        39,196,024    SP, LAC, MAC
   B. Held for Repair                      11,515,659                          0             11,515,659    SP, LAC, MAC
   C. Excess, Obsolete,
      and Unserviceable                      402,171                    (402,171)                      0         NRV

   D. Total                      $         51,113,854    $              (402,171)   $        50,711,683


 As of September 30                                                 2011
                                       OM&S
                                                                                                              Valuation
                                     Gross Value        Revaluation Allowance           OM&S, Net
                                                                                                               Method
 (Amounts in thousands)


 1. OM&S Categories
   A. Held for Use               $        37,183,077    $                      0    $        37,183,077    SP, LAC, MAC
   B. Held for Repair                     11,467,828                           0             11,467,828    SP, LAC, MAC
   C. Excess, Obsolete,
      and Unserviceable                      551,424                   (551,424)                       0         NRV

   D. Total                      $        49,202,329    $              (551,424)    $        48,650,905

 Legend for Valuation Methods:
 LAC = Latest Acquisition Cost                 NRV = Net Realizable Value                  MAC = Moving Average Cost
 SP = Standard Price                           LCM = Lower of Cost or Market
 AC = Actual Cost                              O = Other



 Stockpile Materiel, Net
Not applicable.




                                                               44
                                                                                      Agency Financial Report             2012
                                                                                                                     General Fund
                                                                                                  Notes to the Principal Statements



Note 10.             General Property, Plant & Equipment, Net


As of September 30                                                                  2012
                                   Depreciation/                                                   (Accumulated
                                                          Service               Acquisition                                Net Book
                                   Amortization                                                     Depreciation/
                                                           Life                     Value                                     Value
                                     Method                                                         Amortization)
(Amounts in thousands)


1. Major Asset Classes
   A. Land                              N/A                 N/A       $           424,618                    N/A    $       424,618
   B. Buildings, Structures, and
      Facilities                        S/L               20 Or 40              72,435,882    $     (37,200,608)         35,235,274

  C.Leasehold Improvements              S/L              Lease Term                 63,510               (9,808)             53,702

  D.Software                            S/L               2-5 Or 10               626,824              (402,653)            224,171

  E. General Equipment                  S/L               5 Or 10               47,270,027          (35,597,256)         11,672,771

  F. Military Equipment                 S/L               Various              293,447,899         (209,292,723)         84,155,176
  G.Shipbuilding
     (Construction-in-Progress)         N/A                 N/A                          0                     0                 0
  H.Assets Under Capital
     Lease                              S/L              Lease Term               106,923               (91,443)             15,480
  I. Construction-in- Progress
     (Excludes Military
     Equipment)                         N/A                 N/A                  5,301,049                   N/A          5,301,049

  J. Other                                                                               0                     0                 0

  K. Total General PP&E                                               $        419,676,732    $    (282,594,491)    $   137,082,241



1 Note 15 for additional information on Capital Leases
Legend for Valuation Methods:
S/L = Straight Line       N/A = Not Applicable




                                                                          45
         United States Air Force



As of September 30
                                                                              2011
                                  Depreciation/                                             (Accumulated
                                                     Service              Acquisition                              Net Book
                                  Amortization                                               Depreciation/
                                                      Life                    Value                                   Value
                                    Method                                                   Amortization)
(Amounts in thousands)



1. Major Asset Classes
   A. Land                             N/A               N/A    $           408,291                   N/A    $      408,291
  B. Buildings, Structures, and
     Facilities                        S/L          20 Or 40              64,474,698    $    (32,831,874)         31,642,825


  C.Leasehold Improvements             S/L         Lease Term                 18,460              (5,020)            13,440


  D.Software                           S/L          2-5 Or 10               620,744             (382,707)           238,037


  E. General Equipment                 S/L           5 or 10              45,957,562         (36,506,073)          9,451,489


  F. Military Equipment                S/L           Various             296,659,522        (209,083,244)         87,576,277
  G.Shipbuilding
    (Construction-in-Progress)         N/A               N/A                       0                    0                 0
  H.Assets Under Capital
     Lease                             S/L         Lease Term               372,563             (338,806)            33,757
  I. Construction-in- Progress
     (Excludes Military
     Equipment)                        N/A               N/A               5,420,007                  N/A          5,420,007


  J. Other                                                                         0                    0                 0


  K. Total General PP&E                                         $        413,931,847    $   (279,147,724)    $   134,784,123



1 Note 15 for additional information on Capital Leases
Legend for Valuation Methods:
S/L = Straight Line       N/A = Not Applicable




                                                                    46
                                                                       Agency Financial Report             2012
                                                                                                      General Fund
                                                                                   Notes to the Principal Statements

Heritage Assets and Stewardship Land

 Categories                            Measure            Beginning        Additions        Deletions       Ending
                                       Quantity            Balance                                         Balance
 Buildings and Structures              Each                   8,576              187           1,609         7,154
 Archeological Sites                   Each                   2,414              235               0         2,649
 Museum Collection Items (Objects,     Each                129,609             4,775             195       134,189
      Not Including Fine Art)
 Museum Collection Items (Objects,     Each                   11,139           1,441                 0      12,580
      Fine Art)


                                              (Acres in Thousands)
 Facility                                             Beginning                                             Ending
                      Facility Title                                   Additions         Deletions
 Code                                                   Balance                                            Balance
 9110         Government Owned Land                       1,569               0                  3           1,566
 9111         State Owned Land                                0               0                  0               0
 9120         Withdrawn Public land                       7,659               0              1,380           6,279
              Licensed and Permitted                        248             461                  0             709
 9130               Land
 9140         Public Land                                  191                0                  0             191
 9210         Land Easement                                160                0                  0             160
 9220         In-leased Land                                93               10                  0             103
 9230         Foreign Land                                 296                0                  0             296
 Grand Total                                                                                                 9,304
 TOTAL - All Other Lands                                                                                     2,834
 TOTAL – Stewardship Lands                                                                                   6,470


Relevant Information for Comprehension

General Property, Plant and Equipment (PP&E)

There are restrictions on the Air Force’s ability to dispose of real property (land and buildings) located outside
the continental United States.

Due to lack of historical data, in the past the Air Force estimated historical values for capitalized military
equipment using current departmental internal records. Currently, the Air Force uses actual acquisition cost for
capitalizing military equipment. The Air Force estimates historical values for capitalized military equipment
using departmental internal records.

Other Air Force Disclosures

The value of the Air Force’s General PP&E real property in the possession of contractors is included in the
values reported for the major asset classes of Land and Buildings, Structures, and Facilities. The value of
General PP&E personal property major asset class of Software and Equipment does not include all of the
General PP&E above the DoD capitalization threshold in the possession of contractors. The Air Force does not
report the value of equipment purchased directly by the contractor. The Inspector General, DoD, and the Air
Force are developing new policies and a contractor reporting process to capture General PP&E information for
future reporting purposes in compliance with generally accepted accounting principles.




                                                         47
        United States Air Force


Heritage Assets and Stewardship Land

The Air Force’s overall mission is to deliver sovereign options for the defense of the United States of America
and its global interests to fly, fight, and win in air, space, and cyberspace. As this mission has been executed,
Air Force has become a large-scale owner of historic buildings, structures, archeological sites and artifacts,
aircraft, other cultural resources, and stewardship land. The protection of the nation’s heritage assets and
stewardship land is an important aspect of the Air Force’s mission.

Heritage Assets are PP&E of historical, natural, cultural, educational or artistic significance (e.g. aesthetic); or
with significant architectural characteristics. Heritage Assets and Stewardship Land are resources that protect,
restore, enhance, modernize, preserve and sustain mission capability within the Air Force through effective
planning and management of natural and cultural resources to guarantee access to air, land, and water. These
assets are resources that are managed to provide multiple-use activities for the public benefit. This includes
actions to comply with requirements such as federal laws, Executive Orders, policies, final governing
standards, and other binding agreements. Air Force policy is to promote and preserve indefinitely the
identifiable human, environmental or civic value of these assets.

Stewardship Land comprises land and land rights other than that acquired for or in connection with General
PP&E, land acquired via the public domain, or land acquired at no cost. Air Force policy is to promote and
preserve indefinitely the identifiable human, environmental or civic value of such land

The Air Force reported 6,470,000 acres of mission-essential land under its administration. Land purchased by
the Air Force with the intent to construct buildings or facilities is considered General PP&E and is reported on
the balance sheet. All Stewardship Land, as reported, is in acceptable condition based on designated use.

Heritage Assets within the Air Force consist of buildings and structures, archeological sites, museum collection
items (objects, not including fine art), and museum collection items (fine art). The Air Force’s accounting
systems generally do not capture information relative to heritage assets separately and distinctly from normal
operations. Although the underlying accounting and recordkeeping systems track the quantities of these
assets, and, in some cases, their historical cost, information regarding their fair market value is not readily
available.

Buildings and Structures: Buildings and Structures that are listed on, or eligible for listing on the National
Register of Historic Places (NRHP), including multi-use facilities, are Heritage Assets. These buildings and
structures are maintained in accordance with the National Historic Preservation Act (NHPA), and ―The
Secretary of Interior’s Standards for The Treatment of Historic Properties‖ by each base’s civil engineering
group, as part of their overall responsibility. The Air Force reported 7,154 buildings and structures on Air Force
installations and sites to be Heritage Assets as of Sep 2012. Installation Cultural Resource Managers (CRMs)
reported that 187 Heritage Assets were added to the AF inventory in FY12, and that 1,609 were deleted.
Those deleted comprise Heritage Assets covered by the 2008 Capehart-Wherry Era Housing, and the 2010
Cold War Era Ammunition Storage Facilities, and Cold War Era Unaccompanied Housing nation-wide
programmatic agreements that completed NHPA Section 106 review for these abundant facilities. The 187
increase in Heritage Asset buildings and structures reflects the ongoing annual NHPA responsibility of Air
Force to survey and evaluate the National Register of Historic Property (NRHP) eligibility of buildings and
structures as they approach 50 years of age. The number of Heritage Asset buildings and structures is nearly
7% of the total built inventory, which equals 105,627 buildings and structures owned or controlled by the Air
Force.

Heritage Asset buildings and structures are maintained by each base civil engineering group and are
considered to be in good condition. These buildings and structures are subject to NHPA, Section 106 review
and consultation requirements whenever Air Force undertakings might affect their historic characteristics.



                                                         48
                                                                       Agency Financial Report                2012
                                                                                                       General Fund
                                                                                    Notes to the Principal Statements

Section 106 reviews ensure State Historic Preservation Officers, tribal leaders, and other party concerns are
taken into account when Air Force decides to adversely affect Heritage Asset buildings and structures.

Archeological Sites: Prehistoric and historic archaeological sites that have been identified, evaluated, and
determined to be eligible for or are listed on the National Register of Historic Places in accordance with NHPA
Section 110. The Air Force reports 2,649 archeological sites on or eligible for listing on the National Register
as of Sep 2012, up 235 from the 2,414 reported for FY2011. This cohort of archaeological Heritage Assets is a
subset of over 19,000 archaeological sites recorded on Air Force controlled and owned lands in the USA and
its Territories.

Museum Collection Items, Objects Not Including Fine Art: This represents the number of objects which
meet the criteria for historical property as defined in Air Force Instruction 84-103 and that have been evaluated,
accessioned, and catalogued in the Air Force national historical collection. The National Museum of the United
States Air Force (NMUSAF) performs inherently governmental functions by fulfilling statutory requirements
delegated by the Secretary of the Air Force for management of the Air Force’s national historic collection. The
NMUSAF is fully accredited by the American Association of Museums.

During the period 1 October 2011 – 30 September 2012 there have been 4,775 objects added to the collection.
These additions are a result of private donations, transfers from Air Force or other federal entities, curatorial
administrative actions, and the continued documentation of newly reported artifacts at Air Force activities
worldwide. 195 objects were deaccessioned from the collection as having been determined not to meet
historic property criteria, were in poor condition, or were transferred to other federal historical activities. As part
of the NMUSAF’s active collection management process, the accession and deaccession of objects is
continuous.

The overall condition of the historic collection, which is primarily located at the NMUSAF, is very good as a
result of both the professional care from trained conservators and ever improving exhibit/storage conditions.
During FY2012 detailed restoration work continued on the B-17F ―Memphis Belle‖ and the Douglas A-1H
―Skyraider‖.

Museum Collection Items, Fine Art

The art collection contains original oils, drawing, sketches and sculptures. These paintings were in direct result
of the artists visiting bases and operations throughout the Air Force. This represents 86 additions from the Air
Force Art Program and 1,355 pieces of fine art from the National Museum of the United States Air Force for
this FY. Included in the number above are fine art paintings inclusive of the National Museum of the United
States Air Force holding. The collection is maintained and kept in good condition.




                                                          49
        United States Air Force



 Assets Under Capital Lease

As of September 30
                                                                        2012                            2011
(Amounts in thousands)



1. Entity as Lessee, Assets Under Capital Lease
   A. Land and Buildings                                    $                     106,922 $                       372,563

    B. Equipment                                                                         0                               0

    C. Accumulated Amortization                                                   (91,442)                      (338,806)


    D. Total Capital Leases                                 $                      15,480 $                          33,757


 Note 11.        Liabilities Not Covered by Budgetary Resources


 As of September 30                                                       2012                           2011
 (Amounts in thousands)

 1. Intragovernmental Liabilities
    A. Accounts Payable                                         $                        0    $                        0
    B. Debt                                                                              0                             0
    C. Other                                                                       436,543                       355,740
    D. Total Intragovernmental Liabilities                      $                  436,543    $                  355,740

 2. Nonfederal Liabilities
    A. Accounts Payable                                         $                 (209,471)   $                  410,321
    B. Military Retirement and
       Other Federal Employment Benefits                                          1,148,192                     1,118,609
    C. Environmental Liabilities                                                  8,022,732                     9,596,842
    D. Other Liabilities                                                          3,080,304                     3,000,313
    E. Total Nonfederal Liabilities                             $                12,041,757   $                14,126,085

 3. Total Liabilities Not Covered by Budgetary
    Resources                                                   $                12,478,300   $                14,481,826


 4. Total Liabilities Covered by Budgetary Resources            $                13,485,258   $                10,285,058

 5. Total Liabilities                                           $                25,963,558   $                24,766,884


Relevant Information for Comprehension

Liabilities Not Covered by Budgetary Resources includes liabilities for which congressional action is needed before
budgetary resources can be provided.

The material amounts and sensitive areas included in Total Liabilities Not Covered by Budgetary Resources are
categorized as not covered because there is no current or immediate appropriation available for liquidation. These

                                                            50
                                                                              Agency Financial Report                   2012
                                                                                                               General Fund
                                                                                            Notes to the Principal Statements

liabilities will require resources funded from future year appropriations. The Air Force fully expects to receive the
necessary resources to cover these liabilities in future years.

Other Intragovernmental Liabilities are primarily comprised of Federal Employees’ Compensation Act (FECA) liabilities to
the Department of Labor and other unfunded employment related liabilities.

Other Nonfederal Liabilities are primarily comprised of the amounts recorded for unpaid leave earned to which an
employee is entitled upon separation and for contingent liabilities which are probable and measurable and will require
resources funded from future years’ appropriations.

Military Retirement and Other Federal Employment Benefits consists of various employee actuarial liabilities not due and
payable during the current fiscal year. These liabilities primarily consist of the amount recorded by employer agencies for
the actuarial present value of future FECA benefits provided to federal employees or their beneficiaries as a result of work
related deaths, disability, or occupational disease. Refer to Note 17, Military Retirement and Other Federal Employment
Benefits, for additional details and disclosures.

The abnormal balance in Nonfederal Liabilities Accounts Payable of $209.5 million can be attributed mainly to abnormal
balances reported for accounts payable in cancelled appropriations for Operation and Maintenance, Aircraft Procurement,
and Research, Development Test & Evaluation.

 Note 12.         Accounts Payable


 As of September 30                                                                 2012

                                                                         Interest, Penalties, and
                                               Accounts Payable                                               Total
                                                                           Administrative Fees

 (Amounts in thousands)

 1. Intragovernmental Payables             $            2,493,312    $                         N/A   $              2,493,312

 2. Nonfederal Payables (to the Public)                 4,435,295                             (15)                  4,435,280

 3. Total                                  $            6,928,607    $                        (15)   $              6,928,592


 As of September 30                                                                 2011

                                                                         Interest, Penalties, and
                                               Accounts Payable                                               Total
                                                                           Administrative Fees

 (Amounts in thousands)

 1. Intragovernmental Payables             $            2,553,975    $                         N/A   $              2,553,975

 2. Nonfederal Payables (to the Public)                 3,013,900                               35                  3,013,935

 3. Total                                  $            5,567,875    $                          35   $              5,567,910




                                                              51
        United States Air Force


Relevant Information for Comprehension

Accounts Payable include amounts owed to federal and nonfederal entities for goods and services received by Air Force.
The Air Force’s systems do not track intragovernmental transactions by customer at the transaction level. Buyer-side
accounts payable are adjusted to agree with intra-agency seller-side accounts receivable. Accounts Payable were
adjusted by accruing additional accounts payable and expenses.



 Note 13.        Debt

Not applicable




                                                          52
                                                                      Agency Financial Report           2012
                                                                                                 General Fund
                                                                              Notes to the Principal Statements


Note 14.       Environmental Liabilities and Disposal Liabilities

As of September 30
                                                                            2012                 2011
(Amounts in thousands)


1. Environmental Liabilities--Nonfederal

A. Accrued Environmental Restoration Liabilities
 1. Active Installations—Installation Restoration Program (IRP) and
    Building Demolition and Debris Removal (BD/DR)                     $      5,427,336     $       6,246,261
 2. Active Installations—Military Munitions Response Program (MMRP)             554,667               351,864
 3. Formerly Used Defense Sites—IRP and BD/DR                                         0                     0
 4. Formerly Used Defense Sites--MMRP                                                 0                     0

B. Other Accrued Environmental Liabilities—Non-BRAC
 1. Environmental Corrective Action                                              14,722                15,489
 2. Environmental Closure Requirements                                        1,253,417             1,253,417
 3. Environmental Response at Operational Ranges                                      0                     0
 4. Asbestos                                                                    467,582               888,960
 5. Non-Military Equipment                                                       34,175                34,175
 6. Other                                                                             0                     0

C. Base Realignment and Closure Installations
 1. Installation Restoration Program                                          1,282,013             1,646,347
 2. Military Munitions Response Program                                          14,018                13,073
 3. Environmental Corrective Action / Closure Requirements                           82                78,635
 4. Asbestos                                                                          0                     0
 5. Non-Military Equipment                                                            0                     0
 6. Other                                                                             0                     0

D. Environmental Disposal for Military Equipment / Weapons Programs
 1. Nuclear Powered Military Equipment / Spent Nuclear Fuel                             0                    0
 2. Non-Nuclear Powered Military Equipment                                         36,402               36,402
 3. Other Weapons Systems                                                               0                    0

E. Chemical Weapons Disposal Program
 1. Chemical Demilitarization - Chemical Materials Agency (CMA)                        0                    0
 2. Chemical Demilitarization - Assembled Chemical Weapons
    Alternatives (ACWA)                                                                0                    0
 3. Other                                                                              0                    0

2. Total Environmental Liabilities                                     $      9,084,414     $      10,564,623




                                                        53
        United States Air Force


Relevant Information for Comprehension

Other Information Related to Environmental Liabilities

An environmental liability is a probable and measurable future outflow or expenditure of resources that exists as of the
financial reporting date for environmental cleanup costs resulting from past transactions or events. The Air Force
acknowledges that liabilities can change for environmental cleanup costs to include (1) costs associated with
environmental restoration of sites funded under the Air Force portion of the Defense Environmental Restorations Program
(DERP); (2) corrective actions funded with other than DERP, Base Realignment and Closure (BRAC); and (3)
environmental costs associated with future closure or disposal of facilities, equipment, asbestos, and weapon systems.
These costs include researching and determining the existence of hazardous waste; removing, containing, and/or
disposing of hazardous waste from property; or material and property that consist of hazardous waste at the time of
shutdown or disposal of the asset. Cleanup costs may include, but are not limited to, decontamination, decommissioning,
site restoration, site monitoring, closure, and post closure costs related to Air Force operations that result in hazardous
waste.

Applicable Laws and Regulations of Cleanup, Closure, and Disposal Requirements.

The Air Force is required to clean up contamination resulting from past waste disposal practices, leaks, spills and other
past activity, which has created a public human health or environmental risk. Air Force does this in coordination with
regulatory agencies and, if applicable, with other responsible parties. The Air Force is also required to recognize closure,
post closure and disposal costs for its Property, Plant and Equipment (PP&E) and environmental corrective action costs
for current operations. The Air Force is responsible for tracking and reporting all required environmental information
related to environmental restoration and corrective action, closure and disposal costs of PP&E, and environmental costs
related to BRAC actions that have taken place in prior years. Applicable laws and regulations for cleanup requirements
are:

Comprehensive Environmental Response, Compensation, and Liability Act (CERCLA)
Superfund Amendments and Reauthorization Act (SARA)
Clean Water Act
Safe Drinking Water Act
Clean Air Act
Resource Conservation and Recovery Act (RCRA)
Toxic Substances Control Act (TSCA)
Medical Waste Tracking Act
Atomic Energy Act
Nuclear Waste Policy Act
Low Level Radioactive Waste Policy Amendments Act

Types of Environmental Liabilities Identified

The Air Force has environmental liabilities for clean-up requirements for active installations: Installation Restoration
Program, Building Demolition and Debris Removal, Military Munitions Response Program, and Environmental Corrective
Action. The Air Force also has environmental liabilities for cleanup requirements at installations closed under BRAC.
Finally, the Air Force has identified environmental liabilities for closure and disposal of PP&E to include facilities, general
equipment, asbestos, and weapon systems. All clean-up is done in coordination with regulatory agencies, other
responsible parties, and current property owners.

The Air Force reports a $0 balance for line items where another DoD Entity is designated as DoD Executive Agent.
Executive agents are responsible for identifying funding requirements and disclosing financial information regarding the
progress of this program. The United States Army Corps of Engineers is the Executive agent for Formerly Used Defense
Sites. The Department of the Navy is the Executive Agent for environmental liabilities due to Nuclear Powered Military
Equipment and Spent Nuclear Fuel, and the Department of the Army is the Executive Agent for environmental liabilities
related to the chemical weapons program.




                                                               54
                                                                             Agency Financial Report                    2012
                                                                                                              General Fund
                                                                                           Notes to the Principal Statements

Method for Assigning Estimated Total Cleanup Costs to Current Operating Periods

The Air Force uses engineering estimates and independently validated models to estimate environmental cleanup costs.
The models are either developed within the Remedial Action Cost Engineering Requirements application, or a historic
comparable project, a specific bid, or an independent government cost estimate is referenced for the current project. The
Air Force validates the models in accordance with DoD Instruction 5000.61 and uses the models to estimate
environmental cleanup costs based on data received during a preliminary assessment and initial site investigation. The Air
Force primarily uses engineering estimates after obtaining data during the remedial investigation/feasibility phase of the
environmental project. The Air Force has already expensed the costs for cleanup associated with General PP&E placed
into service prior to October 1, 1997, unless the costs are intended to be recovered through user charges. If the costs are
recovered through user charges, the Air Force expenses cleanup costs associated with that portion of the asset life that
has passed since the General PP&E was placed into service. The Air Force systematically recognizes the remaining cost
over the life of the assets. The unrecognized portion of the estimated total cleanup costs associated with general
property, plant, and equipment is $373 million.

Once the environmental cleanup cost estimates are complete, Air Force will comply with accounting standards to assign
costs to current operating periods. The Air Force Accrued Environmental Restoration Liability is accounted for as a totally
self contained program. All direct and indirect costs of the program are captured and reported. The Air Force
systematically recognizes the remaining cost over the life of the assets.

The accounting standards also require environmental liabilities recognized for closure and disposal requirements. Air
Force has closure requirements or disposal liabilities at active installations. Closure and disposal liabilities for facilities
(including landfills), asbestos, general equipment and weapon systems are estimated for the applicable inventory of real
property, general equipment and weapon systems. Air Force uses a set of historical disposal factors to estimate the
environmental disposal liability for each asset and the estimated closure and monitoring cost for landfills. The current
liability for these classes of assets is determined from the related disposal programs including the resources expected to
be expended in the next year from prior and future budgets.

Nature of Estimates and the Disclosure of Information Regarding Possible Changes Due to Inflation, Deflation,
Technology, or Applicable Laws and Regulations

The Air Force is not aware of any pending changes to reported values of Environmental Liabilities but recognizes that
changes may occur in the future due to changes in laws and regulations, changes in agreements with regulatory
agencies, and advances in technology.

Uncertainty Regarding the Accounting Estimates Used to Calculate the Reported Environmental Liabilities

The environmental liabilities for the Air Force are based on accounting estimates, which require certain judgments and
assumptions that are reasonable based upon information available at the time the estimates are calculated. The actual
results may materially vary from the accounting estimates if agreements with regulatory agencies require remediation to a
different degree than anticipated when calculating the estimates. Liabilities can be further affected if investigation of the
environmental sites reveals contamination levels that differ from the estimate parameters.

The Air Force has the potential to incur costs for restoration initiatives in conjunction with returning overseas Defense
facilities to host nations. The Air Force is unable to provide a reasonable estimate at this time because the extent of
required restoration necessary for returning an installation to a host nation is unknown.

Other Disclosures

The total Air Force Active Installations environmental liabilities decreased from FY11 to FY12 due to the following
environmental restoration activities: the reduction in manpower due to further centralization of restoration personnel’s
roles and responsibilities, and the re-programming of the Department of Defense and State Memorandum of Agreement
(DSMOA) to align with States’ funding requests based on anticipated level of effort to support installation programs.

There was a liability variation from FY11 to FY12 of more than 10% in the Asbestos line of Other Accrued Environmental
Liabilities – Active Installations. This variation was primarily due to the use of updated real property data, which included
significant changes in the inventory through the recording additions and deletions of real property assets in the Air Force
inventory.

                                                               55
        United States Air Force


The total Air Force BRAC environmental liabilities decreased from FY11 to FY12 due to the following environmental
restoration activities: the application of Legacy BRAC funding towards accelerated site cleanup/closure at several
installations; execution of Performance Based Remediation (PBR) contracts; and successful negotiations and signed
Record of Decision (ROD) at the former McClellan AFB. There was a liability variation from FY11 to FY12 of more than
10% at 28 Legacy BRAC and 2 BRAC05 installations. This was primarily due to a site evaluation resulting in reallocation
of site restoration costs that were directly attributable to environmental cleanup but previously captured under
management. In addition, a variation from FY 11 to FY 12 in excess of 10% resulted from a re-assignment of liabilities in
the BRAC program from the Environmental Corrective Action / Closure Requirements line to the Installation Restoration
Program line. Although individual environmental liabilities increased at several installations, overall environmental
liabilities decreased year over year.




                                                            56
                                                                       Agency Financial Report              2012
                                                                                                       General Fund
                                                                                    Notes to the Principal Statements


Note 15.        Other Liabilities

As of September 30
                                                                                      2012
                                                                 Current            Noncurrent
                                                                                                         Total
                                                                 Liability           Liability
   (Amounts in thousands)

1. Intragovernmental
   A. Advances from Others                                   $        803,355   $               0    $      803,354
   B. Deposit Funds and Suspense Account Liabilities                  364,794                   0           364,794
   C. Disbursing Officer Cash                                         262,061                   0           262,061
   D. Judgment Fund Liabilities                                       133,841                   0           133,841
   E. FECA Reimbursement to the Department of Labor                   112,446             141,686           254,132
   F. Custodial Liabilities                                                 0             291,434           291,434
   G. Employer Contribution and Payroll Taxes Payable                  35,263                   0            35,263
   H. Other Liabilities                                                48,777                   0            48,777
   I. Total Intragovernmental Other Liabilities              $      1,760,537   $         433,120    $    2,193,657

2. Nonfederal
   A. Accrued Funded Payroll and Benefits                    $      1,792,119   $                0   $    1,792,119
   B. Advances from Others                                             65,755                    0           65,755
   C. Deferred Credits                                                      0                    0                0
   D. Deposit Funds and Suspense Accounts                             122,892                    0          122,892
   E. Temporary Early Retirement Authority                                  0                    0                0
   F. Nonenvironmental Disposal Liabilities
        (1) Military Equipment (Nonnuclear)                                 0                   0                 0
        (2) Excess/Obsolete Structures                                      0                   0                 0
        (3) Conventional Munitions Disposal                                 0                   0                 0
   G. Accrued Unfunded Annual Leave                                 2,645,132                   0         2,645,132
   H. Capital Lease Liability                                           2,020              22,208            24,228
    I. Contract Holdbacks                                              92,993                   0            92,993
   J. Employer Contribution and Payroll Taxes Payable                  62,990                   0            62,990
   K. Contingent Liabilities                                                0           1,792,951         1,792,951
   L. Other Liabilities                                                 7,480                   0             7,480
   M. Total Nonfederal Other Liabilities                     $      4,791,381   $       1,815,159    $    6,606,540

3. Total Other Liabilities                                   $      6,551,918   $       2,248,279    $    8,800,197




                                                        57
       United States Air Force


As of September 30
                                                                                      2011
                                                                 Current             Noncurrent
                                                                                                          Total
                                                                 Liability            Liability
(Amounts in thousands)

1. Intragovernmental
   A. Advances from Others                                   $         775,017   $             0      $     775,017
   B. Deposit Funds and Suspense Account Liabilities                   286,744                 0            286,744
   C. Disbursing Officer Cash                                          282,156                 0            282,156
   D. Judgment Fund Liabilities                                         46,328                 0             46,328
   E. FECA Reimbursement to the Department of Labor                    107,062           145,379            252,441
   F. Custodial Liabilities                                                  0           294,281            294,281
   G. Employer Contribution and Payroll Taxes Payable                   35,059                 0             35,059
       H. Other Liabilities                                             57,309                 0             57,309
    I. Total Intragovernmental Other Liabilities             $       1,589,675   $       439,660      $   2,029,335

2. Nonfederal
   A. Accrued Funded Payroll and Benefits                    $       1,038,388   $                0   $   1,038,388
   B. Advances from Others                                              43,375                    0          43,375
   C. Deferred Credits                                                       0                    0               0
   D. Deposit Funds and Suspense Accounts                              130,133                    0         130,133
   E. Temporary Early Retirement Authority                                   0                    0               0
   F. Nonenvironmental Disposal Liabilities
       (1) Military Equipment (Nonnuclear)                                   0                 0                  0
       (2) Excess/Obsolete Structures                                        0                 0                  0
       (3) Conventional Munitions Disposal                                   0                 0                  0
   G. Accrued Unfunded Annual Leave                                  2,645,982                 0          2,645,982
   H. Capital Lease Liability                                            7,154            28,128             35,282
   I. Contract Holdbacks                                               101,974                 0            101,974
   J. Employer Contribution and Payroll Taxes Payable                  226,373                 0            226,373
      K. Contingent Liabilities                                        875,791           354,027          1,229,818
   L. Other Liabilities                                                 27,548                 0             27,548
   M. Total Nonfederal Other Liabilities                     $       5,096,718   $       382,155      $   5,478,873

3. Total Other Liabilities                                   $       6,686,393   $       821,815      $   7,508,207




                                                        58
                                                                           Agency Financial Report                 2012
                                                                                                           General Fund
                                                                                        Notes to the Principal Statements

Relevant Information for Comprehension
Intragovernmental Other Liabilities represent government contributions for employee benefits and unemployment
compensation.

Nonfederal Other Liabilities reflect accrued moving allowance and miscellaneous expenses to contractors.

Contingent Liabilities include contracts authorizing progress payments based on cost as defined in the Federal Acquisition
Regulation (FAR). In accordance with contract terms, specific rights to the contractors’ work vests with the Federal
Government when a specific type of contract financing payment is made. This action protects taxpayer funds in the event
of contract nonperformance. In accordance with contract terms, specific rights to the contractors’ work vests with the
Federal Government when a specific type of contract financing payment is made. This action protects taxpayer funds in
the event of contract nonperformance. It is DoD policy that these rights should not be misconstrued as rights of
ownership. The Air Force is under no obligation to pay contractors for amounts greater than the amounts of progress
payments authorized in contracts until delivery and government acceptance. Due to the probability the contractors will
complete their efforts and deliver satisfactory products, and because the amount of contractor costs incurred but yet
unpaid are estimable, the Air Force has recognized a contingent liability for the estimated unpaid costs that are
considered conditional for payment pending delivery and government acceptance.

Total contingent liabilities for progress payments based on cost represent the difference between the estimated costs
incurred to date by contractors and amounts authorized to be paid under progress payments based on cost provisions
within the FAR. Estimated contractor-incurred costs are calculated by dividing the cumulative unliquidated progress
payments based on cost by the contract-authorized progress payment rate. The balance of unliquidated progress
payments based on cost is deducted from the estimated total contractor-incurred costs to determine the contingency
amount.

Estimation Methodology

The Air Force General Counsel, through legal determination, assesses and categorizes all contingent legal liability cases
that equal or exceed the materiality threshold set by Department of Defense Inspector General (DoDIG). For the
remaining cases falling below the dollar materiality threshold set by DoDIG, they are considered in aggregate, if the total
amount of the cases equal or exceed the established materiality threshold.

The Air Force General Counsel also solicits case data through quarterly data calls from the Air Force JAC (Judge
Advocate Civil Lawsuits and Litigation Directorate). Air Force financial management personnel use the solicited case data,
which include the current reporting year and each of the prior two years, to estimate the amounts of probable and
reasonably possible contingent liabilities. See Note 16 for detailed disclosure of contingent liabilities.

Air Force financial management personnel use a three-year prior case analysis spreadsheet, which was developed by the
Air Force Audit Agency, to calculate and estimate the amount of contingent liabilities (probable and reasonably possible)
for reporting or disclosing in the quarterly financial statements. In cases where Air Force General Counsel discloses that a
judgment has been awarded against the Air Force, these amounts will be reported on the Balance Sheet and within this
note.




                                                             59
        United States Air Force



 Capital Lease Liability

 As of September 30
                                                                               2012
                                                                           Asset Category
                                                   Land and
                                                                      Equipment           Other           Total
                                                   Buildings
  (Amounts in thousands)
 1. Future Payments Due
   A. 2013                                     $          9,462   $               0   $           0   $            9,462
   B. 2014                                                8,688                   0               0                8,688
   C. 2015                                                8,688                   0               0                8,688
   D. 2016                                                    0                   0               0                    0
   E. 2017                                                    0                   0               0                    0
   F. After 5 Years                                           0                   0               0                    0

   G. Total Future Lease Payments Due          $        26,838    $               0   $           0   $           26,838
   H. Less: Imputed Interest Executory Costs             2,610                    0               0                2,610

   I. Net Capital Lease Liability              $        24,228    $               0   $           0   $           24,228

 2. Capital Lease Liabilities Covered by Budgetary Resources                                          $           24,228

 3. Capital Lease Liabilities Not Covered by Budgetary Resources                                      $               0


As of September 30
                                                                               2011
                                                                           Asset Category
                                                   Land and
                                                                      Equipment           Other           Total
                                                   Buildings
 (Amounts in thousands)
1. Future Payments Due
  A. 2012                                      $        36,786    $               0   $           0   $           36,786
  B. 2013                                               13,088                    0               0               13,088
  C. 2014                                                9,462                    0               0                9,462
  D. 2015                                                8,688                    0               0                8,688
  E. 2016                                                8,688                    0               0                8,688
  F. After 5 Years                                           0                    0               0                    0

 G. Total Future Lease Payments Due            $        76,712    $               0   $           0   $           76,712
 H. Less: Imputed Interest Executory Costs              41,429                    0               0               41,429

 I. Net Capital Lease Liability                $        35,283    $               0   $           0   $           35,283

2. Capital Lease Liabilities Covered by Budgetary Resources                                           $           35,283

3. Capital Lease Liabilities Not Covered by Budgetary Resources                                       $               0




                                                         60
                                                                            Agency Financial Report                 2012
                                                                                                            General Fund
                                                                                         Notes to the Principal Statements


 Note 16.         Commitments and Contingencies

The Air Force is a party in various administrative proceedings and legal actions related to claims for environmental
damage, equal opportunity matters, and contractual bid protests.

The Air Force has accrued contingent liabilities for legal actions where the Secretary of the Air Force General Counsel
(SAF/GC) considers an adverse decision probable and the amount of loss measurable. In the event of an adverse
judgment against the Government, some of the liabilities may be payable from the U.S. Treasury Judgment Fund. The Air
Force records contingent liabilities in Note 15, Other Liabilities.

Claims and litigation from Civil Law having a reasonably possible liability are estimated at $221.8 million. Neither past
payments nor the current contingent liability estimate provides a basis for accurately projecting the results of any
individual lawsuit or claim. Since monetary judgments paid to civil litigants come from a judgment fund administrated by
U.S. Treasury, it is uncertain that claims will become a liability to the Air Force.

The amounts disclosed for litigation claims and assessments are fully supportable and must agree with Force’s legal
representation letters and management summary schedule.

The amount of obligations related to cancelled appropriations for which the reporting entity has a contractual commitment
for payment is $826.6 million.

The Air Force is a party in numerous individual contracts that contain clauses, such as price escalation, award fee
payments, or dispute resolution, that may result in a future outflow of budgetary resources. Currently, the Air Force has
limited automated system processes by which it captures or assesses these potential liabilities; therefore, the amounts
reported may not fairly present Air Force commitments and contingencies.

The estimated probable liability amount of $1.8 billion was recognized in Note 15 as contingent liabilities.

In addition, Air Force recognized the total estimated probable liability for claims and litigation against the Air Force,
handled by the Civil Law and Litigation Directorate, as of September 30, 2012, valued at $434 million, included in
Nonfederal Contingent Liabilities. As of June 30, 2011, the Air Force was party to 3,535 claims and litigation actions. This
liability dollar amount recorded in the financial statements is an estimate based on the weighted average payout rate for
the previous three years. There are only two types of cases where U.S. Treasury will seek reimbursements from the
affected agency, the Contract Dispute Act cases and select Federal Government personnel disciplinary matters.

The SAF/GC developed the estimating methodology for the contingent liabilities recognized in Note 15.

In cases where SAF/GC disclosed that a judgment has been awarded against the Air Force, these amounts were reported
on the Balance Sheet and within Note 15.




                                                             61
       United States Air Force



Note 17.        Military Retirement and Other Federal Employment Benefits


As of September 30                                                                            2012
                                                                                          (Less: Assets
                                                                                                                Unfunded
                                                                       Liabilities       Available to Pay
                                                                                                                Liabilities
                                                                                            Benefits)
(Amounts in thousands)

1. Pension and Health Benefits
  A. Military Retirement Pensions                                  $                 0   $              0   $                 0
  B. Military Pre Medicare-Eligible Retiree Health Benefits                          0                  0                     0
  C. Military Medicare-Eligible Retiree Health Benefits                              0                  0                     0
  D. Total Pension and Health Benefits                             $                 0   $              0   $                 0
2. Other Benefits
  A. FECA                                                          $       1,148,192     $              0   $       1,148,192
  B. Voluntary Separation Incentive Programs                                       0                    0                   0
  C. DoD Education Benefits Fund                                                   0                    0                   0
  D. Other                                                                     2,161              (2,161)                   0
  E. Total Other Benefits                                          $       1,150,353     $        (2,162)   $       1,148,192

3. Total Military Retirement and Other Federal
   Employment Benefits:                                            $       1,150,353     $        (2,162)   $       1,148,192




As of September 30                                                                             2011
                                                                                          (Less: Assets
                                                                                                                Unfunded
                                                                       Liabilities       Available to Pay
                                                                                                                Liabilities
                                                                                            Benefits)
(Amounts in thousands)
1. Pension and Health Benefits
  A. Military Retirement Pensions                                  $                 0   $              0   $                 0
  B. Military Pre Medicare-Eligible Retiree Health Benefits                          0                  0                     0
  C. Military Medicare-Eligible Retiree Health Benefits                              0                  0                     0
  D. Total Pension and Health Benefits                             $                 0   $              0   $                 0
2. Other Benefits
  A. FECA                                                          $       1,118,609     $              0   $       1,118,609
  B. Voluntary Separation Incentive Programs                                       0                    0                   0
  C. DoD Education Benefits Fund                                                   0                    0                   0
  D. Other                                                                     7,533              (7,533)                   0
  E. Total Other Benefits                                          $       1,126,142     $        (7,533)   $       1,118,609

3. Total Military Retirement and Other Federal
   Employment Benefits:                                            $       1,126,142     $        (7,533)   $       1,118,609




                                                              62
                                                                      Agency Financial Report                2012
                                                                                                      General Fund
                                                                                   Notes to the Principal Statements

Relevant Information for Comprehension

Programs for which actuarial benefits are computed include the Federal Employees’ Compensation Act
(FECA); the expected liability for death, disability, medical, and miscellaneous costs for approved
compensation cases; and a component for incurred but not reported claims.

FECA liability is determined using a method that utilizes historical benefit payment patterns to predict the
ultimate payments. The projected annual benefit payments are then discounted to present value using the
Office of Management and Budget’s economic assumptions for 10-year U.S. Treasury notes and bonds.

Interest rate assumptions utilized for discounting were as follows:

                           Discount Rates

                           2.293% in Year 1
                           3.138% in Year 2
                           and thereafter

To provide more specifically for the effects of inflation on the liability for future workers’ compensation benefits,
wage inflation factors [Cost of Living Adjustment (COLA)] and medical inflation factors [Consumer Price Index
Medical (CPIM)] were applied to the calculation of projected future benefits. The actual rates for these factors
for the charge-back year (CBY) 2012 were also used to adjust the methodology’s historical payments to
current-year constant dollars.

The compensation COLAs and CPIMs used in the projections for various CBYs were as follows:

                       CBY              COLA          CPIM

                       2012             N/A           N/A
                       2013             2.83%         3.65%
                       2014             2.03%         3.66%
                       2015             1.93%         3.72%
                       2016             2.00%         3.73%
                       2017             2.03%         3.80%
                       and thereafter

The model’s resulting projections were analyzed to ensure that the estimates were reliable. Analysis was
based on four tests: (1) a sensitivity analysis of the model to economic assumptions, (2) a comparison of the
percentage change in the liability amount by agency to the percentage change in the actual incremental
payments, (3) a comparison of the incremental paid losses per case (a measure of case-severity) in CBY
2012 to the average pattern observed during the most current three charge-back years, and (4) a comparison
of the estimated liability per case in FY 2012 projection to the average pattern for the projections of the most
recent three years.

The Air Force’s actuarial liability for workers’ compensation benefits is developed and provided by Department
of Labor at the end of each fiscal year. There is no change on a quarterly basis.

Other Federal Employment Benefits is comprised of additional post employment benefits due and payable to
military personnel.




                                                         63
       United States Air Force



Note 18.         General Disclosures Related to the Statement of Net Cost

Intragovernmental Costs and Exchange Revenue

As of September 30                                      2012                    2011
(Amounts in thousands)
Military Retirement Benefits
1. Gross Cost
     A. Intragovernmental Cost                 $                       0    $                  0
     B. Nonfederal Cost                                                0                       0
     C. Total Cost                             $                       0    $                  0
2. Earned Revenue
     A. Intragovernmental Revenue              $                       0    $                  0
     B. Nonfederal Revenue                                             0                       0
    C. Total Revenue                           $                       0    $                  0
3. Losses/(Gains) from Actuarial Assumption
Changes for Military Retirement Benefits       $                       0    $                  0
Total Net Cost                                 $                       0    $                  0

Civil Works
1. Gross Cost
     A. Intragovernmental Cost                 $                       0    $                  0
     B. Nonfederal Cost                                                0                       0
     C. Total Cost                             $                       0    $                  0
2. Earned Revenue
     A. Intragovernmental Revenue              $                       0    $                  0
     B. Nonfederal Revenue                                             0                       0
    C. Total Revenue                           $                       0    $                  0
3. Losses/(Gains) from Actuarial Assumption
Changes for Military Retirement Benefits       $                       0    $                  0
Total Net Cost                                 $                       0    $                  0

Military Personnel
1. Gross Cost
     A. Intragovernmental Cost                 $               12,439,091   $           8,872,533
     B. Nonfederal Cost                                        22,926,002              27,518,970
     C. Total Cost                             $               35,365,093   $          36,391,503
2. Earned Revenue
     A. Intragovernmental Revenue              $                (431,674)   $           (107,779)
     B. Nonfederal Revenue                                      (332,535)                (68,734)
    C. Total Revenue                           $                (764,209)   $           (176,513)
3. Losses/(Gains) from Actuarial Assumption
Changes for Military Retirement Benefits       $                       0    $                  0
Total Net Cost                                 $               34,600,884   $          36,214,991




                                                   64
                                                       Agency Financial Report            2012
                                                                                     General Fund
                                                                  Notes to the Principal Statements

Operations, Readiness & Support
1. Gross Cost
    A. Intragovernmental Cost                 $          (3,443,037)   $                  761,642
    B. Nonfederal Cost                                   60,418,590                    61,446,276
    C. Total Cost                             $          56,975,553    $               62,207,918
2. Earned Revenue
     A. Intragovernmental Revenue             $           (540,912)    $               (1,906,351)
     B. Nonfederal Revenue                                   93,503                      (375,944)
    C. Total Revenue                          $           (447,409)    $               (2,282,295)
3. Losses/(Gains) from Actuarial Assumption
Changes for Military Retirement Benefits      $                   0    $                        0
Total Net Cost                                $          56,528,144    $               59,925,623

Procurement
1. Gross Cost
    A. Intragovernmental Cost                 $          19,796,871    $               18,771,999
    B. Nonfederal Cost                                   24,613,154                    19,934,086
    C. Total Cost                             $          44,410,025    $               38,706,085
2. Earned Revenue
     A. Intragovernmental Revenue             $           (463,086)    $                (430,430)
     B. Nonfederal Revenue                                (172,771)                     (275,309)
    C. Total Revenue                          $           (635,857)    $                (705,739)
3. Losses/(Gains) from Actuarial Assumption
Changes for Military Retirement Benefits      $                   0    $                        0
Total Net Cost                                $          43,774,168    $               35,389,001

Research, Development, Test & Evaluation
1. Gross Cost
    A. Intragovernmental Cost                 $          11,745,005    $               11,292,973
    B. Nonfederal Cost                                   16,789,869                    16,714,772
    C. Total Cost                             $          28,534,874    $               28,007,745
2. Earned Revenue
     A. Intragovernmental Revenue             $          (2,908,316)   $               (2,907,727)
     B. Nonfederal Revenue                               (1,459,292)                      (53,283)
    C. Total Revenue                          $          (4,367,608)   $               (2,961,010)
3. Losses/(Gains) from Actuarial Assumption
Changes for Military Retirement Benefits      $                   0    $                        0
Total Net Cost                                $          24,167,266    $               25,046,735




                                                  65
        United States Air Force



 Family Housing & Military Construction
 1. Gross Cost
     A. Intragovernmental Cost                            $                     179,138    $                     128,898
     B. Nonfederal Cost                                                       3,518,697                        1,009,750
     C. Total Cost                                        $                   3,697,835    $                   1,138,648
 2. Earned Revenue
      A. Intragovernmental Revenue                        $                     (11,528)   $                     (15,082)
      B. Nonfederal Revenue                                                  (4,098,563)                                0
     C. Total Revenue                                     $                  (4,110,091)   $                     (15,082)
 3. Losses/(Gains) from Actuarial Assumption
 Changes for Military Retirement Benefits                 $                            0   $                            0
 Total Net Cost                                           $                   (412,257)    $                   1,123,566

 Consolidated
 1. Gross Cost
     A. Intragovernmental Cost                            $                  40,717,069    $                 39,828,047
     B. Nonfederal Cost                                                     128,266,311                     126,623,853
     C. Total Cost                                        $                 168,983,380    $                166,451,899
 2. Earned Revenue
      A. Intragovernmental Revenue                        $                 (4,355,517)    $                 (5,367,368)
      B. Nonfederal Revenue                                                 (5,969,659)                      (3,384,616)
      C. Total Revenue                                    $                (10,325,176)    $                 (8,751,984)
 3. Losses/(Gains) from Actuarial Assumption
 Changes for Military Retirement Benefits                 $                            0   $                            0
 4. Costs Not Assigned to Programs                        $                            0   $                            0
 5. (Less: Earned Revenues) Not Attributed to
 Programs                                                 $                           0    $                          0
 Total Net Cost                                           $                 158,658,204    $                157,699,915


Relevant Information for Comprehension

In 2012 Operations, Readiness & Support reported an abnormal balances for Intragovernmental cost in the amount of
$3.4 billion. This is in relation to transfers to and from other government entities. Because of business practices,
sometimes transfers from other Intergovernmental entities are recorded against program cost instead of revenue.

The Statement of Net Cost (SNC) represents the net cost of programs and organizations of the Federal Government that
are supported by appropriations or other means. The intent of SNC is to provide gross and net cost information related to
the amount of output or outcome for a given program or organization administered by a responsible reporting entity. The
DoD’s current processes and systems do not capture and report accumulated costs for major programs based upon the
performance measures as required by the Government Performance and Results Act. The DoD is in the process of
reviewing available data and developing a cost reporting methodology as required by the Statement of Federal Financial
Accounting Standards (SFFAS) No. 4, ―Managerial Cost Accounting Concepts and Standards for the Federal
Government,‖ as amended by SFFAS No. 30, ―Inter-entity Cost Implementation.‖

Intragovernmental costs and revenue represent transactions made between two reporting entities within the Federal
Government.

Public costs and revenues are exchange transactions made between the reporting entity and a nonfederal entity.




                                                              66
                                                                         Agency Financial Report                 2012
                                                                                                         General Fund
                                                                                      Notes to the Principal Statements

The Air Force’s systems do not track intragovernmental transactions by customer at the transaction level. Buyer-side
expenses are adjusted to agree with internal seller-side revenue. Expenses are generally adjusted by accruing additional
accounts payable and expenses. Intradepartment revenues and expenses are then eliminated.

The Air Force does not meet accounting standards. Information presented is based on budgetary obligations,
disbursements, and collection transactions, as well as nonfinancial feeder systems adjusted to record known accruals for
major items such as payroll expenses, accounts payable and environmental liabilities.

The Air Force’s accounting systems generally do not capture information relative to heritage assets separately and
distinctly from normal operations.



 Note 19.        Disclosures Related to the Statement of Changes in Net Position

Other Financing Sources, Other is comprised of unsupported adjustments to reconcile reported
intragovernmental transfers, the majority of which are recorded at the Air Force Component level, as the
respective federal partners could not be identified nor the transfers reconciled.

The Appropriations Received on the Statement of Changes in Net Position (SCNP) do not agree with
Appropriations on the Statement of Budgetary Resources (SBR) in the amount of $328 thousand. The
difference is due to additional resources included in the Appropriations line item on the SBR. Refer to Note 20,
Disclosures Related to the Statement of Budgetary Resources, for further information.

The eliminations column on SCNP will reflect zero dollars. In the SCNP, all offsetting balances (i.e. transfers-in
and transfers-out, revenues and expenses) for intraentity activity between Earmarked Funds and All Other
Funds are reported on the same lines. The eliminations column contains all appropriate elimination entries,
which net to zero within each respective line, except for intraentity imputed financing costs.




                                                           67
        United States Air Force



 Note 20.         Disclosures Related to the Statement of Budgetary Resources


 As of September 30                                                          2012                       2011
 (Amounts in thousands)

 1. Net Amount of Budgetary Resources Obligated for
    Undelivered Orders at the End of the Period                  $                  83,077,686      $        79,038,813

 2. Available Borrowing and Contract Authority at the End of
    the Period                                                                                0                        0

Relevant Information for Comprehension

Apportionment Categories

Funds are apportioned by three categories: (1) Category A is apportioned quarterly, (2) Category B is apportioned by
activity or project, and (3) Exempt is funds not subject to apportionment. The amounts of direct and reimbursable
obligations incurred are stated in the table.

                               Category A                 Category B                 Exempt
    Direct                     $96.7 billion              $75.0 billion              $2.3 million
    Reimbursable                $6.9 billion               $3.6 billion              $ 0 million

Intraentity Transactions

The Statement of Budgetary Resources (SBR) includes intraentity transactions because the statements are presented as
combined.

The Statement of Budgetary Resources (SBR) includes intraentity transactions because the statements are presented as
combined.

Permanent Indefinite Appropriations

Permanent indefinite appropriations are as follows (reference Note 23 for additional information):

Department of the Air Force General Gift Fund [10 USC 2601(b)]

Wildlife Conservation Fund [16 USC 670(a)]

Air Force Cadet Fund [37 USC 725(s)]

Medicare-Eligible Retiree Health Fund Contribution, Air Force (10 USC 1116)

Medicare-Eligible Retiree Health Fund Contribution, Reserve Personnel, Air Force (10 USC 1116)

Medicare-Eligible Retiree Health Fund Contribution, National Guard Personnel, Air Force (10 USC 1116)

Legal limitations and time restrictions on the use of unobligated appropriation balances such as upward adjustments are
provided under Public Law.




                                                            68
                                                                       Agency Financial Report                2012
                                                                                                       General Fund
                                                                                    Notes to the Principal Statements

Appropriations Received

Appropriations on the SBR differ from those reported on the Statement of Changes in Net Position (SCNP) because (1)
Appropriations on the SBR include transfers and permanent reductions to authority and (2) Appropriations Received on
the SCNP do not include dedicated appropriations and earmarked receipts. Dedicated appropriations and earmarked
receipts are accounted for as either nonexchange revenue or donations and forfeitures of cash and cash equivalents.
This resulted in a $328 thousand difference.




                                                          69
      United States Air Force



Note 21.       Reconciliation of Net Cost of Operations to Budget



As of September 30
                                                                      2012                 2011
(Amounts in thousands)

 Resources Used to Finance Activities:
Budgetary Resources Obligated:
1. Obligations incurred                                           $    182,251,092     $    177,628,001
2. Less: Spending authority from offsetting                            (15,865,741)         (14,414,018)
   collections and recoveries (-)
3. Obligations net of offsetting collections                      $    166,385,351     $    163,213,983
    and recoveries
4. Less: Offsetting receipts (-)                                         (177,075)            (154,152)
5. Net obligations                                                $    166,208,276     $    163,059,831
Other Resources:
6. Donations and forfeitures of property                                          0                   0
7. Transfers in/out without reimbursement (+/-)                         (1,200,677)             867,507
8. Imputed financing from costs absorbed by others                          763,656             855,639
9. Other (+/-)                                                            3,222,509           (459,953)
10. Net other resources used to finance activities                $       2,785,488    $      1,263,193
11. Total resources used to finance activities                    $    168,993,764     $    164,323,024
Resources Used to Finance Items not Part of the Net
     Cost of Operations:
12. Change in budgetary resources obligated for
    goods, services and benefits ordered but not yet
    provided:
    12a. Undelivered Orders (-)                                   $     (4,038,873)    $     (2,517,648)
    12b. Unfilled Customer Orders                                           212,936            (619,759)
13. Resources that fund expenses recognized in prior                    (2,115,190)            (416,750)
     Periods (-)
14. Budgetary offsetting collections and receipts that                       177,075              154,152
     do not affect Net Cost of Operations
15. Resources that finance the acquisition of assets (-)               (11,185,716)         (15,963,606)
16. Other resources or adjustments to net obligated
     resources that do not affect Net Cost of
     Operations:
     16a. Less: Trust or Special Fund Receipts                                    0                    0
            Related to exchange in the Entity’s Budget (-)
     16b. Other (+/-)                                                   (2,022,203)            (407,554)
17. Total resources used to finance items not part                $    (18,971,971)    $    (19,771,165)
     of the Net Cost of Operations
18. Total resources used to finance the Net Cost                  $    150,021,793     $    144,551,859
     of Operations




                                                             70
                                                                  Agency Financial Report              2012
                                                                                                  General Fund
                                                                               Notes to the Principal Statements




As of September 30
                                                                   2012                      2011
(Amounts in thousands)

Components of the Net Cost of Operations that will
not Require or Generate Resources in the Current
    Period:


Components Requiring or Generating Resources in Future
    Period:
19. Increase in annual leave liability                        $            17,377    $             73,728
20. Increase in environmental and disposal liability                            0               1,725,271
21. Upward/Downward reestimates of credit subsidy                               0                       0
    expense (+/-)
22. Increase in exchange revenue receivable from                          (44,742)                      0
    the public (-)
23. Other (+/-)                                                           188,189                 307,815
24. Total components of Net Cost of Operations that           $           160,824    $          2,106,814
    will Require or Generate Resources in future
    periods

Components not Requiring or Generating Resources:
25. Depreciation and amortization                             $      11,802,239      $         15,128,148
26. Revaluation of assets or liabilities (+/-)                        2,676,242                (1,761,057)
27. Other (+/-)
    27a. Trust Fund Exchange Revenue                                          0                          0
    27b. Cost of Goods Sold                                                   0                          0
    27c. Operating Material and Supplies Used                        23,708,306                 27,907,673
    27d. Other                                                     (29,711,199)               (30,233,522)
28. Total Components of Net Cost of Operations that           $       8,475,588      $          11,041,242
    will not Require or Generate Resources


29. Total components of Net Cost of Operations                $       8,636,412      $         13,148,056
    that will not Require or Generate Resources in
    the current period

30. Net Cost of Operations                                    $     158,658,205      $        157,699,915




                                                         71
        United States Air Force


Relevant Information for Comprehension

Due to Air Force financial system limitations, budgetary data do not agree with proprietary expenses and
capitalized assets. The difference between budgetary and proprietary data is a previously identified deficiency.
The amount of the adjustment to the note schedule to bring it into balance with the Statement of Net Cost is
($32) million in the Other Components Not Requiring or Generating Resources category.

The following Reconciliation of Net Cost of Operations to Budget lines are presented as combined instead of
consolidated due to intraagency budgetary transactions not being eliminated:

       Obligations Incurred
       Less: Spending Authority from Offsetting Collections and Recoveries
       Obligations Net of Offsetting Collections and Recoveries
       Less: Offsetting Receipts
       Net Obligations
       Undelivered Orders
       Unfilled Customer Orders

Other Resources Used to Finance Activities consist of other gains to adjust intragovernmental transfers in.

Other Resources Used to Finance Items Not Part of the Net Cost of Operations include adjustments to net
obligated resources that do not affect the Net Cost of Operation such as net transfers in and out without
reimbursement, and other gains and losses to adjust intragovernmental transfers in.

Other Components of the Net Cost of Operations that will not Require or Generate Resources in the Current
Period consist of expenses due to Air Force active military personnel.

Other Components not Requiring or Generating Resources include expenses for Operations and Maintenance,
Procurement, Military Construction and Family Housing.




 Note 22.         Disclosures Related to Incidental Custodial Collections

The Air Force collected $38.4 million of incidental custodial revenues generated primarily from collection of accounts
receivable related to cancelled accounts. These funds are not available for use by Air Force. At the end of each fiscal
year, the accounts are closed and the balances rendered to the U.S. Treasury.




                                                            72
                                                                             Agency Financial Report                   2012
                                                                                                             General Fund
                                                                                          Notes to the Principal Statements


 Note 23.           Earmarked Funds

                                                                                   2012
BALANCE SHEET
                                                             Medicare
As of September 30                        Military                              Other
                                                          Eligible Retiree
(Amounts in thousands)                   Retirement                           Earmarked         Eliminations       Total
                                                           Health Care
                                           Fund                                 Funds
                                                                Fund
ASSETS
Fund balance with Treasury               $            0       $          0     $     13,558      $             0   $ 13,558

Investments                                           0                  0            1,072                    0        1,072

Accounts and Interest Receivable                      0                  0                  1                  0            1

Other Assets                                          0                  0            5,042                    0      5,042
Total Assets                             $            0       $          0     $     19,672      $             0   $ 19,672


LIABILITIES and NET POSITION
Military Retirement Benefits and Other
Federal Employment Benefits              $            0       $          0     $            0    $             0   $        0

Other Liabilities                                     0                  0                202                  0           202
Total Liabilities                        $            0       $          0     $          202    $             0   $       202



Unexpended Appropriations                             0                  0                  0                  0            0

Cumulative Results of Operations                      0                  0           19,470                    9       19,479



Total Liabilities and Net Position       $            0       $          0     $     19,672      $             9   $ 19,681


STATEMENT OF NET COST
For the period ended September 30
(Amounts in thousands)
Program Costs                            $            0       $          0     $          443    $             0   $       443

Less Earned Revenue                                   0                  0           (4,837)                   0     ( 4,837)
Net Program Costs                        $            0       $          0     $     (4,394)     $             0   $ (4,394)
Less Earned Revenues Not Attributable to
Programs                                              0                  0                  0                  0            0

Net Cost of Operations                   $            0       $          0     $     (4,394)     $             0   $ (4,394)




                                                            73
        United States Air Force



                                                                         2012
STATEMENT OF CHANGES IN NET                          Medicare
POSITION                                Military                       Other
                                                  Eligible Retiree
For the period ended September 30      Retirement                    Earmarked        Eliminations           Total
                                                   Health Care
(Amounts in thousands)                   Fund                          Funds
                                                        Fund

Net Position Beginning of the Period   $         0    $          0   $    12,425 $                   0   $      12,425

Net Cost of Operations                           0               0        (4,394)                    0          (4,394)

Budgetary Financing Sources                      0               0         2,660                     0           2,660
Other Financing Sources                          0               0              (9)                  9               0

Change in Net Position                 $         0    $          0   $     7,045 $                   9   $       7,054


Net Position End of Period             $         0    $          0   $    19,470 $                   9   $      19,479




                                                      74
                                                                       Agency Financial Report                     2012
                                                                                                       General Fund
                                                                                    Notes to the Principal Statements


                                                                            2012

BALANCE SHEET
                                                       Medicare
As of September 30                        Military                        Other
                                                    Eligible Retiree
(Amounts in thousands)                   Retirement                     Earmarked       Eliminations           Total
                                                     Health Care
                                           Fund                           Funds
                                                          Fund


ASSETS

Fund balance with Treasury               $         0   $           0    $     13,681     $             0   $      13,681

Investments                                        0               0           1,077                   0           1,077

Accounts and Interest Receivable                   0               0                1                  0               1

Other Assets                                       0               0               5                   0               5
Total Assets                             $         0   $           0    $     14,764     $             0   $      14,764


LIABILITIES and NET POSITION
Military Retirement Benefits and Other
Federal Employment Benefits              $         0   $           0    $           0    $             0   $           0

Other Liabilities                                  0               0           2,339                   0           2,339
Total Liabilities                        $         0   $           0    $      2,339     $             0   $       2,339



Unexpended Appropriations                          0               0                0                  0               0

Cumulative Results of Operations                   0               0          12,425                   0          12,425



Total Liabilities and Net Position       $         0   $           0    $     14,764     $             0   $      14,764


STATEMENT OF NET COST
For the period ended September 30
(Amounts in thousands)
Program Costs                            $         0   $           0    $     12,001     $             0   $      12,001

Less Earned Revenue                                0               0           (216)                   0           ( 216)
Net Program Costs                        $         0   $           0    $     11,785     $             0   $      11,785
Less Earned Revenues Not Attributable to
Programs                                           0               0                0                  0               0

Net Cost of Operations                   $         0   $           0    $     11,785     $             0   $      11,785




                                                        75
        United States Air Force



                                                                                  2011
STATEMENT OF CHANGES IN NET                                Medicare
POSITION                                      Military                          Other
                                                        Eligible Retiree
For the period ended September 30            Retirement                       Earmarked       Eliminations         Total
                                                         Health Care
(Amounts in thousands)                         Fund                             Funds
                                                              Fund

Net Position Beginning of the Period          $         0 $               0 $       18,568 $                 0 $      18,568

Net Cost of Operations                                  0                 0         11,784                   0        11,784

Budgetary Financing Sources                             0                 0           5,641                  0         5,641
Other Financing Sources                                 0                 0               0                  0             0

Change in Net Position                        $         0 $               0 $       (6,143) $                0 $      (6,143)


Net Position End of Period                    $         0 $               0 $       12,425 $                 0 $      12,425


Relevant Information for Comprehension

Department of the Air Force General Gift Fund [10 USC 2601 (b)]

The Department of the Air Force General Gift Fund accepts, holds, and administers any gift, device, or bequest of real or
personal property, made on the condition that it is used for the benefit (or in connection with the establishment,
maintenance, or operation) of a school, hospital, library, museum, or cemetery under the Air Force’s jurisdiction. The fund
is available to such institutions or organizations subject to the terms of the gift, device, or bequest.

Conditional gifts are invested in U.S. Treasury securities, and any interest earned on these securities is accumulated in
the fund.

Wildlife Conservation Fund [16 USC 670 (a)]

The Wildlife Conservation Fund provides for (1) the conservation and rehabilitation of natural resources on military
installations, (2) the sustainable multipurpose use of the resources which include hunting, fishing, trapping, and
nonconsumptive uses, and (3) the public access to military installations to facilitate its use, subject to safety requirements
and military security. The fund is available to carry out these programs and other such expenses that may be necessary
for the purpose of the cited statute.

Consisting of both appropriated and nonappropriated funding, this fund gives installation commanders the authority to
collect fees from the sale of hunting and fishing permits.

Air Force Cadet Fund [37 USC 725 (s)]

The Air Force Cadet Fund is maintained for the benefit of Air Force Academy cadets. Disbursements are made for the
personal services of cadets such as laundry, arts, and athletics while collections are received from the same cadets at
least equal to any disbursements made.

The Air Force General Gift Fund and Wildlife Conservation Fund are trust funds. The Air Force Cadet Fund is classified as
a special fund. All three funds utilize receipt and expenditure accounts in accounting for and reporting the funds.




                                                              76
                                                                            Agency Financial Report                 2012
                                                                                                              General Fund
                                                                                           Notes to the Principal Statements


 Note 24.         Fiduciary Activities


 Schedule of Fiduciary Activity

 For the period ended September 30                                                                       2011
                                                                     2012
 (Amounts in thousands)

 1. Fiduciary net assets, beginning of year            $                         37,353     $                        30,624
 2. Fiduciary revenues                                                                0                                   0
 3. Contributions                                                                49,746                              53,933
 4. Investment earnings                                                           3,047                               3,434
 5. Gain (Loss) on disposition of investments, net                                    0                                   0
 6. Administrative and other expenses                                                 0                                   0
 7. Distributions to and on behalf of beneficiaries                            (57,629)                            (50,639)
 8. Increase/(Decrease) in fiduciary net assets        $                        (4,836)     $                         6,728

 9. Fiduciary net assets, end of period                $                         32,517     $                       30,352



 Schedule of Fiduciary Net Assets

 For the period ended September 30
                                                                     2012                                2011
 (Amounts in thousands)
 FIDUCIARY ASSETS
 1. Cash and cash equivalents                          $                         32,517     $                       37,353
 2. Investments                                                                       0                                  0
 3. Other Assets                                                                      0                                  0

 FIDUCIARY LIABILITIES
 4. Less: LIABILITIES                                  $                               0    $                             0

 5. TOTAL FIDUCIARY NET ASSETS                         $                         32,517     $                       37,353


Relevant Information for Comprehension

A fiduciary relationship may exist anytime a Federal Government entity collects or receives, and holds or makes
disposition of assets in which a non-federal individual or entity has an ownership interest that the Federal Government
must uphold. The relationship is based on statute or other legal authority and the fiduciary activity must be in furtherance
of that relationship. The Air Force’s fiduciary activities primarily consist of the Savings Deposit Program (SDP). SDP was
established to provide members of the uniformed services serving in a designated combat zone the opportunity to build
their financial savings.




                                                             77
        United States Air Force



 Note 25.         Other Disclosures

                                                                         2012
 As of September 30
                                                                     Asset Category
                                Land and Buildings        Equipment                 Other                     Total
 (Amounts in thousands)

 1. ENTITY AS
    LESSEE-Operating
    Leases
  Future Payments Due
    Fiscal Year
        2012                                 59,045                      0                  15,745                     74,790
        2013                                 40,594                      0                  15,903                     56,497
        2014                                 39,053                      0                  16,062                     55,114
        2015                                 37,589                      0                  16,222                     53,811
        2016                                 24,614                      0                  16,384                     40,999
        After 5 Years                        22,738                      0                  16,125                     38,864

 Total Future Lease
   Payments Due             $              223,633 $                     0 $                96,441 $                  320,075


Relevant Information for Comprehension

Leases in the land and buildings category include costs for operating leased facilities for the active Air Force in the United
States and overseas. Land and Buildings consist mostly of housing facilities as well as other mission critical assets.

Leases in the other category are made up of commercial leases. Commercial leases are leases made by the Air Force
with the general public. These would include leases with dealerships, car rental companies, or any other such entity that
provides car leasing services.

 Note 26.         Restatements

Not applicable for 2012.




                                                              78
                          Agency Financial Report   2012



General Fund
Fiscal Year 2012
Required Supplementary
Stewardship Information




                     79
       United States Air Force


STEWARDSHIP INVESTMENTS

Stewardship investments are substantial investments made by DoD for the benefit of the nation, but are not
physical assets owned by DoD. Stewardship investments include expenses incurred for federally financed, but
not federally owned, physical property (Nonfederal Physical Property) and federally financed research and
development (Research and Development).

NONFEDERAL PHYSICAL PROPERTY

Nonfederal Physical Property investments are expenses included in calculating net cost incurred by the
reporting entity for the purchase, construction or major renovation of physical property owned by state and
local governments. The expenses include the costs identified for major additions, alterations and
replacements, purchases of major equipment, and purchases or improvements of other nonfederal assets. In
addition, Nonfederal Physical Property Investments include federally owned physical property transferred to
state and local governments.


                                  NONFEDERAL PHYSICAL PROPERTY
                                Yearly Investment in State and Local Governments
                                   For the Current and Four Preceding Fiscal Years
                                                      ($ in millions)
    Categories                                         FY 2012 FY 2011 FY 2010           FY 2009     FY 2008
    1. Transferred Assets:
        National Defense Mission Related                      0          0          0           0           0
    2. Funded Assets:
        National Defense Mission Related                 $ 7.6     $ 12.0     $ 11.5     $   19.6      $   2.8
    Totals                                               $ 7.6     $ 12.0     $ 11.5     $   19.6      $   2.8


The Air National Guard investments in Nonfederal Physical Property are strictly through the Military
Construction Cooperative Agreements (MCCAs). These agreements involve the transfer of money only and
allow joint participation with States, Counties, and Airport Authorities for construction or repair of airfield
pavements and facilities required to support the flying mission assigned at these civilian airfields.

Investment values included in this report are based on Nonfederal Physical Property outlays (expenditures).
Outlays are used because current DoD systems are unable to capture and summarize costs in accordance
with the Federal GAAP requirements.




                                                        80
                                                                      Agency Financial Report             2012
                                                                                                  General Fund
                                                                  Required Supplementary Stewardship Information

RESEARCH AND DEVELOPMENT

Research and Development investments are incurred in the search for new or refined knowledge and ideas,
for the application or use of such knowledge and ideas for the development of new or improved products and
processes with the expectation of maintaining or increasing national economic productive capacity or yielding
other future benefits.

                          INVESTMENTS IN RESEARCH AND DEVELOPMENT
                              Yearly Investment in Research and Development
                                For the Current and Four Preceding Fiscal Years
                                                   ($ in millions)
   Categories                                       FY 2012 FY 2011 FY 2010               FY 2009    FY 2008
   1. Basic Research                                 $ 494        $ 475 $ 473             $ 444      $ 401
   2. Applied Research                                  1,120      1,175      1,120         1,185      1,135
   3. Development:
       Advanced Technology Development                      598         546        598        709        665
       Advanced Component Development
         and Prototypes                                 1,179         1,981      1,179      2,283      2,336
       System Development and Demonstration             2,783         3,137      2,783      3,925      4,176
       Research, Development, Test and Evaluation
         Management Support                             1,270          1,440      1,270      1,480      1,521
       Operational Systems Development                 14,913         18,653     14,913     16,460     15,572
   Totals                                            $ 22,357       $ 27,407   $ 22,336   $ 26,486   $ 25,806

RESEARCH AND DEVELOPMENT

Research and Development investments are incurred in the search for new or refined knowledge and ideas,
for the application or use of such knowledge and ideas for the development of new or improved products and
processes with the expectation of maintaining or increasing national economic productive capacity or yielding
other future benefits.

Basic Research is the systematic study to gain knowledge or understanding of the fundamental aspects of
phenomena and of observable facts without specific applications, processes, or products in mind. Basic
Research involves the gathering of a fuller knowledge or understanding of the subject under study. Major
outputs are scientific studies and research papers.

Applied Research is the systematic study to gain knowledge or understanding necessary for determining the
means by which a recognized and specific need may be met. It is the practical application of such knowledge
or understanding for the purpose of meeting a recognized need. This research points toward specific military
needs with a view toward developing and evaluating the feasibility and practicality of proposed solutions and
determining their parameters. Major outputs are scientific studies, investigations, research papers, hardware
components, software codes, and limited construction of, or part of, a weapon system, to include nonsystem
specific development efforts.

Development takes what has been discovered or learned from basic and applied research and uses it to
establish technological feasibility, assessment of operability, and production capability. Development is
comprised of the following five stages:

    1. Advanced Technology Development is the systematic uses of the knowledge or understanding gained
from research directed towards proof of technological visibility and assessment of operational and productivity
rather than the development of hardware for service use. Employs demonstration activities intended to prove
or test a technology or method.

                                                       81
        United States Air Force



    2. Advanced Component Development and Prototypes evaluates integrated technologies in as realistic an
operating environment as possible to assess the performance or cost reduction potential of advanced
technology. Programs in this phase are generally system specific. Major outputs of Advanced Component
Development and Prototypes are hardware and software components, or complete weapon systems, ready for
operational and developmental testing and field use.

    3. System Development and Demonstration concludes the program or project and prepares it for
production. It consists primarily of preproduction efforts, such as logistics and repair studies. Major outputs
are weapon systems finalized for complete operational and developmental testing.

   4. Research, Development, Test and Evaluation Management Support is support for installations and
operations for general research and development use. This category includes costs associated with test
ranges, military construction maintenance support for laboratories, operations and maintenance of test aircraft
and ships, and studies and analyses in support of the R&D program.

   5. Operational Systems Development is concerned with development projects in support of programs or
upgrades still in engineering and manufacturing development, which have received approval for production, for
which production funds have been budgeted in subsequent fiscal years.

The following are representative program examples for each of the above major categories:

Basic Research

AFRL-funded researchers recently achieved several unique breakthroughs in atomic layer deposition, or ALD,
a method that puts down a layer of "paint" one-atom thick. The ALD method offers a tremendous range of
applications including coating aircraft canopies, particles and nano-particles; creating insulators in integrated
circuits; and controlling catalysts and sensors. The ALD application process also offers the revolutionary ability
to coat micro-electro-mechanical systems the size of a micron or smaller.

AFRL also funded research in laser light technology that will help the Military create new forms of metal that
may guide, attract, and repel liquids and cool small electronic devices. The research team discovered a way to
transform a shiny piece of metal into one that is pitch black, not by paint, but by using incredibly intense bursts
of laser light. The resulting black metal absorbs all radiation that shines upon it. With the creation of this black
metal, an entirely new class of material becomes available which may open up an entirely new horizon for
various applications. Additional research has centered on creating technology that may enable the Air Force to
create an additional kind of metal by using the femtosecond laser to alter the surface of metal and create
unique nano - and micro-scale structures.

Applied Research

The Real-time Active Imaging in 3-D at Extended Range (RAIDER) system is a turreted, 3-D imaging ladar
providing terrain mapping and high resolution imaging for combat identification. The system was completed,
integrated in the flight turret and successfully conducted multiple missions in support of the CLEAN SWEEP
program. RAIDER demonstrated high confidence identification of a wide variety of targets in diverse
backgrounds completing the CLEAN SWEEP integrated capability for wide area detection, identification and
prosecution of military vehicles.

Munitions scientists from the Air Force Research Laboratory (AFRL) and Lawrence Livermore National
Laboratory (LLNL) aggressively designed and tested an advanced warhead to provide precision lethality with
low collateral damage. AFRL’s 5-month Precision Lethality Mk82 (PL82) Risk Reduction program accelerated
Technology Readiness Level (TRL) growth from 5 to 6 through successful warhead blast and target

                                                        82
                                                                      Agency Financial Report               2012
                                                                                                 General Fund
                                                                 Required Supplementary Stewardship Information

penetration demonstrations. This quickly provided the technical maturity needed for immediate transition to the
BLU-129/B Quick Reaction Capability (QRC) program at the Air Armament Center (AAC), Eglin Air Force
Base, Florida, and has been designated as the BLU-129/B warhead.

Advanced Technology Development

The Counter-Electronics High Power Microwave Advanced Missile Project (CHAMP) successfully executed the
pointing demonstration during a flight test recently at the Utah Test and Training Range. A major milestone,
the test demonstrated the navigational and pointing accuracy of CHAMP's aerial platform and integrated high
power microwave (HPM) beam, which can disrupt or damage targeted electronic circuits and components, as
well as its ability to correctly trigger the payload with great timing accuracy. CHAMP provides the warfighter a
non-lethal, low collateral damage capability against targets and helps keep post-conflict reconstruction costs to
a minimum.

Gotcha Radar Exploitation Program (GREP) Data Collect Demonstration: The main goal of the Gotcha Radar
Exploitation Program (GREP) data collect demonstration that took place on 26 and 29 September 2011 was to
generate real-time (1 second to generate a frame of each of the following) video synthetic aperture radar
(SAR), coherent change detection (CCD), and non-coherent change detection (NCD) on a 1.25 km by 1.25 km
spot at 1/3 m resolution. This goal was accomplished. It was also possible to generate real time (1 frame per
second) video SAR on a 4 km by 4 km spot at 1/3 m resolution and display this video on a touchscreen
display. By drawing a box on the screen it was possible (within 30-45 seconds) to do a three dimensional
reconstruction using all of the available data up to that point in the demonstration (i.e., all 360 degrees or less).
Data transmission from the radar to the Desch supercomputer was accomplished by using the AOptix (optical)
datalink. All of this data was kept so further analysis could be done in the future. This system provides a step
to the capability to use real-time SAR video to look at change detection and two and three dimensional imaging
which could be very useful to the warfighter. Furthermore, by keeping the data, forensic analysis can be done
if an incident happens and it is necessary to ascertain what, or who, caused the incident.

Demonstration and Validation (Advanced Component Development and Prototypes):

The Air Force’s Advanced Component Development and Prototypes programs are comprised of system
specific advanced technology integration efforts accomplished in an operational environment to help expedite
transition from the effort. In FY 2004, the Air Force successfully demonstrated Fighter Aircraft Command and
Control Enhancement (FACE). FACE provides an improved, beyond-line-of-sight (BLOS) command and
control link with fighter aircraft by integrating Iridium telephone communications equipment with existing aircraft
communications equipment. BLOS capability has traditionally been provided by low-density, high-demand
airborne platforms acting as communications relays. FACE provides relief for these overworked assets, while
allowing combatant commanders to maintain positive control of the battle space. FACE has been approved for
deployment to Afghanistan through the Air Force's Rapid Response Process, and has the potential for
extensive use in virtually any area of responsibility, including Homeland Defense.

System Development and Demonstration:

The F-35 Joint Strike Fighter (JSF) program is developing a family of strike fighter aircraft for the Air Force,
Navy, Marine Corps and our allies, with maximum commonality among the variants to minimize life cycle costs.
The F-35A Conventional Takeoff and Landing (CTOL) variant will be a multi-role, primary air-to-ground aircraft
to replace the F-16 and A-10, and complement the F-22. While the F-22 will establish air dominance, the F-35
with its combination of stealth, large internal payloads and multi-spectral avionics will provide persistent stealth
and precision engagement to future battle space. The F-35 is in the 11th year of a 17-year Engineering and
Manufacturing Development (EMD) effort. The President’s Budget for FY 2012 decreased procurement by 124
aircraft in order to reduce the impacts of concurrent development and production. Significant program
accomplishments in FY 2012 include:


                                                         83
       United States Air Force



               19 of 20 flight and ground test aircraft have been produced and delivered
               Milestone B was approved on March 28, 2012. The original Milestone B, approved in October
                2001, was rescinded in June 2010 due to a critical Nunn McCurdy breach.
               Nine production CTOLs and ten production Short Takeoff and Vertical Landing (STOVL)
                aircraft have been delivered to Eglin AFB to form the beginning of the training fleet
               Local area operations at Eglin AFB commenced for the CTOL on March 6, 2012 and for the
                STOVL on May 22, 2012. Over 300 sorties have been flown as of September 30, 2012.
               Low Rate Initial Production (LRIP) Lot 5 airframe and engine contracts were initiated via
                Undefinitized Contract Actions (UCAs) in December 2011. Negotiations for full contract award
                are ongoing.
               The CTOL test variants have accomplished the first night flight, first night aerial refueling, and
                first flight with external weapons
               The first airborne weapon separation test occurred on August 8, 2012. A STOVL variant,
                traveling at 400 knots at an altitude of 4,200 feet, released a 1,000 lb GBU-32 Joint Direct
                Attack Munition (JDAM).

The Advanced Extremely High Frequency (AEHF) System is a joint service satellite communications system
that will provide survivable, global, secure, protected, and jam-resistant communications for high-priority
military ground, sea and air assets. AEHF will allow the National Security Council and Unified Combatant
Commanders to control their tactical and strategic forces at all levels of conflict through general nuclear war
and supports the attainment of information superiority. The AEHF System is the follow-on to the Milstar
system, augmenting and improving on the capabilities of Milstar, and expanding the MILSATCOM
architecture.

FY 2012 marked the beginning of operational capability for the constellation. The first satellite, AEHF-1, was
launched in August 2010 from Cape Canaveral Air Force Station, Florida. Shortly after launch, an anomaly in
the spacecraft's bi-propellant propulsion system (the Liquid Apogee Engine) disrupted its flight. A team of
military and civilian engineers devised a sophisticated orbit-raising plan utilizing hydrazine thrusters and Hall
Current Thrusters to safely deliver the vehicle to its intended orbit 14 months later. The satellite was
transferred to operations in March 2012 without diminishing its designed mission life. AEHF-2 was
successfully launched on May 4, 2012 and is expected to complete on-orbit testing in FY 2013.

Research, Development, Test and Evaluation Management Support:

The Air Force’s Research, Development, Test and Evaluation (RDT&E) Management Support efforts include
projects directed toward support of installations and operations required for testing at the Air Force Major
Range and Test Facility Base (MRTFB) Activities.

In FY2012 multiple EW improvement efforts were on going. Per the Air Force Electronic Warfare Evaluation
Simulator (AFEWES) transition plan, IR threat simulator hardware and RF threat simulator hardware was
moved from the AFEWES facility to the Guided Weapons Evaluation Facility (GWEF) and 412 EWG-OL_HN at
Edwards AFB and capability reconstitution planning was initiated. Digital Integrated Air Defense System
(DIADS) developed and validated upgrades to simulate evolving threats in support of F-22 and MALD-J. The
Advanced Warfare Test and Evaluation Capability (AWTEC) continued Benefield Anechoic Chamber (BAF)
upgrades by completing EMI/EMC power upgrades and fielding new products for improved test management
and new real-time displays and controls. The National Radar Cross Section Test Facility (NRTF) at Holloman
AFB continued efforts to enhance efficiency operations and accuracy for measuring Radar Cross Section
(RCS) of low observable platforms and antennas, including design and fabrication of a new operational control
center and adaptive signal processing and antenna development.




                                                        84
                                                                      Agency Financial Report               2012
                                                                                                 General Fund
                                                                 Required Supplementary Stewardship Information

Other significant improvement and modernization efforts at the AF test facilities in 2012 were focused on
Airframe, Propulsion, and Avionics (APA) or Armament/Munitions (A/M). The Advanced Range Systems
Upgrade (ARSU) fielded critical infrastructure upgrades to the operational control center, digital handling
systems, and data display and analysis systems at the 412TW range at Edwards AFB to manage
obsolescence. The Von Karmen Facility (VFK) plant modernization project completed additional rewinds and
control room modifications improving efficiency, performance, reliability, and maintainability of the VKF
compressor facility that supplies high pressure air to all AEDC test cells. Lastly, the Advanced Command
Destruct System (ACDS) project completed procurement and continued integration efforts to upgrade the
command destruct systems supporting test missions at Eglin AFB and Edwards AFB. The Next Generation
Munitions Test Environment (NGMTE) project began design, development, and procurement efforts to upgrade
aging guns and munitions test capabilities to support advent of modern, smarter weapon systems requiring
more precise data.

Operational Systems Development:

The Air Force’s operational system efforts include projects in support of development acquisition programs or
upgrades. The F-22 Raptor program concluded assembly and delivery of all 178 operational fleet aircraft in
May of 2012. As outstanding a capability the Raptor currently provides, the program will continue to maintain
its role as enabler of joint air dominance for years to come through a series of Operational Systems
Development activities. Increment 2 is resident in delivered aircraft and represents the first upgrade over initial
operational capability. The modernization program will enhance the air vehicle, engine, and training systems
to improve F-22A weapons, communications, and Intelligence Surveillance Reconnaissance (ISR) capabilities
to further enhance Global Strike capabilities. FY 2012 activities included the initial fielding of the Increment 3.1
suite and the Critical Design review in February 2012 of Increment 3.2A, a software only upgrade to
significantly improve electronic protection and combat identification capabilities of the F-22. In addition, the
Increment 3.2B Preliminary Design Review was completed in June 2012 and this upgrade will dramatically
improve the F-22A Raptor’s Air-to-Air and Air-to-Ground attack capabilities with AIM-9X, AIM-120D, improved
geolocation capabilities and electronic protection enhancements.

Shrinking force structure, increased tasking, evolving threats, and collateral damage avoidance will drive a
demand for a precision strike capability with a mission planned datalink equipped weapon. SDB II will provide
strike aircraft with a capability to attack stationary and mobile targets through the weather with standoff
capability while retaining miniature munition type weapon attributes (effective day/night, adverse weather,
increased load-out, focused logistics, etc.) plus the capability to attack a range of stationary targets across the
combat arena. The 42-month Risk Reduction competition between two contractors that commenced in May
2006 to mature critical technologies for an all-up-round design completed in October 2009. Following the Risk
Reduction Phase, a single contractor was selected to complete an approximately 59 month EMD contract with
production options. The Milestone B review occurred 27 Jul 2010, with Critical Design Review taking place the
first half of FY11. Production for SDB II is scheduled to start FY 2014 and continue through FY2023. Required
Assets Available on the F-15E is planned for FY2016.

Reaper (MQ-9) UAV Program

Completed Block 30 Ground Control Station (GCS) development that provides new STORM cockpit with touch
screen interfaces, adjustable rudder pedals, ergonomic seat, improved High Definition displays, and Human
Machine Interface (HMI) improvements for safety of flight. Fielding begins in FY12. The MQ-9 Reaper UAV
program is continuing development of the capability to instantaneously derive and disseminate JDAM-quality
coordinates from the aimpoint of its electro-optical/infra-red (EO/IR) full motion video sensor. Sensor
improvements include development of a precise attitude reference system coupled with an off-the-shelf two
color eye-safe laser rangefinder/designator plus development of an accurately timed metadata system. Aircraft
will be modified with a new guidance system incorporating differential GPS. Fielding is scheduled to begin in



                                                         85
       United States Air Force


FY13. Follow-on development will provide a capability for instantaneous JDAM-quality data for all pixels within
the EO/IR image.

Global Hawk (RQ-4) Test program

The Global Hawk program completed Block 30 Force Development Evaluation (FDE) test in 2nd quarter FY
2012. The program completed developmental and operational testing of Airborne Signals Intelligence Payload
(ASIP) 2.0.3.1. ASIP software updates to enable operational imagery intelligence missions at forward
operating locations.


Seven Block 40 aircraft have been delivered as of October 2012; the remaining four will be delivered in FY13-
14. . . In July 2012, Block 40 completed AN/ZPY-2 Radar System Level Performance Verification (RSLPV),
meeting all Capabilities Production Document (CPD) requirements. In September 2012, the first flight testing
with sensor software KD2.2 started. AN/ZPY-2 sensor performance baseline flight tests with KD2.2
configuration will be conducted in Oct-Dec of 2012.

In support of JUON 336, the Battlefield Airborne Communications Node (BACN) development and flight testing
was completed in 2011 and two BACN-equipped Global Hawks were deployed to CENTCOM.

Airborne Warning and Control System (AWACS)

The Airborne Warning and Control System (AWACS) aircraft continues to modernize its mission capabilities to
remain an effective airborne battle management and surveillance system for command and control of combat
forces. The Block 40/45 Upgrade improves the quality and timeliness of sensor data for shooters, improves
combat identification, supports a common tactical picture through multi-sensor integration, improves the
AWACS contribution to Time Critical Targeting via Data Link Infrastructure, improves electronic support
measures processing, and enables more effective, faster upgrades via an open system, Ethernet-based
architecture. FY12 RDT&E activities for Block 40/45 included the development of maintenance and crew
training systems, as well as development of a Secure Iridium Communication capability. The Next Generation
Identification Friend or Foe (NGIFF) effort provides AWACS with a secure Mode 5 capability. NGIFF
completed Milestone C and awarded a production contract for the Block 30/35 NGIFF in 2012. The Block
40/45 NGIFF variant continued software development and Mode S. The AWACS program continued EMD for
the Diminishing Manufacturing Sources (DMS) Replacement of Avionics for Global Operations and Navigation
(DRAGON) modification and completed a system preliminary design review. DRAGON’s EMD effort is a
cooperative development effort with the NATO AWACS program, which will provide aircraft that satisfy
international airspace and air traffic control mandates. The Phase 1 Flight Performance Software was fielded,
automating aircrew calculations for Take Off and Landings. The AWACS program is also continuing risk
reduction efforts on multiple fronts to satisfy the high bandwidth and Beyond Line of Sight (BLOS)
requirements of the battle space. These efforts will assure that AWACS remains a relevant combat partner on
the joint battlefield.

B-2 EHF SATCOM and Computer, Increment 1

The B-2 EHF Increment 1 program replaces the aircraft flight management computers, upgrades and expands
digital storage and installs fiber optic buses. The EHF Increment 1 effort is the foundation for all subsequent B-
2 avionics upgrades to include updated stores management software for additional mission flexibility and an
upgrade to the Defensive Management System to address emerging / proliferating electronic threats to ensure
the B-2’s continued ability to penetrate adversary defenses in AA/AD environments. The program completed a
successful initial operational test and evaluation (IOT&E) in June 2012, with Director, Operational Test and
Evaluation (DOT&E) expected to submit the Beyond LRIP report (BLRIP) later this year. The program earned



                                                        86
                                                                   Agency Financial Report              2012
                                                                                              General Fund
                                                              Required Supplementary Stewardship Information

approval for low rate initial production in November 2011 and signed a production contract for five systems in
September 2012.


B-2 Defensive Management System Modernization (DMS-M)

In Fiscal Year 2012 the Air Force continued technology development for the DMS-M program. DMS-M
modernizes the original defensive management system to address emerging / proliferating electronic threats,
ensuring the B-2 Spirit’s continued ability to penetrate adversary defenses in AA/AD environments. DMS-M
replaces the electronic support measures (ESM), the avionics graphics processor (AGP) and develops new
antennas to expand the frequency coverage and capabilities of the B-2 defensive system. The prime contractor
for the effort, Northrop-Grumman Aerospace Systems (NGAS), completed a source selection for the ESM in
November 2010, awarding a supplier contract to BAE Nashua in October 2011. Northrop-Grumman completed
source selection for the avionics graphics processor sub vendor in March 2012, awarding a supplier contract to
Lockheed-Martin Owego in April 2012. The competition for the antenna subsystem is underway, with a supplier
down select anticipated in early CY-2013 after competing antenna prototypes are evaluated. Technology
development includes rapid acquisition initiatives (RAI) intended to accelerate the overall program and reduce
costs. A successful technology development phase will culminate in entry into engineering and manufacturing
development in 2014.




                                                       87
United States Air Force




          THIS PAGE INTENTIONALLY LEFT BLANK.




                           88
                          Agency Financial Report        2012
                                                   General Fund
                               Required Supplementary Information


General Fund
Fiscal Year 2012
Required Supplementary Information




                     89
         United States Air Force

                                                        Department of Defense
                                                      Department of the Air Force
                                      STATEMENT OF DISAGGREGATED BUDGETARY RESOURCES
                                          For the periods ended September 30, 2012 and 2011
                                                           ($ in Thousands)

                                                                   Research, Development,       Procurement       Military Personnel
                                                                      Test & Evaluation
BUDGETARY RESOURCES:
Unobligated balance brought forward, Oct. 1                        $              5,988,752      26,888,580                 290,384
    Unobligated balance brought forward, Oct. 1,                                  5,988,752      26,888,580                 290,384
    as adjusted
Recoveries of prior year unpaid obligations                                        626,084          801,673                825,639
Other changes in unobligated balance (+ or -)                                     (132,673)        (213,951)              (457,234)
Unobligated balance from prior year budget authority                             6,482,163       27,476,302                658,789
Appropriations (discretionary and mandatory)                                    26,372,749       40,492,337             36,623,898
Spending Authority from offsetting collections                                   3,219,867          632,379                470,798
(discretionary and mandatory)
Total Budgetary Resources                                          $             36,074,779       68,601,018            37,753,485


Obligations Incurred                                                             31,037,871       45,674,457            37,118,973
Unobligated balance, end of year
   Apportioned                                                                   4,597,627        21,431,020               184,375
   Exempt from Apportionment                                                             0                 0                     0
   Unapportioned                                                                   439,281         1,495,542               450,138
Total unobligated balance, end of year                                           5,036,908        22,926,562               634,513
Total Budgetary Resources                                          $            36,074,779        68,601,019            37,753,486

Change in Obligated Balance:
Unpaid obligations, brought forward, October 1 (gross)                           11,525,163       31,026,233             1,995,442
Uncollected customer payments from Federal sources,                               (423,182)           19,500              (101,194)
brought forward, October 1 (-)
Obligated balance start of year (net), before adjustments (+or-)                  11,101,981      31,045,733             1,894,248
Obligated balance, start of year (net), as adjusted                               11,101,981      31,045,733             1,894,248
Obligated incurred                                                                31,037,871      45,674,457            37,118,973
Outlays (gross) (-)                                                             (27,984,332)     (40,080,867)          (35,528,019)
Change in uncollected customer payments from                                       (266,513)         (63,259)                39,150
Federal Sources (+ or -)
Recoveries of prior year unpaid obligations (-)                                   (626,084)         (801,673)             (825,639)
Obligated balance, end of year
   Unpaid Obligations, end of year (gross)                                       13,952,619        35,818,150            2,760,757
   Uncollected customer payments from Federal sources,
   end of year (-)                                                                 (689,696)         (43,759)              (62,044)
Obligated balance, end of year                                         $          13,262,923       35,774,391             2,698,713

Budget Authority and Outlays, Net:
Budget authority, gross (discretionary and mandatory)                            29,592,616        41,124,716            37,094,696
Actual offering collections (discretionary and mandatory) (-)                    (2,953,353)        (569,120)             (509,948)
Change in uncollected customer payments from Federal
Sources (discretionary and mandatory) (+ or -)                                      (266,513)          (63,259)              39,150
Budget Authority, net (discretionary and mandatory)                    $          26,372,750        40,492,337           36,623,898
Outlays, gross (discretionary and mandatory)                                      27,984,332        40,080,867           35,528,019
Actual offsetting collections (discretionary and mandatory) (-)                   (2,953,353)         (569,120)           (509,948)
Outlays, net (discretionary and mandatory)                                        25,030,979        39,511,747           35,018,071
Distributed offsetting receipts (-)                                                         0                 0                   0
Agency Outlays, net (discretionary and mandatory)                      $           25,030,979       39,511,747           35,018,071




                                                                           90
                                                                      Agency Financial Report               2012
                                                                                                     General Fund
                                                                                 Required Supplementary Information




Family Housing & Military     Operations, Readiness &         2012 Combined            2011 Combined
    Construction                      Support

                2,322,596                  2,516,709             38,007,021                36,090,271
                2,322,596                  2,516,709             38,007,021                36,090,271

                   81,554                  3,116,752               5,451,702                  4,488,152
                   (6,355)                 (626,245)             (1,436,459)                (1,513,515)
                2,397,795                  5,007,216             42,022,264                  39,064,908
                1,369,787                 58,034,183            162,892,954                166,644,250
                   15,811                  6,075,556             10,414,411                   9,925,864

         $      3,783,393                 69,116,955             215,329,629               215,635,022

                1,954,802                 66,464,990             182,251,093               177,628,001

                1,676,355                    252,881              28,142,256                33,990,184
                        0                     11,493                  11,493                    11,170
                  152,236                  2,387,591               4,924,787                 4,005,667
                1,828,591                  2,651,965              33,078,536                38,007,021
                3,783,393                 69,116,955             215,329,629               215,635,022


                2,842,271                 27,312,359               74,701,468               74,007,637
                    2,450                 (2,530,064)             (3,032,491)               (2,968,685)

                2,844,721                  24,782,295             71,668,977                71,038,952
                2,844,721                  24,782,295              71,668,977               71,038,952
                1,954,802                  66,464,990            182,251,093                177,628,001
               (1,913,249)               (64,983,196)           (170,489,664)             (172,446,017)
                   (2,450)                  1,151,830                 858,758                   (63,806)

                  (81,554)                (3,116,752)             (5,451,701)               (4,488,153)

                2,802,270                 25,677,400               81,011,196               74,701,468

                        0                 (1,378,234)             (2,173,733)               (3,032,491)
                2,802,270                  24,299,167              78,837,463               71,668,977


                1,385,598                  64,109,739             173,307,365               176,570,114
                  (13,362)                 (7,227,386)            (11,273,169)               (9,862,060)

                    (2,450)                 1,151,830                 858,758                    (63,806)
                1,369,786                  58,034,183             162,892,954               166,644,248
                1,913,249                  64,983,196             170,489,664               172,446,017
                  (13,362)                 (7,227,386)            (11,273,169)                (9,862,060)
                1,899,887                  57,755,810             159,216,495               162,583,957
                         0                   (177,075)               (177,075)                  (154,152)
                1,899,887                   57,578,735            159,039,420                162,429,805




                                                         91
       United States Air Force



DISAGGREGATED STATEMENT OF BUDGETARY RESOURCES

The Air Force has performance measures based on missions and outputs. The Air Force is unable to
accumulate costs for major programs based on those performance measures because its financial processes
and systems were not designed to collect and report this type of cost information. Until the processes and
systems are upgraded, the Air Force will break out programs by major appropriation groupings.

STEWARDSHIP PLANT, PROPERTY, AND EQUIPMENT (PP&E)

                                          HERITAGE ASSETS
                               For Fiscal Year Ended September 30, 2012
                                      Measurement        As of                                  As of
     Heritage Asset Categories                                       Additions Deletions
                                        Quantity        9/30/11                                9/30/12
   Buildings and Structures                Each              8,576        187       1,235          7,154
   Archaeological Sites                    Sites             2,414        235           0          2,649
   Museum Collection Items
   (Objects, Not Including Fine
   Art)                                    Each         129,609         4,775         195        134,189
   Museum Collection Items (Fine
   Art)                                    Each          11,139         1,441            0        12,580

Heritage Assets are items of historical, natural, cultural, educational, or artistic significance (e.g.,
aesthetic), or items with significant architectural characteristics.

1. Buildings and Structures

Buildings and Structures that are listed on, or eligible for, listing on the National Register of Historic Places
(NRHP), including multi-use facilities, are Heritage Assets. These buildings and structures are maintained in
accordance with the National Historic Preservation Act (NHPA), and “The Secretary of Interior’s Standards for
The Treatment of Historic Properties” by each base’s civil engineering group, as part of their overall
responsibility. The Air Force reported 7,154 buildings and structures on Air Force installations and sites to be
Heritage Assets as of Sep 2012. Installation Cultural Resource Manager (CRMs) reported that 187 Heritage
Assets were added to the AF inventory in FY12, and that 1,235 were deleted. Those deleted comprise
Heritage Assets covered by the 2008 Capehart-Wherry Era Housing, and the 2010 Cold War Era Ammunition
Storage Facilities, and Cold War Era Unaccompanied Housing nation-wide programmatic agreements that
completed NHPA Section 106 review for these abundant facilities. The 187 increase in Heritage Asset
buildings and structures reflects the ongoing annual NHPA responsibility of Air Force to survey and evaluate
the National Register of Historic Property (NRHP) eligibility of buildings and structures as they approach 50
years of age. The number of Heritage Asset buildings and structures is nearly 7% of the total built inventory,
which equals 105,627 buildings and structures owned or controlled by the Air Force.

Heritage Asset buildings and structures are maintained by each base civil engineering group and are
considered to be in good condition. These buildings and structures are subject to NHPA, Section 106 review
and consultation requirements whenever Air Force undertakings might affect their historic characteristics.
Section 106 reviews ensure State Historic Preservation Officers, tribal leaders, and other party concerns are
taken into account when Air Force decides to adversely affect Heritage Asset buildings and structures.




                                                        92
                                                                     Agency Financial Report               2012
                                                                                                 General Fund
                                                                             Required Supplementary Information



2. Archaeological Sites

Prehistoric and historic archaeological sites that have been identified, evaluated, and determined to be eligible
for or are listed on the National Register of Historic Places in accordance with NHPA Section 110. The Air
Force reports 2,649 archeological sites on or eligible for listing on the National Register as of Sep 2012, up 235
from the 2,414 reported for FY2011. This cohort of archaeological Heritage Assets is a subset of over 19,000
archaeological sites recorded on Air Force controlled and owned lands in the USA and its Territories.

3. Museum Collection Items, Objects

This represents the number of objects which meet the criteria for historical property as defined in Air Force
Instruction 84-103 and that have been evaluated, accessioned, and catalogued in the Air Force national
historical collection. The National Museum of the United States Air Force (NMUSAF) performs inherently
governmental functions by fulfilling statutory requirements delegated by the Secretary of the Air Force for
management of the Air Force’s national historic collection. The NMUSAF is fully accredited by the American
Association of Museums.

During the period 1 October 2011 – 30 September 2012 there have been 4,775 objects added to the
collection. These additions are a result of private donations, transfers from Air Force or other federal entities,
curatorial administrative actions, and the continued documentation of newly reported artifacts at Air Force
activities worldwide. 195 objects were deaccessioned from the collection as having been determined not to
meet historic property criteria, were in poor condition, or were transferred to other federal historical activities.
As part of the NMUSAF’s active collection management process, the accession and deaccession of objects is
continuous.

The overall condition of the historic collection, which is primarily located at the NMUSAF, is very good as a
result of both the professional care from trained conservators and ever improving exhibit/storage conditions.
During FY2012 detailed restoration work continued on the B-17F “Memphis Belle” and the Douglas A-1H
“Skyraider”.

Museum Collection Items, Fine Art

The art collection contains original oils, drawing, sketches and sculptures. These paintings were in direct result
of the artists visiting bases and operations throughout the Air Force. This represents 86 additions from the Air
Force Art Program and 1,355 pieces of fine art from the National Museum of the United States Air Force for
this FY. Included in the number above are fine art paintings inclusive of the National Museum of the United
States Air Force holding.

The collection is maintained and kept in good condition. Each year during the annual inventory, Air Force Art
requests the condition of the paintings as well. Maintenance continues to be a constant.




                                                        93
       United States Air Force




Stewardship Land

                                       STEWARDSHIP LAND
                             For Fiscal Year Ended September 30, 2012
                                        (Acres in Thousands)
   Facility                                        As of                                   As of
                      Facility Title                         Additions Deletions
    Code                                          9/30/11                                 9/30/12
   9110        Government Owned Land                 1,570              0             4      1,566
   9111        State Owned Land                           0             0             0           0
   9120        Withdrawn Public land                 7,660              0         1,380      6,280
   9130        Licensed and Permitted Land             248           461              0        709
   9140        Public Land                                0             0             0           0
   9210        Land Easement                           160              0             0        160
   9220        In-leased Land                            93            10             0        103
   9230        Foreign Land                            296              0             0        296
                                                                          Grand Total        9,114
                                                                      Total - All Lands
                                                           Total - Stewardship Lands

Stewardship Land represents land rights owned by the Federal Government but not acquired for, or in
connection with, items of General Property, Plant, and Equipment (PP&E). “Acquired for or in connection with”
is defined as including land acquired with the intent to construct general PP&E and land acquired in
combination with general PP&E. Without exception, all land provided to the Air Force from the public domain,
or at no cost, shall be classified as Stewardship Land, regardless of its use.

The Air Force has 9,114,013 acres of mission-essential Stewardship Land under its administration. Land
purchased by the Air Force with the intent to construct buildings or facilities is considered PP&E and is
reported on the balance sheet. All stewardship land, as reported, is in acceptable condition, based on
designated use.




                                                       94
                                                                     Agency Financial Report            2012
                                                                                                General Fund
                                                                            Required Supplementary Information

 REAL PROPERTY DEFERRED MAINTENANCE

                                        Real Property Deferred Maintenance
                                      For Fiscal Year Ended September 30, 2012
                                                    ($ in Millions)
                                      Plant Replacement           Required Work
             Property Type                   Value            (Deferred Maintenance)       Percentage
      Category 1: Buildings,
      Structures, and Utilities
      (Enduring Facilities)                      $211,521                   $23,293           11%
      Category 2: Buildings,
      Structures, and Utilities
      (Excess Facilities or Planned
      for Replacement)
                                                  $11,235                      $196           1.7%
      Category 3: Buildings,
      Structures, and Utilities
      (Heritage Assets)                             $9,362                    $1,567         16.7%


The figures in column 1 were calculated based off of an estimate of the current aggregate PRV of all facilities
(buildings, structures, and utilities) in the Air Force Real Property inventory of which the DoD has ownership
interest broken down by enduring, excess, and heritage. The deferred maintenance figures in column 2 consist
of the current known maintenance and repair requirements needed to correct facility deficiencies in our
inventory.

Ownership interest is defined as those assets that USAF holds title to, as opposed to those assets owned by
foreign governments, leased facilities, out-grants, or other federal and non-federal entities.




                                                        95
       United States Air Force



                                     Military Equipment Deferred Maintenance
                                     For Fiscal Year Ended September 30, 2012
                                              ($ in Thousands)
                                                                      OP30
    Major Categories                                                Amounts     Adjustments     Total
    1. Aircraft                                                     $ 1,234,879    $961,525     $273,354
    2. Automotive Equipment                                              46,958     (24,600)      71,558
    3. Combat Vehicles                                                        0            0           0
    4. Construction Equipment                                                 0            0           0
    5. Electronic and Communications Systems                            203,916     138,727       65,189
    6. Missiles                                                          32,015       26,680       5,335
    7. Ships                                                                  0            0           0
    8. Ordnance Weapons and Munitions                                    14,833        (450)      15,283
    9. General Purpose Equipment                                          9,872        9,242         630
    10. All Other Items Not Identified to Above Categories               26,336      (6,890)      33,226
    Total                                                           $ 1,568,809  $1,104,234     $464,575

The figures presented are projected deferred maintenance amounts for FY 2012 based on the original position
as reported in the FY2013 President’s Budget. FY2012 Overseas Contingency Operations (OCO)
supplemental funding is included in the Adjustments column, along with other adjustments for requirements
that did not generate or were otherwise reduced due to efficiencies realized or fact of life changes. Adjusted
totals do not include Deferred Funding for Contract Logistics Support (CLS) which contains deport
maintenance, but do include Deferred Funding for Depot Purchased Equipment Maintenance (DPEM).




                                                      96
                        Agency Financial Report   2012



General Fund
Fiscal Year 2012
Audit Opinion




                   97
United States Air Force




                          98
     Agency Financial Report 2012
                        General Fund
                        Audit Opinion




99
United States Air Force




                          100
      Agency Financial Report 2012
                         General Fund
                         Audit Opinion




101
United States Air Force




                          102
      Agency Financial Report 2012
                         General Fund
                         Audit Opinion




103
United States Air Force




                          104
      Agency Financial Report 2012
                         General Fund
                         Audit Opinion




105
United States Air Force




                          106
                                                            Agency Financial Report 2012



Working Capital Fund
Principal Statements
Fiscal Year 2012
The FY 2012 Department of the Air Force Working Capital Fund Principal Statements and
related notes are presented in the format prescribed by the Department of Defense Financial
Management Regulation 7000.14-R, Volume 6B. The statements and related notes summarize
financial information for individual activity groups and activities within the Working Capital
Fund for the fiscal year ending September 30, 2012, and are presented on a comparative basis
with information previously reported for the fiscal year ending September 30, 2011.
The following statements comprise the Department of the Air Force Working Capital Fund
Principal Statements:
Consolidated Balance Sheet
The Consolidated Balance Sheet presents as of September 30, 2012 and 2011 those resources
owned or managed by the Air Force which are available to provide future economic benefits
(assets); amounts owed by the Air Force that will require payments from those resources or
future resources (liabilities); and residual amounts retained by the Air Force, comprising the
difference (net position)

Consolidated Statement of Net Cost
The Consolidated Statement of Net Cost presents the net cost of the Air Force’s operations for
the years ended September 30, 2012 and 2011. The Air Force’s net cost of operations includes
the gross costs incurred by the Air Force less any exchange revenue earned from Air Force
activities.
Consolidated Statement of Changes in Net Position
The Consolidated Statement of Changes in Net Position presents the change in the Air Force’s
net position resulting from the net cost of Air Force’s operations, budgetary financing sources
other than exchange revenues, and other financing sources for the years ended September 30,
2012 and 2011.
Combined Statement of Budgetary Resources
The Combined Statement of Budgetary Resources presents the budgetary resources available to
the Air Force during FY 2012 and 2011, the status of these resources at September 30, 2012 and
2011, and the outlay of budgetary resources for the years ended September 30, 2012 and 2011.
The Principal Statements and related notes have been prepared to report financial position
pursuant to the requirements of the Chief Financial Officers Act of 1990, the Government
Management Reform Act of 1994, and the Office of Management and Budget’s Circular A-136,
“Financial Reporting Requirements.”




                                               107
        United States Air Force

                                                      Department of Defense
                                                 Air Force Working Capital Fund
                                                CONSOLIDATED BALANCE SHEET
                                                As of September 30, 2012 and 2011
                                                         ($ in Thousands)



                                                                      2012 Consolidated           2011 Consolidated

ASSETS (Note 2)
      Intragovernmental:
        Fund Balance with Treasury (Note 3)                       $                 556,537   $                670,929
        Accounts Receivable (Note 5)                                                778,172                    933,040
        Other Assets (Note 6)                                                       167,739                    111,126
        Total Intragovernmental Assets                            $              1,502,448    $              1,715,095


      Accounts Receivable,Net (Note 5)                                                4,792                      3,710
      Inventory and Related Property,Net (Note 9)                               26,099,598                  26,813,221
      General Property, Plant and Equipment,Net (Note 10)                        1,509,820                   1,458,929
      Other Assets (Note 6)                                                         239,991                    336,601
 TOTAL ASSETS                                                     $             29,356,649    $             30,327,556
STEWARDSHIP PROPERTY, PLANT & EQUIPMENT (Note 10)


 LIABILITIES (Note 11)
      Intragovernmental:
        Accounts Payable (Note 12)                                $                 180,355   $                226,029
        Other Liabilities (Note 15 & 16)                                             55,304                     55,730
        Total Intragovernmental Liabilities                       $                 235,659   $                281,759


      Accounts Payable (Note 12)                                  $                 577,905   $                694,713
      Military Retirement and Other Federal                                         217,518                    214,927
      Employment Benefits (Note 17)
      Other Liabilities (Note 15 and Note 16)                                       251,517                    239,258
 TOTAL LIABILITIES                                                $              1,282,599    $              1,430,657


COMMITMENTS AND CONTINGENCIES (NOTE 16)
 NET POSITION
     Unexpended Appropriations - Other Funds                                         20,380                     36,975
     Cumulative Results of Operations - Other Funds                             28,053,670                  28,859,924
 TOTAL NET POSITION                                               $             28,074,050    $             28,896,899


 TOTAL LIABILITIES AND NET POSITION                               $             29,356,649    $             30,327,556




                                                              108
                                                                           Agency Financial Report                 2012
                                                                                                  Working Capital Fund
                                                                                                   Principal Statements
                                                   Department of Defense
                                              Air Force Working Capital Fund
                                       CONSOLIDATED STATEMENT OF NET COST
                                    For the periods ended September 30, 2012 and 2011
                                                     ($ in Thousands)


                                                                           2012 Consolidated          2011 Consolidated


 Program Costs
       Gross Costs                                                     $            12,456,829    $            13,099,620
        Operations, Readiness & Support                                             12,456,829                 13,099,620




       (Less: Earned Revenue)                                                      (11,403,352)               (11,852,895)
      Net Cost before Losses/(Gains) from Actuarial Assumption                       1,053,477                  1,246,725
Changes
      for Military Retirement Benefits
       Net Program Costs Including Assumption Changes                                1,053,477                  1,246,725
 Net Cost of Operations                                                $             1,053,477    $             1,246,725




                                                                 109
         United States Air Force

                                                  Department of Defense
                                             Air Force Working Capital Fund
                               CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
                                   For the periods ended September 30, 2012 and 2011
                                                    ($ in Thousands)



                                                               2012 Earmarked Funds           2012 All Other Funds

CUMULATIVE RESULTS OF OPERATIONS
Beginning Balances                                         $                          0   $               28,859,924
Beginning balances, as adjusted                                                       0                   28,859,924
Budgetary Financing Sources:
  Appropriations used                                                                 0                       81,967
  Transfers-in/out without reimbursement                                              0                    (514,850)
Other Financing Sources:
  Transfers-in/out without reimbursement (+/-)                                        0                       34,967
  Imputed financing from costs absorbed by others                                     0                      180,027
  Other (+/-)                                                                         0                      465,112
Total Financing Sources                                                               0                      247,223
Net Cost of Operations (+/-)                                                          0                    1,053,477
Net Change                                                                            0                    (806,254)
Cumulative Results of Operations                                                      0                   28,053,670
UNEXPENDED APPROPRIATIONS
Beginning Balances                                         $                          0   $                   36,975
Beginning balances, as adjusted                                                       0                       36,975
Budgetary Financing Sources:
  Appropriations received                                                             0                       65,372
  Appropriations used                                                                 0                      (81,967)
Total Budgetary Financing Sources                                                     0                      (16,595)
Unexpended Appropriations                                                             0                       20,380
Net Position                                                                          0                   28,074,050




                                                        110
                                                                     Agency Financial Report              2012
                                                                                           Working Capital Fund
                                                                                            Principal Statements
                                                  Department of Defense
                                             Air Force Working Capital Fund
                               CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
                                   For the periods ended September 30, 2012 and 2011
                                                    ($ in Thousands)



                                                               2012 Eliminations            2012 Consolidated

CUMULATIVE RESULTS OF OPERATIONS
Beginning Balances                                         $                       0   $              28,859,924
Beginning balances, as adjusted                                                    0                  28,859,924
Budgetary Financing Sources:
  Appropriations used                                                              0                      81,967
  Transfers-in/out without reimbursement                                           0                    (514,850)
Other Financing Sources:
  Transfers-in/out without reimbursement (+/-)                                     0                      34,967
  Imputed financing from costs absorbed by others                                  0                     180,027
  Other (+/-)                                                                      0                     465,112
Total Financing Sources                                                            0                     247,223
Net Cost of Operations (+/-)                                                       0                   1,053,477
Net Change                                                                         0                    (806,254)
Cumulative Results of Operations                                                   0                  28,053,670
UNEXPENDED APPROPRIATIONS
Beginning Balances                                         $                       0   $                  36,975
Beginning balances, as adjusted                                                    0                      36,975
Budgetary Financing Sources:
  Appropriations received                                                          0                      65,372
  Appropriations used                                                              0                     (81,967)
Total Budgetary Financing Sources                                                  0                     (16,595)
Unexpended Appropriations                                                          0                      20,380
Net Position                                                                       0                  28,074,050




                                                        111
         United States Air Force

                                                  Department of Defense
                                             Air Force Working Capital Fund
                               CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
                                   For the periods ended September 30, 2012 and 2011
                                                    ($ in Thousands)



                                                               2011 Earmarked Funds           2011 All Other Funds

CUMULATIVE RESULTS OF OPERATIONS
Beginning Balances                                         $                          0   $               29,786,340
Beginning balances, as adjusted                                                       0                   29,786,340
Budgetary Financing Sources:
  Appropriations used                                                                 0                       54,059
  Transfers-in/out without reimbursement                                              0                              0
Other Financing Sources:
  Transfers-in/out without reimbursement (+/-)                                        0                      (10,561)
  Imputed financing from costs absorbed by others                                     0                      191,388
  Other (+/-)                                                                         0                       85,423
Total Financing Sources                                                               0                      320,309
Net Cost of Operations (+/-)                                                          0                    1,246,725
Net Change                                                                            0                    (926,416)
Cumulative Results of Operations                                                      0                   28,859,924
UNEXPENDED APPROPRIATIONS
Beginning Balances                                         $                          0   $                   24,173
Beginning balances, as adjusted                                                       0                       24,173
Budgetary Financing Sources:
  Appropriations received                                                             0                       66,861
  Appropriations used                                                                 0                      (54,059)
Total Budgetary Financing Sources                                                     0                       12,802
Unexpended Appropriations                                                             0                       36,975
Net Position                                                                          0                   28,896,899




                                                        112
                                                                    Agency Financial Report           2012
                                                                                       Working Capital Fund
                                                                                        Principal Statements
                                                  Department of Defense
                                             Air Force Working Capital Fund
                               CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
                                   For the periods ended September 30, 2012 and 2011
                                                    ($ in Thousands)



                                                              2011 Eliminations         2011 Consolidated

CUMULATIVE RESULTS OF OPERATIONS
Beginning Balances                                                                0               29,786,340
Beginning balances, as adjusted                                                   0               29,786,340
Budgetary Financing Sources:
  Appropriations used                                                             0                   54,059
  Transfers-in/out without reimbursement                                          0                         0
Other Financing Sources:
  Transfers-in/out without reimbursement (+/-)                                    0                  (10,561)
  Imputed financing from costs absorbed by others                                 0                  191,388
  Other (+/-)                                                                     0                   85,423
Total Financing Sources                                                           0                  320,309
Net Cost of Operations (+/-)                                                      0                1,246,725
Net Change                                                                        0                 (926,416)
Cumulative Results of Operations                                                  0               28,859,924
UNEXPENDED APPROPRIATIONS
Beginning Balances                                                                0                   24,173
Beginning balances, as adjusted                                                   0                   24,173
Budgetary Financing Sources:
  Appropriations received                                                         0                   66,861
  Appropriations used                                                             0                  (54,059)
Total Budgetary Financing Sources                                                 0                   12,802
Unexpended Appropriations                                                         0                   36,975
Net Position                                                                      0               28,896,899




                                                        113
         United States Air Force

                                                     Department of Defense
                                                Air Force Working Capital Fund
                                     COMBINED STATEMENT OF BUDGETARY RESOURCES
                                      For the periods ended September 30, 2012 and 2011
                                                       ($ in Thousands)



                                                                           2012 Combined             2011 Combined

Budgetary Resources:
Unobligated balance brought forward, Oct 1                                            555,328                   532,408
     Unobligated balance brought forward, Oct 1, as adjusted,          $              555,328    $              532,408
     as Adjusted
Recoveries of prior year unpaid obligations                                            38,915                   103,939
Other changes in unobligated balance (+ or -)                                       (553,765)                   (19,801)
Unobligated balance from prior year budget authority, net                              40,478                   616,546
Appropriations (discretionary and mandatory)                                                0                    66,861
Contract Authority (discretionary and mandatory)                                    7,559,690                 7,989,074
Spending Authority from offsetting collections                                      4,842,419                 4,258,403
Total Budgetary Resources                                                          12,442,587                12,930,884


Status of Budgetary Resources:
Obligations Incurred                                                               12,336,028                12,375,556
Unobligated balance, end of year
   Apportioned                                                                        106,559                   555,328
Total unobligated balance, end of year                                                106,559                   555,328
Total Budgetary Resources                                                          12,442,587                12,930,884


Change in Obligated Balance:
Unpaid obligations, brought forward, October 1 (gross)                              7,364,314                 7,824,540
Uncollected customer payments from Federal sources,                                (3,619,244)               (3,893,169)
brought forward, October 1 (-)
Obligated balance start of year (net), before adjustments (+ or -)                  3,745,070                 3,931,371
Obligated balance, start of year (net), as adjusted                                 3,745,070                 3,931,371
Obligations incurred                                                               12,336,028                12,375,556
Outlays (gross) (-)                                                               (12,601,195)              (12,731,843)
Change in uncollected customer payments from                                          505,811                   273,922
Federal Sources (+ or-)
Recoveries of prior year unpaid obligations (-)                                       (38,915)                (103,939)
Obligated balance, end of year
  Unpaid Obligations, end of year (gross)                                           7,060,232                 7,364,314
  Uncollected customer payments from Federal sources, end of                       (3,113,433)               (3,619,247)
Obligated balance, end of year                                                      3,946,799                 3,745,067




                                                                     114
                                                                            Agency Financial Report         2012
                                                                                              Working Capital Fund
                                                                                               Principal Statements
                                                     Department of Defense
                                                Air Force Working Capital Fund
                                     COMBINED STATEMENT OF BUDGETARY RESOURCES
                                      For the periods ended September 30, 2012 and 2011
                                                       ($ in Thousands)




                                                                        2012 Combined            2011 Combined

Budget Authority and Outlays, Net:
Budget authority, gross (discretionary and mandatory)                           12,402,109               12,314,338
Actual offsetting collections (discretionary and mandatory) (-)                (12,936,282)             (13,024,352)
Change in uncollected customer payments from Federal                               505,811                  273,922
Sources (discretionary and mandatory) (+ or -)
Budget Authority, net (discretionary and mandatory)                                (28,362)               (436,092)
Outlays, gross (discretionary and mandatory)                                    12,601,195               12,731,843
Actual offsetting collections (discretionary and mandatory) (-)                (12,936,282)             (13,024,352)
Outlays, net (discretionary and mandatory)                                       (335,087)                (292,509)
Agency Outlays, net (discretionary and mandatory)                                (335,087)                (292,509)




                                                                  115
United States Air Force


Working Capital Fund
Fiscal Year 2012
Notes to the Principal Statements
Notes to the financial statements communicate information essential for fair presentation
of the financial statements that is not displayed on the face of the financial statements.




                                              116
                                                                              Agency Financial Report 2012
                                                                                                           Working Capital Fund
                                                                                                 Notes to the Principal Statements



 Note 1.          Significant Accounting Policies

1.A. Basis of Presentation
These financial statements have been prepared to report the financial position and results of operations of the Air Force
Working Capital Fund (AFWCF), as required by the Chief Financial Officers Act of 1990, expanded by the Government
Management Reform Act of 1994, and other appropriate legislation. The financial statements have been prepared from the
books and records of the AFWCF in accordance with, and to the extent possible, U.S. generally accepted accounting
principles (USGAAP) promulgated by the Federal Accounting Standards Advisory Board; the Office of Management and
Budget (OMB) Circular No. A-136, Financial Reporting Requirements; and the Department of Defense (DoD), Financial
Management Regulation (FMR). The accompanying financial statements account for all resources for which the AFWCF is
responsible unless otherwise noted.

The AFWCF is unable to fully implement all elements of USGAAP and the OMB Circular No. A-136, due to limitations of
financial and nonfinancial management processes and systems that support the financial statements. The AFWCF derives
reported values and information for major asset and liability categories largely from nonfinancial systems, such as inventory
and logistic systems. These systems were designed to support reporting requirements for maintaining accountability over
assets and reporting the status of federal appropriations rather than preparing financial statements in accordance with
USGAAP. The AFWCF continues to implement process and system improvements addressing these limitations.

The AFWCF currently has eight auditor identified financial statement material weaknesses: (1) financial and nonfinancial
feeder systems do not contain an adequate audit trail for the proprietary and budgetary accounts, (2) AFWCF may have
material amounts of account adjustments that are not adequately supported, (3) AFWCF cannot accurately identify all
intragovernmental transactions by customer, which is required for eliminations when preparing consolidated financial
statements, (4) the value of the AFWCF government furnished and contractor acquired materiel and equipment may not be
accurately reported, (5) AFWCF General Property, Plant, and Equipment (PP&E) may not be accurately valued, (6)
Operating Materiel and Supplies (OM&S) are not reflected at historical cost, (7) cost of goods sold and work in progress are
not recorded in accordance with the Statement of Federal Financial Accounting Standards (SFFAS)
No. 3, "Accounting for Inventory and Related Property", and (8) supply management systems do not provide sufficient audit
trails to confirm and value the in transit inventory reported as part of inventory held for sale on the Consolidated Balance
Sheet.

1.B. Mission of the Reporting Entity
The United States Air Force was created on September 18, 1947, by the National Security Act of 1947. The National
Security Act Amendments of 1949 established the DoD and made the Air Force a department within DoD. The overall
mission of the United States Air Force is to fly, fight and win...in air, space and cyberspace. Our priorities are: (1) continue to
strengthen the nuclear enterprise, (2) partner with Joint and Coalition team to win today’s fight, (3) develop and care for
Airmen and their families, (4) modernize our air and space inventories, organizations, and training, and (5) recapture
acquisition excellence.

The stock and industrial revolving fund accounts were created by the National Security Act of 1947, as amended in 1949 and
codified in United States Code 10 Section 2208. The revolving funds were established as a means to more effectively
control the cost of work performed by DoD. The DoD began operating under the revolving fund concept on July 1, 1951.

Effective FY 2009, AFWCF operations consist of two major activity groups: Consolidated Sustainment Activity Group
(CSAG) and the Supply Management Activity Group - Retail (SMAG-R). All AFWCF CSAG and SMAG-R activities establish
rates based on full cost recovery. If an operating loss or gain is incurred, the activity will make the appropriate adjustment in
following years’ prices to recoup the loss or return the gain to their customers.

The mission of CSAG is supply management of reparable and consumable items, and maintenance activities. The CSAG
combines the activities of the previous Material Support Division (MSD) of the Supply Management Activity Group and the
Depot Maintenance Activity Group (DMAG). Under CSAG, business operations formerly known as DMAG are now related to
the Maintenance Division. Likewise, business operations formerly known as MSD are now referred to as the Supply Division.



                                                                 117
        United States Air Force


Supply Division activities of CSAG are authorized to procure and manage reparable and consumable items for which the Air
Force is the Inventory Control Point. The Supply Division manages more than 106 thousand items that are generally related
to weapon systems and ground support, and include both depot level reparables and non-depot level reparables.

Maintenance Division activities of CSAG are authorized to perform: (a) overhaul, conversion, reclamation, progressive
maintenance, modernization, software development, storage, modification, and repair of aircraft, missiles, engines,
accessories, components, and equipment; (b) the manufacture of parts and assemblies required to support the foregoing;
and (c) the furnishing of other authorized services or products for the Air Force and other agencies of the DoD. As directed
by the Air Force Materiel Command or higher authority, the Maintenance Division may furnish the above mentioned products
or services to agencies of other departments or instrumentalities of the U.S. Government, and to private parties and other
agencies, as authorized by law.

The SMAG-R consists of three business divisions: General Support Division (GSD), Medical-Dental Division, and Air Force
Academy Division. GSD procures and manages nearly 1.1 million consumable supply items related to maintenance, flying
hour program, and installation functions. The majority are used in support of field and depot maintenance of aircraft, ground
and airborne communication systems, and other support systems and equipment. The Medical-Dental Division procures and
manages nearly 9 thousand different medical supply items and equipment necessary to maintain an effective Air Force
Health Care system for the active military, retirees and their dependents. The Air Force Academy Division procures and
manages a retail inventory of uniforms, academic supplies and other recurring issue requirements for the Cadet Wing of the
United States Air Force Academy. Inventory procurement is only for mandatory items as determined by the Cadet Uniform
Board.

1.C. Appropriations and Funds
The AFWCF receives appropriations and funds as general and working capital (revolving) funds. The AFWCF uses these
appropriations and funds to execute its missions and subsequently report on resource usage.

Working Capital Funds (WCF) received funding to establish an initial corpus through an appropriation or a transfer of
resources from existing appropriations or funds. The corpus finances operations and transactions that flow through the fund.
The WCF resources the goods and services sold to customers on a reimbursable basis and maintains the corpus.
Reimbursable receipts fund future operations and generally are available in their entirety for use without further
congressional action. At various times, Congress provides additional appropriations to supplement WCF as an infusion of
cash when revenues are inadequate to cover costs within the corpus.

1.D. Basis of Accounting
The AFWCF financial management systems are unable to meet all full accrual accounting requirements. Many of the
AFWCF financial and nonfinancial feeder systems and processes were designed and implemented prior to the issuance of
USGAAP. These systems were not designed to collect and record financial information on the full accrual accounting basis
as required by USGAAP. Most of AFWCF’s financial and nonfinancial legacy systems were designed to record information
on a budgetary basis.

The AFWCF financial statements and supporting trial balances are compiled from the underlying financial data and trial
balances of AFWCF sub-entities. The underlying data is largely derived from budgetary transactions (obligations,
disbursements, and collections), from nonfinancial feeder systems, and accruals made for major items such as payroll
expenses, accounts payable, and environmental liabilities. Some of the sub-entity level trial balances may reflect known
abnormal balances resulting largely from business and system processes. At the consolidated AFWCF level these abnormal
balances may not be evident. Disclosures of abnormal balances are made in the applicable footnotes, but only to the extent
that the abnormal balances are evident at the consolidated level.

The DoD is determining the actions required to bring its financial and nonfinancial feeder systems and processes into
compliance with USGAAP. One such action is the current revision of accounting systems to record transactions based on
the U.S. Standard General Ledger (USSGL). Until all AFWCF’s financial and nonfinancial feeder systems and processes are
updated to collect and report financial information as required by USGAAP, AFWCF’s financial data will be derived from
budgetary transactions, data from nonfinancial feeder systems, and accruals.




                                                              118
                                                                            Agency Financial Report 2012
                                                                                                        Working Capital Fund
                                                                                              Notes to the Principal Statements

1.E. Revenues and Other Financing Sources
The CSAG Maintenance Division recognizes revenue according to the percentage of completion method. The CSAG Supply
Division and SMAG-R recognize revenue based on flying hours executed and the sale of inventory items.

1.F. Recognition of Expenses
For financial reporting purposes, DoD policy requires the recognition of operating expenses in the period incurred. Current
financial and nonfinancial feeder systems were not designed to collect and record financial information on the full accrual
accounting basis. Estimates are made for major items such as payroll expenses, accounts payable and unbilled revenue.
In the case of OM&S, the consumption method is used. Under the consumption method, OM&S would be expensed when
consumed. Due to system limitations, in some instances expenditures for capital and other long-term assets may be
recognized as operating expenses. The AFWCF continues to implement process and system improvements to address
these limitations.

1.G. Accounting for Intragovernmental Activities
Accounting standards require that an entity eliminates intraentity activity and balances from consolidated financial statements
in order to prevent overstatement for business with itself. However, the AFWCF cannot accurately identify intragovernmental
transactions by customer because AFWCF’s systems do not track buyer and seller data at the transaction level. Generally,
seller entities within the DoD provide summary seller-side balances for revenue, accounts receivable, and unearned revenue
to the buyer-side internal accounting offices. In most cases, the buyer-side records are adjusted to agree with DoD seller-
side balances and are then eliminated. The DoD is implementing replacement systems and a standard financial information
structure that will incorporate the necessary elements that will enable DoD to correctly report, reconcile, and eliminate
intragovernmental balances.

The Treasury Financial Manual Part 2 – Chapter 4700, "Agency Reporting Requirements for the Financial Report of the
United States Government," provide guidance for reporting and reconciling intragovernmental balances. While AFWCF is
unable to fully reconcile intragovernmental transactions with all federal agencies, AFWCF is able to reconcile balances
pertaining to Federal Employees’ Compensation Act transactions with the Department of Labor, and benefit program
transactions with the Office of Personnel Management.

The DoD’s proportionate share of public debt and related expenses of the Federal Government is not included. The Federal
Government does not apportion debt and its related costs to federal agencies. The DoD’s financial statements do not report
any public debt, interest or source of public financing, whether from issuance of debt or tax revenues.

Generally, financing for the construction of DoD facilities is obtained through appropriations. To the extent this financing
ultimately may have been obtained through the issuance of public debt, interest costs have not been capitalized since the
U.S. Treasury does not allocate such costs to DoD.

1.H. Transactions with Foreign Governments and International Organizations
Each year, AFWCF sells defense articles and services to foreign governments and international organizations under the
provisions of the Arms Export Control Act of 1976. Under the provisions of the Act, DoD has authority to sell defense articles
and services to foreign countries and international organizations generally at no profit or loss to the Federal Government.
Payment in U.S. dollars is required in advance.

1.I. Funds with the U.S. Treasury
The AFWCF’s monetary resources are maintained in U.S. Treasury accounts. The disbursing offices of Defense Finance
and Accounting Service (DFAS), the Military Departments, the U.S. Army Corps of Engineers (USACE), and the Department
of State’s financial service centers process the majority of the AFWCF’s cash collections, disbursements, and adjustments
worldwide. Each disbursing station prepares monthly reports to the U.S. Treasury on checks issued, electronic fund
transfers, interagency transfers, and deposits.

In addition, DFAS sites and USACE Finance Center submit reports to the U.S. Treasury by appropriation on interagency
transfers, collections received, and disbursements issued. The U.S. Treasury records these transactions to the applicable




                                                               119
        United States Air Force

Fund Balance with Treasury (FBWT) account. On a monthly basis, AFWCF’s FBWT is adjusted to agree with the U.S.
Treasury accounts.


1.J. Cash and Other Monetary Assets
Not applicable.

1.K. Accounts Receivable
Accounts receivable from other federal entities or the public include: accounts receivable, claims receivable, and refunds
receivable. Allowances for uncollectible accounts due from the public are based upon analysis of collection experience by
fund type. The DoD does not recognize an allowance for estimated uncollectible amounts from other federal agencies.
Claims against other federal agencies are to be resolved between the agencies in accordance with dispute resolution
procedures defined in the Intragovernmental Business Rules published in the Treasury Financial Manual.

1.L. Direct Loans and Loan Guarantees
Not applicable.

1.M. Inventories and Related Property
The AFWCF values approximately 99% of its resale inventory using the moving average cost method and reports the
remaining 1% of resale inventories at an approximation of historical cost using latest acquisition cost adjusted for holding
gains and losses. The latest acquisition cost method is used because legacy inventory systems were designed for materiel
management rather than accounting. Although these systems provide visibility and accountability over inventory items, they
do not maintain historical cost data necessary to comply with SFFAS No. 3, Accounting for Inventory and Related Property.
Additionally, these systems cannot produce financial transactions using the USSGL, as required by the Federal Financial
Management Improvement Act of 1996 (PL 104-208). The AFWCF is continuing to transition the balance of the inventories
to the moving average cost method through the use of new inventory systems. Most transitioned balances, however, were
not baselined to auditable historical cost and remain noncompliant with SFFAS No. 3.

The AFWCF manages only military or government-specific materiel under normal conditions. Materiel is a unique term that
relates to military force management, and includes items such as ships, tanks, self-propelled weapons, aircraft, etc., and
related spares, repair parts, and support equipment. Items commonly used in and available from the commercial sector are
not managed in AFWCF’s materiel management activities. Operational cycles are irregular and the military risks associated
with stock-out positions have no commercial parallel. The AFWCF holds materiel based on military need and support for
contingencies. The DoD is currently developing a methodology to be used to account for “inventory held for sale” and
“inventory held in reserve for future sale.”

Related property includes OM&S which is valued at purchase price. The AFWCF uses the consumption method of
accounting for OM&S.

The AFWCF recognizes excess, obsolete, and unserviceable inventory and OM&S at a net realizable value of $0 pending
development of an effective means of valuing such materiel.

Inventory available and purchased for resale includes consumable spare and repair parts and repairable items owned and
managed by AFWCF. This inventory is retained to support military or national contingencies. Inventory held for repair is
damaged inventory that requires repair to make it suitable for sale. Often, it is more economical to repair these items rather
than to procure them. The AFWCF often relies on weapon systems and machinery no longer in production. As a result,
AFWCF supports a process that encourages the repair and rebuilding of certain items. This repair cycle is essential to
maintaining a ready, mobile, and armed military force. Work in process balances include (1) costs related to the production
or servicing of items, including direct material, labor, and applied overhead; (2) the value of finished products or completed
services that are yet to be placed in service; and (3) munitions in production and depot maintenance work with its associated
costs incurred in the delivery of maintenance services.

1.N. Investments in U.S. Treasury Securities
Not applicable.



                                                               120
                                                                             Agency Financial Report 2012
                                                                                                          Working Capital Fund
                                                                                                Notes to the Principal Statements

1.O. General Property, Plant and Equipment
The DoD’s General Property, Plant, and Equipment (PP&E) capitalization threshold is
$100 thousand except for real property, which is $20 thousand. The AFWCF has not fully implemented the threshold for real
property; therefore, DoD is primarily using the capitalization threshold of $100 thousand for General PP&E, and most real
property.

The WCF capitalizes all PP&E used in the performance of its mission. These assets are capitalized as General PP&E,
whether or not they meet the definition of any other PP&E category.

When it is in the best interest of the government, the AFWCF provides government property to contractors to complete
contract work. The AFWCF either owns or leases such property, or it is purchased directly by the contractor for the
government based on contract terms. When the value of contractor-procured General PP&E meets or exceeds the DoD
capitalization threshold, federal accounting standards require that it be reported on AFWCF’s Balance Sheet.

The DoD developed policy and a reporting process for contractors with government furnished equipment that provides
appropriate General PP&E information for financial statement reporting. The DoD requires AFWCF to maintain, in their
property systems, information on all property furnished to contractors. These actions are structured to capture and report the
information necessary for compliance with federal accounting standards. The AFWCF has not fully implemented this policy
primarily due to system limitations.

1.P. Advances and Prepayments
When advances are permitted by law, legislative action, or presidential authorization, DoD’s policy is to record advances or
prepayments in accordance with USGAAP. As such, payments made in advance of the receipt of goods and services should
be reported as an asset on the Balance Sheet. The DoD’s policy is to expense and/or properly classify assets when the
related goods and services are received. The AFWCF has implemented this policy.

1.Q. Leases
Not applicable.

1.R. Other Assets
Other assets includes those assets, such as military and civil service employee pay advances, travel advances, and certain
contract financing payments that are not reported elsewhere on AFWCF’s Balance Sheet.

The AFWCF conducts business with commercial contractors under two primary types of contracts: fixed price and cost
reimbursable. To alleviate the potential financial burden on the contractor that long-term contracts can cause, AFWCF may
provide financing payments. Contract financing payments are defined in the Federal Acquisition Regulations, Part 32, as
authorized disbursements to a contractor prior to acceptance of supplies or services by the Government. Contract financing
payments clauses are incorporated in the contract terms and conditions and may include advance payments, performance-
based payments, commercial advances and interim payments, progress payments based on cost, and interim payments
under certain cost-reimbursement contracts. It is DoD policy to record certain contract financing payments as other assets.
The AFWCF has not fully implemented this policy primarily due to system limitations.

Contract financing payments do not include invoice payments, payments for partial deliveries, lease and rental payments, or
progress payments based on a percentage or stage of completion. The Defense Federal Acquisition Regulation Supplement
authorizes progress payments based on a percentage or stage of completion only for construction of real property,
shipbuilding, and ship conversion, alteration, or repair. Progress payments based on percentage or stage of completion are
reported as Construction in Progress.

1.S. Contingencies and Other Liabilities
The SFFAS No. 5, Accounting for Liabilities of the Federal Government, as amended by SFFAS No. 12, Recognition of
Contingent Liabilities Arising from Litigation, defines a contingency as an existing condition, situation, or set of circumstances
that involves an uncertainty as to possible gain or loss. The uncertainty will be resolved when one or more future events




                                                                121
        United States Air Force

occur or fail to occur. The AFWCF recognizes contingent liabilities when past events or exchange transactions occur, a
future loss is probable, and the loss amount can be reasonably estimated.

Financial statement reporting is limited to disclosure when conditions for liability recognition do not exist but there is at least a
reasonable possibility of incurring a loss or additional losses. The AFWCF’s risk of loss and resultant contingent liabilities
arise from pending or threatened litigation or claims and assessments due to events such as aircraft, ship and vehicle
accidents; medical malpractice; property or environmental damages; and contract disputes.

1.T. Accrued Leave
The AFWCF reports liabilities for military leave and accrued compensatory and annual leave for civilians. Sick leave for
civilians is expensed as taken. The liabilities are based on current pay rates.

1.U. Net Position
Net position consists of unexpended appropriations and cumulative results of operations.

Unexpended appropriations represent the amounts of budget authority that are unobligated and have not been rescinded or
withdrawn. Unexpended appropriations also represent amounts obligated for which legal liabilities for payments have not
been incurred.

Cumulative results of operations represent the net difference between expenses and losses, and financing sources (including
appropriations, revenue, and gains), since inception. The cumulative results of operations also include donations and
transfers in and out of assets that were not reimbursed.

1.V. Treaties for Use of Foreign Bases
Not applicable.

1.W. Undistributed Disbursements and Collections
Undistributed disbursements and collections represent the difference between disbursements and collections matched at the
transaction level to specific obligations, payables, or receivables in the source systems and those reported by the U.S.
Treasury. Supported disbursements and collections may be evidenced by the availability of corroborating documentation that
would generally support the summary level adjustments made to accounts payable and receivable. Unsupported
disbursements and collections do not have supporting documentation for the transactions and most likely would not meet
audit scrutiny. However, both supported and unsupported adjustments may have been made to the
[Component/Department] Accounts Payable and Receivable trial balances prior to validating underlying transactions required
to establish the Accounts Payable/Receivable were previously made. As a result, misstatements of reported Accounts
Payable and Receivables are likely present in the [Component/Department] financial statements.

Due to noted material weaknesses in current accounting and financial feeder systems, the DoD is generally unable to
determine whether undistributed disbursements and collections should be applied to federal or nonfederal accounts
payables/receivable at the time accounting reports are prepared. Accordingly, the DoD policy is to allocate supported
undistributed disbursements and collections between federal and nonfederal categories based on the percentage of
distributed federal and nonfederal accounts payable and accounts receivable. Both supported and unsupported
undistributed disbursements and collections are then applied to reduce accounts payable and receivable accordingly.

1.X. Fiduciary Activities
Not Applicable.

1.Y. Military Retirement and Other Federal Employment Benefits
Not Applicable.

1.Z. Significant Events
Not Applicable.




                                                                  122
                                                                            Agency Financial Report 2012
                                                                                                       Working Capital Fund
                                                                                             Notes to the Principal Statements




Note 2.        Nonentity Assets


As of September 30                                                   2012                                  2011
(Amounts in thousands)

1. Intragovernmental Assets
   A. Fund Balance with Treasury                    $                                    0   $                               0
   B. Accounts Receivable                                                                0                                   0
   C. Other Assets                                                                       0                                   0
   D. Total Intragovernmental Assets                $                                    0   $                               0

2. Nonfederal Assets
   A. Cash and Other Monetary Assets                $                                   0    $                               0
   B. Accounts Receivable                                                             155                                  296
   C. Other Assets                                                                      0                                    0
   D. Total Nonfederal Assets                       $                                 155    $                             296


3. Total Nonentity Assets                           $                                 155    $                             296

4. Total Entity Assets                              $                          29,356,494    $                      30,327,260


5. Total Assets                                     $                          29,356,649    $                      30,327,556


Asset accounts are categorized as either entity or nonentity. Entity accounts consist of resources that are available for use in
the operations of the entity.

Nonentity assets are assets for which the AFWCF maintains stewardship accountability and reporting responsibility, but are
not available for the AFWCF’s normal operations.

These nonentity assets are interest, penalties and administrative fees that will be forwarded to the General Fund of the U.S.
Treasury upon collection.




                                                              123
        United States Air Force




Note 3.       Fund Balance with Treasury


As of September 30                                                 2012                              2011
(Amounts in thousands)


1. Fund Balances
   A. Appropriated Funds                             $                              0   $                             0
   B. Revolving Funds                                                         556,537                           670,929
   C. Trust Funds                                                                   0                                 0
   D. Special Funds                                                                 0                                 0
   E. Other Fund Types                                                              0                                 0
   F. Total Fund Balances                            $                        556,537   $                       670,929



2. Fund Balances Per Treasury Versus Agency
   A. Fund Balance per Treasury                      $                        811,253   $                     1,026,251
   B. Fund Balance per AFWCF                                                  556,537                           670,929

3. Reconciling Amount                                $                        254,716   $                       355,322



The reconciling amount represents $254.7 million for the United States Transportation Command (USTC), which is reported by
the U.S. Treasury as part of the AFWCF. However, for the purposes of Audited Financial Statements (AFS), USTC is included
with the Other Defense Organizations reporting which is separate from the AFWCF. Therefore, USTC funds are not included in
the AFWCF AFS.




                                                           124
                                                                          Agency Financial Report 2012
                                                                                                        Working Capital Fund
                                                                                              Notes to the Principal Statements




 Status of Fund Balance with Treasury

 As of September 30                                             2012                                       2011
 (Amounts in thousands)
 1. Unobligated Balance
    A. Available                               $                               106,559    $                            555,328
    B. Unavailable                                                                   0                                       0

 2. Obligated Balance not yet Disbursed        $                             7,060,232    $                           7,364,315

 3. Nonbudgetary FBWT                          $                                     0    $                                   0

 4. NonFBWT Budgetary Accounts                 $                            (6,610,254)   $                         (7,248,714)

 5. Total                                      $                               556,537    $                            670,929



The Status of Fund Balance with Treasury (FBWT) reflects the budgetary resources to support FBWT and is a reconciliation
between budgetary and proprietary accounts. It primarily consists of unobligated and obligated balances. The balances
reflect the budgetary authority remaining for disbursement against current or future obligations.

Unobligated Balance is classified as available or unavailable and represents the cumulative amount of budgetary authority
that has not been set aside to cover outstanding obligations. The unavailable balance consists of funds temporarily
precluded from obligation by law. Certain unobligated balances may be restricted to future use and are not apportioned for
current use. The AFWCF has no restrictions on unobligated balances.

Obligated Balance not yet Disbursed represents funds that have been obligated for goods and services not received, and
those received but not paid.

Nonbudgetary FBWT includes accounts that do not have budgetary authority, such as deposit funds, unavailable receipt
accounts, clearing accounts, and nonentity FBWT. The AFWCF currently does not have a Nonbudgetary FBWT.

NonFBWT Budgetary Accounts reduces the Status of FBWT. The amount reported as NonFBWT Budgetary Accounts is
comprised of contract authority, unfilled orders without advance from customers, and accounts receivable.




Note 4.        Investments and Related Interest

The AFWCF has no Investments and Related Interest.




                                                                    125
        United States Air Force


 Note 5.      Accounts Receivable


 As of September 30                                                      2012
                                                             Allowance For Estimated
                               Gross Amount Due                                              Accounts Receivable, Net
                                                                    Uncollectibles
ts in thousands)
  1. Intragovernmental
     Receivables          $                    778,172                            N/A    $                            778,172
  2. Nonfederal
     Receivables (From
     the Public)          $                     12,452   $                     (7,660)   $                              4,792

 3. Total Accounts
    Receivable            $                    790,624   $                     (7,660)   $                            782,964



 As of September 30                                                      2011
                                                             Allowance For Estimated
                               Gross Amount Due                                              Accounts Receivable, Net
                                                                    Uncollectibles
 (Amounts in
 thousands)
 1. Intragovernmental
    Receivables           $                    933,040                            N/A    $                            933,040
 2. Nonfederal
    Receivables (From
    the Public)           $                     12,405   $                     (8,695)   $                              3,710

 3. Total Accounts
    Receivable            $                    945,445   $                     (8,695)   $                            936,750



 The accounts receivable represent the AFWCF’s claim for payment from other entities. The AFWCF only
 recognizes an allowance for uncollectible amounts from the public. Claims with other federal agencies are resolved
 in accordance with the Intragovernmental Business Rules.




                                                               126
                                                                           Agency Financial Report 2012
                                                                                                        Working Capital Fund
                                                                                              Notes to the Principal Statements

Note 6.         Other Assets


As of September 30                                                             2012                            2011
(Amounts in thousands)

1. Intragovernmental Other Assets
   A. Advances and Prepayments                                    $                           28    $                         4
   B. Other Assets                                                                       167,711                        111,122
   C. Total Intragovernmental Other Assets                        $                      167,739    $                   111,126

2. Nonfederal Other Assets
   A. Outstanding Contract Financing Payments                     $                      121,079    $                   164,286
   B. Advances and Prepayments                                                           118,754                        172,083
   C. Other Assets (With the Public)                                                         158                            232
   D. Total Nonfederal Other Assets                               $                      239,991    $                   336,601


3. Total Other Assets                                             $                      407,730    $                   447,727

Contract terms and conditions for certain types of contract financing payments convey certain rights to the Government that
protect the contract work from state or local taxation, liens or attachment by the contractor's creditors, transfer of property,
or disposition in bankruptcy. However, these rights should not be misconstrued to mean that ownership of the contractor’s
work has transferred to the Federal Government. The Federal Government does not have the right to take the work, except
as provided in contract clauses related to termination or acceptance, and AFWCF is not obligated to make payment to the
contractor until delivery and acceptance.

The balance in Outstanding Contract Financing Payments includes $102.6 million in contract financing payments and an
additional $18.5 million in estimated future payments to contractors upon delivery and government acceptance of a
satisfactory product. See additional discussion in Note 15, Other Liabilities.

The $167.7 million in Intragovernmental Other Assets - Other Assets and the $157.5 thousand balance in Nonfederal Other
Assets – Other Assets (With the Public) are comprised of Supply Management Activity Group’s assets returned to vendors
for which credit is pending. There will be no dollar payments received for this credit but vendor billings will be offset.




                                                               127
       United States Air Force


Note 7.       Cash and Other Monetary Assets


The AFWCF has no Cash and Other Monetary Assets.



Note 8.        Direct Loan and Loan Guarantees


The AFWCF has no Direct Loan and/or Loan Guarantee Programs.



Note 9.       Inventory and Related Property


As of September 30                                               2012                                        2011
(Amounts in thousands)

1. Inventory, Net                                 $                            25,957,956   $                       26,675,393
2. Operating Materiel & Supplies, Net                                             141,642                              137,828
3. Stockpile Materiel, Net                                                              0                                    0

4. Total                                          $                            26,099,598   $                       26,813,221




Inventory, Net


As of September 30                                           2012
                                 Inventory,                                                                     Valuation
                                                       Revaluation Allowance          Inventory, Net
                                Gross Value                                                                      Method
(Amounts in thousands)

1. Inventory Categories
   A. Available and
      Purchased for
      Resale              $             15,907,341     $               (23,689)                 15,883,652     MAC,FIFO,LAC
   B. Held for Repair                   13,994,240                  (3,964,574)                 10,029,666       LAC,MAC
   C. Excess, Obsolete,
      and Unserviceable                       53,822                   (53,822)                         0          NRV
   D. Raw Materiel                                 0                          0                         0       MAC,SP,LAC
   E. Work in Process                         44,638                          0                    44,638           AC


   F. Total               $             30,000,041     $            (4,042,085)                 25,957,956




                                                           128
                                                                               Agency Financial Report 2012
                                                                                                        Working Capital Fund
                                                                                              Notes to the Principal Statements



As of September 30                                                2011
                                     Inventory,                                                                    Valuation
                                                         Revaluation Allowance            Inventory, Net
                                    Gross Value                                                                     Method
(Amounts in thousands)

1. Inventory Categories
   A. Available and
      Purchased for
      Resale                    $          16,726,636   $                      (17,269)           16,709,367           LAC,MAC
   B. Held for Repair                      13,916,093                       (3,987,787)            9,928,306           LAC,MAC
   C. Excess, Obsolete,
      and Unserviceable                       171,099                        (171,099)                     0         NRV
   D. Raw Materiel                                  0                                0                     0      MAC,SP,LAC
   E. Work in Process                          37,720                                0                37,720          AC


   F. Total                     $          30,851,548   $                   (4,176,155)           26,675,393

Legend for Valuation Methods:
LAC = Latest Acquisition Cost               NRV = Net Realizable Value                     MAC = Moving Average Cost
SP = Standard Price                         LCM = Lower of Cost or Market
AC = Actual Cost                            O = Other


Restrictions

There are no restrictions on the use, sale, or disposition of inventory except for War Reserve Materiel and nuclear
related spare parts.


General Composition of Inventory

Inventory includes weapon system consumable and reparable parts, base supply items, and medical-dental supplies.
Inventory is tangible personal property that is held for sale or held for repair for eventual sale, in the process of
production for sale, or to be consumed in the production of goods for sale or in the provision of services for a fee.
Definitions

Inventory Available and Purchased for Resale includes consumable and reparable parts owned and managed by
AFWCF.

Inventory Held for Repair is damaged inventory that requires repair to make it suitable for sale. Many of the inventory
items are more economical to repair than to procure. In addition, because AFWCF often relies on weapon systems and
machinery no longer in production, AFWCF supports a process that encourages the repair and rebuilding of certain
items. This repair cycle is essential to maintaining a ready, mobile, and armed military force.

Excess, Obsolete, and Unserviceable inventory consists of obsolete, excess to requirements, or items that cannot be
economically repaired and are awaiting disposal.

Work in Process balances include costs related to the production or servicing of items, including direct material, direct
labor, applied overhead, and other direct costs. Work in Process also includes the value of finished products or
completed services pending the submission of bills to the customer.




                                                               129
        United States Air Force




 Operating Materiel and Supplies, Net


 As of September 30                                                    2012
                                        OM&S
                                                             Revaluation Allowance         OM&S, Net           Valuation Method
                                      Gross Value
 (Amounts in thousands)

 1. OM&S Categories
   A. Held for Use               $             141,642       $                     0   $           141,642        SP, LAC, MAC
   B. Held for Repair                                0                             0                     0        SP, LAC, MAC
   C. Excess, Obsolete, and
      Unserviceable                                      0                         0                      0              NRV


   D. Total                      $             141,642       $                     0   $           141,642



 As of September 30                                                  2011
                                       OM&S
                                                             Revaluation Allowance         OM&S, Net           Valuation Method
                                     Gross Value
 (Amounts in
    thousands)

 1. OM&S Categories
   A. Held for Use         $                   137,828       $                     0   $           137,828        SP, LAC, MAC
   B. Held for Repair                                    0                         0                      0       SP, LAC, MAC
   C. Excess, Obsolete,
      and Unserviceable                                  0                         0                      0              NRV


   D. Total                $                   137,828       $                     0   $           137,828

 Legend for Valuation Methods:
 LAC = Latest Acquisition Cost                     NRV = Net Realizable Value                MAC = Moving Average Cost
 SP = Standard Price                               LCM = Lower of Cost or Market
 AC = Actual Cost                                  O = Other


General Composition of Operating Materiel and Supplies

Operating Materiel and Supplies (OM&S) includes consumable parts and supplies used to remanufacture spare parts and
repair weapons systems.

Restrictions

There are no restrictions on the use, sale, or disposition of OM&S.

Definition

Held for Use includes consumable parts and supplies.




                                                                            130
                                                                             Agency Financial Report 2012
                                                                                                         Working Capital Fund
                                                                                               Notes to the Principal Statements




 Stockpile Materiel, Net


 As of September 30                                                2012
                                     Stockpile
                                                             Allowance for Gains            Stockpile                  Valuation
                                     Materiel
                                                                  (Losses)                 Materiel, Net                Method
                                     Amount
 (Amounts in thousands)

 1. Stockpile Materiel
     Categories
    A. Held for Sale             $                   0   $                         0   $                    0          AC, LCM
    B. Held in Reserve for
       Future Sale                                   0                             0                        0          AC, LCM


    C. Total                     $                   0   $                         0   $                    0



 As of September 30                                                2011
                                     Stockpile
                                                             Allowance for Gains            Stockpile                  Valuation
                                     Materiel
                                                                  (Losses)                 Materiel, Net                Method
                                     Amount
 (Amounts in thousands)

 1. Stockpile Materiel
     Categories
    A. Held for Sale             $                   0   $                         0   $                    0          AC, LCM
    B. Held in Reserve for
       Future Sale                                   0                             0                        0          AC, LCM


    C. Total                     $                   0   $                         0   $                    0

 Legend for Valuation Methods:
 LAC = Latest Acquisition Cost               NRV = Net Realizable Value                    MAC = Moving Average Cost
 SP = Standard Price                         LCM = Lower of Cost or Market
 AC = Actual Cost                            O = Other


The AFWCF has no Stockpile Materiels.




                                                                      131
         United States Air Force



Note 10.           General PP&E, Net


As of September 30
                                                                                   2012
                            Depreciation/
                                             Service         Acquisition            (Accumulated Depreciation/       Net Book
                            Amortization
                                              Life             Value                      Amortization)               Value
                              Method
(Amounts in thousands)

1. Major Asset Classes
   A. Land                      N/A            N/A       $                    0                            N/A   $                     0
   B. Buildings,
      Structures, and
      Facilities                S/L         20 Or 40                   1,241,503    $                (726,062)                   515,441
   C.Leasehold
      Improvements              S/L         lease term                         0                             0                         0
   D.Software                   S/L          2-5 Or 10                 1,160,024                   (1,055,863)                   104,161
   E. General Equipment         S/L           5 or 10                  2,946,622                   (2,067,332)                   879,290
   F. Military Equipment        S/L           Various                          0                             0                         0
   G. Shipbuilding
      (Construction-in-
      Progress)                 N/A            N/A                            0                              0                         0
   H.Assets Under
      Capital Lease             S/L         lease term                        0                              0                         0
   I. Construction-in-
      Progress (Excludes
      Military Equipment)       N/A            N/A                        10,928                           N/A                     10,928
   J. Other                                                                    0                             0                          0
   K. Total General PP&E                                 $             5,359,077    $              (3,849,257)   $              1,509,820


As of September 30
                                                                                   2011
                            Depreciation/
                                             Service         Acquisition            (Accumulated Depreciation/       Net Book
                            Amortization
                                              Life             Value                      Amortization)               Value
                              Method
(Amounts in thousands)

1. Major Asset Classes
   A. Land                      N/A            N/A       $                    0                            N/A   $                     0
   B. Buildings,
      Structures, and
      Facilities                S/L          20 Or 40                  1,195,805    $                (707,649)                   488,156
   C.Leasehold
      Improvements              S/L         lease term                         0                             0                         0
   D.Software                   S/L          2-5 Or 10                 1,150,082                   (1,010,668)                   139,414
   E. General Equipment         S/L           5 or 10                  2,819,068                   (2,012,299)                   806,769
   F. Military Equipment        S/L           Various                          0                             0                         0
   G. Shipbuilding
      (Construction-in-
      Progress)                 N/A            N/A                            0                              0                         0
   H.Assets Under
      Capital Lease             S/L         lease term                        0                              0                         0
   I. Construction-in-
      Progress
          (Excludes
      Military Equipment)       N/A            N/A                        24,590                           N/A                     24,590
   J. Other                                                                    0                             0                          0
   K. Total General PP&E                                 $             5,189,545    $              (3,730,616)   $              1,458,929




                                                                     132
                                                                                       Agency Financial Report 2012
                                                                                                                Working Capital Fund
                                                                                                      Notes to the Principal Statements

  Note 15 for additional information on Capital Leases
 Legend for Valuation Methods:
 S/L = Straight Line       N/A = Not Applicable

Air Force Working Capital Fund



 Categories                                    Measure      Beginning Balance        Additions       Deletions         Ending Balance
                                               Quantity
 Buildings and Structures                      Each                              0               0               0                      0
 Archeological Sites                           Each                              0               0               0                      0
 Museum Collection Items (Objects, Not         Each                              0               0               0                      0
      Including Fine Art)
 Museum Collection Items (Objects, Fine        Each                              0               0               0                      0
      Art)




                                                          (Acres in Thousands)

 Facility Code                Facility Title                Beginning Balance        Additions       Deletions         Ending Balance

 9110            Government Owned Land                                           0               0               0                      0
 9111            State Owned Land                                                0               0               0                      0
 9120            Withdrawn Public land                                           0               0               0                      0
 9130            Licensed and Permitted Land                                     0               0               0                      0
 9140            Public Land                                                     0               0               0                      0
 9210            Land Easement                                                   0               0               0                      0
 9220            In-leased Land                                                  0               0               0                      0
 9230            Foreign Land                                                    0               0               0                      0
 Grand Total                                                                                                                            0

 TOTAL - All Other Lands                                                                                                                0

 TOTAL – Stewardship Lands                                                                                                              0


                    AFWCF does not have any restrictions on the use or convertibility of General PP&E.



Assets Under Capital Lease

 As of September 30
                                                                                      2012                           2011
 (Amounts in thousands)

 1. Entity as Lessee, Assets Under Capital Lease
    A. Land and Buildings                                               $                             0 $                               0
    B. Equipment                                                                                      0                                 0
    C. Accumulated Amortization                                                                       0                                 0

     D. Total Capital Leases                                            $                             0 $                               0




                                                                            133
       United States Air Force



Note 11.         Liabilities Not Covered by Budgetary Resources


As of September 30                                                             2012                              2011
(Amounts in thousands)

1. Intragovernmental Liabilities
   A. Accounts Payable                                         $                                 0    $                         0
   B. Debt                                                                                       0                              0
   C. Other                                                                                 48,144                         48,504
   D. Total Intragovernmental Liabilities                      $                            48,144    $                    48,504

2. Nonfederal Liabilities
   A. Accounts Payable                                         $                                  0   $                         0
   B. Military Retirement and
      Other Federal Employment Benefits                                                    217,518                        214,927
   C. Environmental Liabilities                                                                  0                              0
   D. Other Liabilities                                                                          0                              0
   E. Total Nonfederal Liabilities                             $                           217,518    $                   214,927

3. Total Liabilities Not Covered by Budgetary
   Resources                                                   $                           265,662    $                   263,431


4. Total Liabilities Covered by Budgetary Resources            $                         1,016,937    $                 1,167,226

5. Total Liabilities                                           $                         1,282,599    $                 1,430,657

Liabilities Not Covered by Budgetary Resources includes liabilities for which congressional action is needed before
budgetary resources can be provided.

The $48.1 million in Intragovernmental Liabilities - Other Liabilities is comprised of the portion of the total Air Force Federal
Employee’s Compensation Act (FECA) liability allocated to the AFWCF.

Military Retirement and Other Federal Employment Benefits consists of FECA actuarial liabilities not due and payable
during the current fiscal year. Refer to Note 17, Military Retirement and Other Federal Employment Benefits, for additional
details and disclosures.




                                                                134
                                                                          Agency Financial Report 2012
                                                                                                           Working Capital Fund
                                                                                                 Notes to the Principal Statements



Note 12.        Accounts Payable


As of September 30                                                        2012

                                                              Interest, Penalties, and
                                Accounts Payable                                                             Total
                                                                Administrative Fees

(Amounts in thousands)

1. Intragovernmental
     Payables              $                    180,355   $                         N/A      $                            180,355
2. Nonfederal Payables
     (to the Public)                            577,905                                  0                                577,905

3. Total                   $                    758,260   $                              0   $                            758,260



As of September 30                                                        2011

                                                              Interest, Penalties, and
                                Accounts Payable                                                             Total
                                                                Administrative Fees

(Amounts in thousands)

1. Intragovernmental
     Payables              $                    226,029   $                         N/A      $                            226,029
2. Nonfederal Payables
     (to the Public)                            694,713                                  0                                694,713

3. Total                   $                    920,742   $                              0   $                            920,742

Accounts Payable include amounts owed to federal and nonfederal entities for goods and services received by
AFWCF. The AFWCF’s systems do not track intragovernmental transactions by customer at the transaction
level. Buyer-side accounts payable are adjusted to agree with interagency seller-side accounts receivable.
Accounts payable was adjusted by reclassifying amounts between federal and nonfederal accounts payable
and applying both supported and unsupported undistributed disbursements at the reporting entity level.




Note 13.          Debt

The AFWCF has no Debt.

Note 14.           Environmental Liabilities and Disposal Liabilities

The AFWCF has no Environmental Liabilities and Disposal Liabilities.



                                                              135
       United States Air Force


Note 15.         Other Liabilities

As of September 30
                                                            2012 (Amounts in Thousands)
                                      Current                     Noncurrent
                                                                                          Total
                                      Liability                    Liability

1. Intragovernmental
   A. Advances from Others        $                    0    $                    0    $                0
   B. Deposit Funds and
      Suspense Account
      Liabilities                                      0                         0                     0
   C. Disbursing Officer Cash                          0                         0                     0
   D. Judgment Fund Liabilities                        0                         0                     0
   E. FECA Reimbursement to
      the Department of Labor                      21,301                    26,842                48,143
   F. Custodial Liabilities                           155                         0                   155
   G. Employer Contribution and
      Payroll Taxes Payable                         7,006                        0                  7,006
   H. Other Liabilities                                 0                        0                      0
   I. Total Intragovernmental
      Other Liabilities           $                28,462   $                26,842   $            55,304

2. Nonfederal
   A. Accrued Funded Payroll
      and Benefits                $               137,450   $                    0    $           137,450
   B. Advances from Others                         46,753                        0                 46,753
   C. Deferred Credits                                  0                        0                      0
   D. Deposit Funds and
      Suspense Accounts                                0                         0                     0
   E. Temporary Early
      Retirement Authority                             0                         0                     0
   F. Nonenvironmental Disposal
      Liabilities
       (1) Military Equipment
       (Nonnuclear)                                    0                         0                     0
       (2) Excess/Obsolete
       Structures                                      0                         0                     0

   G. Accrued Unfunded Annual
       Leave                                           0                         0                     0
   H. Capital Lease Liability                          0                         0                     0
    I. Contract Holdbacks                            827                         0                   827
   J. Employer Contribution and
       Payroll Taxes Payable                            0                         0                     0
   K. Contingent Liabilities                            0                    18,510                18,510
   L. Other Liabilities                            47,977                         0                47,977
   M. Total Nonfederal Other
      Liabilities                 $               233,007   $                18,510   $           251,517
3. Total Other Liabilities        $               261,469   $                45,352   $           306,821




                                                        136
                                                                  Agency Financial Report 2012
                                                                                            Working Capital Fund
                                                                                  Notes to the Principal Statements

As of September 30
                                                                     2011
                                        Current                    Noncurrent
                                                                                                   Total
                                        Liability                   Liability
(Amounts in thousands)

1. Intragovernmental
   A. Advances from Others          $                    0    $                     0    $                        0

   B. Deposit Funds and Suspense
      Account Liabilities                                0                          0                             0
   C. Disbursing Officer Cash                            0                          0                             0
   D. Judgment Fund Liabilities                          0                          0                             0
   E. FECA Reimbursement to the
      Department of Labor                            20,571                     27,932                       48,503
   F. Custodial Liabilities                             296                          0                          296
   G. Employer Contribution and
      Payroll Taxes Payable                           6,931                         0                         6,931
      H. Other Liabilities                                0                         0                             0

   I. Total Intragovernmental
      Other Liabilities             $                27,798   $                 27,932   $                   55,730
(Amounts in thousands)
2. Nonfederal
   A. Accrued Funded Payroll and
      Benefits                      $               139,025   $                     0    $                 139,025
   B. Advances from Others                           25,022                         0                       25,022
   C. Deferred Credits                                    0                         0                            0
   D. Deposit Funds and Suspense
      Accounts                                           0                          0                             0
   E. Temporary Early Retirement
      Authority                                          0                          0                             0
   F. Nonenvironmental Disposal
      Liabilities
       (1) Military Equipment
       (Nonnuclear)                                      0                          0                             0
       (2) Excess/Obsolete
       Structures                                        0                          0                             0
       (3) Conventional Munitions
       Disposal                                          0                          0                             0
   G. Accrued Unfunded Annual
      Leave                                               0                         0                             0
   H. Capital Lease Liability                             0                         0                             0
   I. Contract Holdbacks                              1,199                         0                         1,199
   J. Employer Contribution and
      Payroll Taxes Payable                               0                          0                            0
      K. Contingent Liabilities                           0                     24,605                       24,605
   L. Other Liabilities                              49,407                          0                       49,407

   M. Total Nonfederal Other
      Liabilities                   $               214,653   $                 24,605   $                 239,258

3. Total Other Liabilities          $               242,451   $                 52,537   $                 294,988




                                                       137
        United States Air Force


The $48.0 million balance in the Nonfederal Other Liabilities – Other Liabilities primarily consist of accrued liabilities
established in the Consolidated Sustainment Activity Group (CSAG) Supply as an offset to the asset established when foreign
governments provide funds to buy their respective share of inventory that is owned and managed by the Air Force under a
Cooperative Logistics Supply Support Agreement (CLSSA).

Contingent liabilities include $18.5 million related to contracts authorizing progress payments based on cost as defined in the
Federal Acquisition Regulation (FAR). In accordance with contract terms, specific rights to the contractors’ work vests with the
Federal Government when a specific type of contract financing payment is made. This action protects taxpayer funds in the
event of contract nonperformance. It is DoD policy that these rights should not be misconstrued as rights of ownership. The
AFWCF is under no obligation to pay contractors for amounts greater than the amounts of progress payments authorized in
contracts until delivery and government acceptance. Due to the probability the contractors will complete their efforts and
deliver satisfactory products, and because the amount of contractor costs incurred but yet unpaid are estimable, the AFWCF
has recognized a contingent liability for the estimated unpaid costs that are considered conditional for payment pending
delivery and government acceptance.

Total contingent liabilities for progress payments based on cost represent the difference between the estimated costs incurred
to date by contractors and amounts authorized to be paid under progress payments based on cost provisions within the FAR.
Estimated contractor-incurred costs are calculated by dividing the cumulative unliquidated progress payments based on cost
by the contract-authorized progress payment rate. The balance of unliquidated progress payments based on cost is deducted
from the estimated total contractor-incurred costs to determine the contingency amount.




 Capital Lease Liability

As of September 30
                                                                          2012
                                                                      Asset Category
                                    Land and
                                                            Equipment                   Other                    Total
                                    Buildings
  (Amounts in thousands)
1. Future Payments Due
  A. 2013                     $                    0   $                    0   $                    0   $                    0
  B. 2014                                          0                        0                        0                        0
  C. 2015                                          0                        0                        0                        0
  D. 2016                                          0                        0                        0                        0
  E. 2017                                          0                        0                        0                        0
  F. After 5 Years                                 0                        0                        0                        0

   G. Total Future Lease
      Payments Due            $                    0   $                    0   $                    0   $                    0
   H. Less: Imputed
      Interest Executory
      Costs                                        0                        0                        0                        0

   I. Net Capital Lease
      Liability               $                    0   $                    0   $                    0   $                    0

2. Capital Lease Liabilities Covered by Budgetary Resources                                              $                    0

3. Capital Lease Liabilities Not Covered by Budgetary Resources                                          $                    0




                                                               138
                                                                    Agency Financial Report 2012
                                                                                               Working Capital Fund
                                                                                     Notes to the Principal Statements

As of September 30
                                                                    2011
                                                                Asset Category
                               Land and
                                                     Equipment                   Other                  Total
                               Buildings
 (Amounts in thousands)
1. Future Payments Due
  A. 2012                 $                 0   $                   0   $                   0   $                    0
  B. 2013                                   0                       0                       0                        0
  C. 2014                                   0                       0                       0                        0
  D. 2015                                   0                       0                       0                        0
  E. 2016                                   0                       0                       0                        0
  F. After 5 Years                          0                       0                       0                        0

 G. Total Future Lease
    Payments Due          $                 0   $                   0   $                   0   $                    0
 H. Less: Imputed
    Interest Executory
    Costs                                   0                       0                       0                        0

 I. Net Capital Lease
    Liability             $                 0   $                   0   $                   0   $                    0

2. Capital Lease Liabilities Covered by Budgetary Resources                                     $                    0

3. Capital Lease Liabilities Not Covered by Budgetary Resources                                 $                    0




                                                              139
        United States Air Force


Note 16.         Commitments and Contingencies

The AFWCF is a party in various administrative proceedings and legal actions, related to claims for
environmental damage, equal opportunity matters, and contractual bid protests. The AFWCF’s Office of the
General Counsel considers the possibility of the AFWCF sustaining any losses on these legal actions to be
remote.

The AFWCF is a party in numerous individual contracts that contain clauses, such as price escalation, award
fee payments, or dispute resolution, that may result in a future outflow of budgetary resources. Currently,
AFWCF has limited automated system processes by which it captures or assesses these potential liabilities;
therefore, no associated liabilities are recognized or disclosed.




                                                             140
                                                                                     Agency Financial Report 2012
                                                                                                                          Working Capital Fund
                                                                                                                Notes to the Principal Statements

 Note 17.             Military Retirement and Other Federal Employment Benefits


 As of September 30                                                                    2012
                                                                       (Less: Assets Available to Pay
                                           Liabilities                                                                 Unfunded Liabilities
                                                                                    Benefits)
 (Amounts in thousands)


 1. Pension and Health Benefits
  A. Military Retirement Pensions     $                       0    $                                    0   $                                      0
  B. Military Pre Medicare-Eligible
     Retiree Health Benefits                                  0                                         0                                          0
  C. Military Medicare-Eligible
     Retiree Health Benefits                                  0                                         0                                          0
  D. Total Pension and Health
     Benefits                         $                       0    $                                    0   $                                      0


 2. Other Benefits
  A. FECA                             $                  217,518   $                                    0   $                                 217,518
  B. Voluntary Separation
     Incentive Programs                                       0                                         0                                          0
  C. DoD Education Benefits
     Fund                                                      0                                        0                                           0
  D. Other                                                     0                                        0                                           0
  E. Total Other Benefits             $                  217,518   $                                    0   $                                 217,518

 3. Total Military Retirement and
    Other Federal Employment
    Benefits:                         $                  217,518   $                                    0   $                                 217,518



Federal Employees Compensation Act (FECA)

The AFWCF actuarial liability for workers’ compensation benefits is developed by the Department of Labor and is updated
at the end of each fiscal year. The liability includes the expected liability for death, disability, medical, and miscellaneous
costs for approved compensation cases, plus a component for incurred but not reported claims. The liability is determined
using a method that utilizes historical benefit payment patterns related to a specific incurred period to predict the ultimate
payments related to that period. Consistent with past practice, these projected annual benefit payments have been
discounted to present value using the Office of Management and Budget’s (OMB’s) economic assumptions for 10-year
Treasury notes and bonds. Interest rate assumptions utilized for discounting were as follows:

2012
2.29% in Year 1
3.14% in Year 2
and thereafter

To provide more specifically for the effects of inflation on the liability for future workers’ compensation benefits, wage
inflation factors (cost of living adjustments or COLAs) and medical inflation factors (consumer price index medical or
CPIMs) were applied to the calculation of projected future benefits. The actual rates for these factors for the charge back
year (CBY) 2012 were also used to adjust the methodology’s historical payments to current year constant dollars.




                                                                   141
         United States Air Force

The compensation COLAs and CPIMs used in the projections for various CBY were as follows:

CBY COLA CPIM
2012 N/A N/A
2013 2.83% 3.65%
2014 2.03% 3.66%
2015 1.93% 3.72%
2016 2.00% 3.73%
2017+ 2.03% 3.80%
and thereafter

The model’s resulting projections were analyzed to insure that the estimates were reliable. The analysis was based on four
tests: (1) a sensitivity analysis of the model to economic assumptions, (2) a comparison of the percentage change in the
liability amount by agency to the percentage change in the actual incremental payments, (3) a comparison of the incremental
paid losses per case (a measure of case-severity) in CBY 2012 to the average pattern observed during the most current three
charge back years, and (4) a comparison of the estimated liability per case in the 2012 projection to the average pattern for
the projections of the most recent three years.




 As of September 30                                                              2011
                                                                  (Less: Assets Available to Pay
                                          Liabilities                                                  Unfunded Liabilities
                                                                               Benefits)
 (Amounts in thousands)(Amounts
     in thousands)


 1. Pension and Health Benefits
  A. Military Retirement Pensions     $                      0    $                            0   $                               0
  B. Military Pre Medicare-Eligible
     Retiree Health Benefits                                 0                                 0                                   0
  C. Military Medicare-Eligible
     Retiree Health Benefits                                 0                                 0                                   0
  D. Total Pension and Health
     Benefits                         $                      0    $                            0   $                               0

 2. Other Benefits
  A. FECA                             $                 214,927   $                            0   $                          214,927
  B. Voluntary Separation
     Incentive Programs                                      0                                 0                                   0
  C. DoD Education Benefits
     Fund                                                    0                                 0                                   0
  D. Other                                                   0                                 0                                   0
  E. Total Other Benefits             $                 214,927   $                            0   $                          214,927

 3. Total Military Retirement and
    Other Federal Employment
    Benefits:                         $                 214,927   $                            0   $                          214,927




                                                                      142
                                                                                       Agency Financial Report 2012
                                                                                                                       Working Capital Fund
                                                                                                             Notes to the Principal Statements


                                                                                      2012
As of September 30                                         Military Pre Medicare-   Military Medicare-
                                                                                                              Voluntary
                                 Military Retirement                                                          Separation        DoD Education
                                                                Eligible Retiree      Eligible Retiree
                                       Pensions                                                               Incentive          Benefits Fund
                                                                Health Benefits       Health Benefits
                                                                                                              Programs
(Amounts in thousands)

Beginning Actuarial
     Liability               $                         0                       0                         0                 0                     0


Plus Expenses:
   Normal Cost                                         0                       0                         0                 0                     0
   Interest Cost                                       0                       0                         0                 0                     0
   Plan Amendments                                     0                       0                         0                 0                     0
   Experience Losses
   (Gains)                                             0                       0                         0                 0                     0
   Other factors                                       0                       0                         0                 0                     0


Subtotal: Expenses
before Losses (Gains)
from Actuarial
Assumption Changes                                     0                       0                         0                 0                     0



Actuarial losses/ (gains)/
due to:
  Changes in trend
  assumptions                                          0                       0                         0                 0                     0
  Changes in assumptions
  other than trend                                     0                       0                         0                 0                     0

Subtotal: Losses (Gains)
from Actuarial
Assumption Changes                                     0                       0                         0                 0                     0


Total Expenses               $                         0                       0                         0                 0                     0

Less Benefit Outlays                                   0                       0                         0                 0                     0

Total Changes in Actuarial
     Liability               $                         0                       0                         0                 0                     0

Ending Actuarial Liability   $                         0                       0                         0                 0                     0




                                                                         143
       United States Air Force


Note 18.             General Disclosures Related to the Statement of Net Cost


Intragovernmental Costs and Exchange Revenue

As of September 30                                       2012               2011
(Amounts in thousands)
Military Retirement Benefits
1. Gross Cost
     A. Intragovernmental Cost                 $                  0   $            0
     B. Nonfederal Cost                                           0                0
     C. Total Cost                             $                  0   $            0
2. Earned Revenue
     A. Intragovernmental Revenue              $                  0   $            0
     B. Nonfederal Revenue                                        0                0
    C. Total Revenue                           $                  0   $            0
3. Losses/(Gains) from Actuarial Assumption
Changes for Military Retirement Benefits       $                  0   $            0
Total Net Cost                                 $                  0   $            0

Civil Works
1. Gross Cost
     A. Intragovernmental Cost                 $                  0   $            0
     B. Nonfederal Cost                                           0                0
     C. Total Cost                             $                  0   $            0
2. Earned Revenue
     A. Intragovernmental Revenue              $                  0   $            0
     B. Nonfederal Revenue                                        0                0
    C. Total Revenue                           $                  0   $            0
3. Losses/(Gains) from Actuarial Assumption
Changes for Military Retirement Benefits       $                  0   $            0
Total Net Cost                                 $                  0   $            0

Military Personnel
1. Gross Cost
     A. Intragovernmental Cost                 $                  0   $            0
     B. Nonfederal Cost                                           0                0
     C. Total Cost                             $                  0   $            0
2. Earned Revenue
     A. Intragovernmental Revenue              $                  0   $            0
     B. Nonfederal Revenue                                        0                0
    C. Total Revenue                           $                  0   $            0
3. Losses/(Gains) from Actuarial Assumption
Changes for Military Retirement Benefits       $                  0   $            0
Total Net Cost                                 $                  0   $            0




                                                   144
                                                            Agency Financial Report 2012
                                                                                       Working Capital Fund
                                                                             Notes to the Principal Statements


Operations, Readiness & Support
1. Gross Cost
    A. Intragovernmental Cost                     $             1,395,194    $                       1,711,508
    B. Nonfederal Cost                                         11,061,635                           11,388,112
    C. Total Cost                                 $            12,456,829    $                      13,099,620
2. Earned Revenue
     A. Intragovernmental Revenue                 $           (11,096,564)   $                    (11,501,527)
     B. Nonfederal Revenue                                       (306,788)                           (351,368)
    C. Total Revenue                              $           (11,403,352)   $                    (11,852,895)
3. Losses/(Gains) from Actuarial Assumption
Changes for Military Retirement Benefits          $                     0    $                               0
Total Net Cost                                    $             1,053,477    $                       1,246,725

Procurement
1. Gross Cost
    A. Intragovernmental Cost                     $                     0    $                               0
    B. Nonfederal Cost                                                  0                                    0
    C. Total Cost                                 $                     0    $                               0
2. Earned Revenue
     A. Intragovernmental Revenue                 $                     0    $                               0
     B. Nonfederal Revenue                                              0                                    0
    C. Total Revenue                              $                     0    $                               0
3. Losses/(Gains) from Actuarial Assumption
Changes for Military Retirement Benefits          $                     0    $                               0
Total Net Cost                                    $                     0    $                               0

Research, Development, Test & Evaluation
1. Gross Cost
    A. Intragovernmental Cost                     $                     0    $                               0
    B. Nonfederal Cost                                                  0                                    0
    C. Total Cost                                 $                     0    $                               0
2. Earned Revenue
     A. Intragovernmental Revenue                 $                     0    $                               0
     B. Nonfederal Revenue                                              0                                    0
    C. Total Revenue                              $                     0    $                               0
3. Losses/(Gains) from Actuarial Assumption
Changes for Military Retirement Benefits          $                     0    $                               0
Total Net Cost                                    $                     0    $                               0


Family Housing & Military Construction
1. Gross Cost
    A. Intragovernmental Cost                 $                         0        $                           0
    B. Nonfederal Cost                                                  0                                    0
    C. Total Cost                             $                         0        $                           0




                                                      145
       United States Air Force


2. Earned Revenue
     A. Intragovernmental Revenue                  $                                   0     $                            0
     B. Nonfederal Revenue                                                             0                                  0
    C. Total Revenue                               $                                   0     $                            0
3. Losses/(Gains) from Actuarial Assumption
Changes for Military Retirement Benefits           $                                   0     $                            0
Total Net Cost                                     $                                   0     $                            0

Consolidated
1. Gross Cost
    A. Intragovernmental Cost                      $                           1,395,194     $                    1,711,508
    B. Nonfederal Cost                                                        11,061,635                         11,388,112
    C. Total Cost                                  $                          12,456,829     $                   13,099,620
2. Earned Revenue
     A. Intragovernmental Revenue                  $                         (11,096,564)    $                 (11,501,527)
     B. Nonfederal Revenue                                                     (306,788)                          (351,368)
     C. Total Revenue                              $                         (11,403,352)    $                 (11,852,895)
3. Losses/(Gains) from Actuarial Assumption
Changes for Military Retirement Benefits           $                                   0     $                            0
4. Costs Not Assigned to Programs                  $                                   0     $                            0
5. (Less: Earned Revenues) Not Attributed to
Programs                                           $                                   0     $                            0
Total Net Cost                                     $                           1,053,477     $                    1,246,725

The Statement of Net Cost (SNC) represents the net cost of programs and organizations of the Federal Government that
are supported by appropriations or other means. The intent of the SNC is to provide gross and net cost information related
to the amount of output or outcome for a given program or organization administered by a responsible reporting entity. The
DoD’s current processes and systems do not capture and report accumulated costs for major programs based upon the
performance measures as required by the Government Performance and Results Act. The DoD is in the process of
reviewing available data and developing a cost reporting methodology as required by the Statement of Federal Financial
Accounting Standards (SFFAS) No. 4, Managerial Cost Accounting Concepts and Standards for the Federal Government,
as amended by SFFAS No. 30, Inter-entity Cost Implementation.

Intragovernmental costs and revenue represent transactions made between two reporting entities within the Federal
Government.

Public costs and revenues are exchange transactions made between the reporting entity and a nonfederal entity.

The AFWCF's systems do not track intragovernmental transactions by customer at the transaction level. Buyer-side
expenses are adjusted to agree with internal seller-side revenues. Expenses are generally adjusted by reclassifying
amounts between federal and nonfederal expenses. Intradepartment revenues and expenses are then eliminated.

The AFWCF records transactions on an accrual basis. The AFWCF may not have all the actual costs and revenues input
into the system in time for reporting. Accrual estimates based upon budget information and historical data are made as
required by generally accepted accounting principles. These estimates reverse as actual costs or revenues are recorded.




                                                            146
                                                                           Agency Financial Report 2012
                                                                                                       Working Capital Fund
                                                                                             Notes to the Principal Statements



Note 19. Disclosures Related to the Statement of Changes in Net Position

The $465.1 million in Other Financing Sources, Other consists primarily of other gains and losses due to the reclassification
of intragovernmental transfers in or out without reimbursement for which Air Force could not determine the trading partners.

Appropriations Received on the Statement of Changes in Net Position (SCNP) does not agree with Appropriations on the
Statement of Budgetary Resources (SBR). The difference is due to the inclusion of the liquidation of contract authority for
the receipt of the appropriation, being recorded on the same line as the appropriation received, thus reducing the
Appropriations (Discretionary and Mandatory) line on the SBR to zero. Refer to Note 20, Disclosures Related to the
Statement of Budgetary Resources for further information.




                                                               147
       United States Air Force


Note 20.        Disclosures Related to the Statement of Budgetary Resources



As of September 30                                                            2012                          2011
(Amounts in thousands)

1. Net Amount of Budgetary Resources Obligated for
   Undelivered Orders at the End of the Period                 $                      6,216,080   $                6,429,727

2. Available Borrowing and Contract Authority at the End of
   the Period                                                                                 0                            0



There is an ($83.7) million abnormal balance on the AFWCF summary level trial balance within USSGLA 4610 that is not
visible on the Unobligated Balance, end of year, Apportioned line on the Statement of Budgetary Resources (SBR). This
abnormality occurred during 4th Quarter, FY 2012 and is caused by the $190.3 million in open commitments recorded in
USSGLA 4700. USSGLA 4610 and 4700 combined, make up the Unobligated Balance, end of year, Apportioned line, which
closed the year with a positive $106.6 million balance.

The abnormal balance in USSGLA 4610 will be cleared upon completion of the year end closing transaction when the $106.6
million Unobligated Balance, end of year, is closed into USSGLA 4450. The $106.6 million that closed into USSGLA 4450
will then be re-opened in USSGLA 4610 to begin FY 2013.

The AFWCF reported reimbursable obligations of $12.3 billion in category B.

The SBR includes intraentity transactions because the statements are presented as combined.

Appropriations on the SBR, does not agree with Appropriations Received on the Statement of Changes in Net Position
(SCNP). The difference is due to the inclusion of the liquidation of contract authority for the receipt of the appropriation,
being recorded on the same line as the appropriation received, thus reducing the Appropriations (Discretionary and
Mandatory) line on the SBR to zero.




                                                              148
                                                                   Agency Financial Report 2012
                                                                                             Working Capital Fund
                                                                                   Notes to the Principal Statements

Note 21. Reconciliation of Net Cost of Operations to Budget



As of September 30
                                                                      2012                         2011
(Amounts in thousands)

 Resources Used to Finance Activities:
Budgetary Resources Obligated:
1. Obligations incurred                                        $          12,336,028      $               12,375,556
2. Less: Spending authority from offsetting                             (12,469,386)                    (12,854,369)
   collections and recoveries (-)
3. Obligations net of offsetting collections                   $             (133,358)    $                (478,813)
    and recoveries
4. Less: Offsetting receipts (-)                                                     0                             0
5. Net obligations                                             $             (133,358)    $                (478,813)
Other Resources:
6. Donations and forfeitures of property                                            0                              0
7. Transfers in/out without reimbursement (+/-)                                34,967                       (10,561)
8. Imputed financing from costs absorbed by others                            180,027                        191,388
9. Other (+/-)                                                                465,112                         85,423
10. Net other resources used to finance activities             $              680,106     $                  266,250
11. Total resources used to finance activities                 $              546,748     $                (212,563)
Resources Used to Finance Items not Part of the Net
     Cost of Operations:
12. Change in budgetary resources obligated for
    goods, services and benefits ordered but not yet
    provided:
    12a. Undelivered Orders (-)                                $               213,648    $                  329,160
    12b. Unfilled Customer Orders                                            (308,865)                     (399,773)
13. Resources that fund expenses recognized in prior                            (8,934)                       (1,731)
     Periods (-)
14. Budgetary offsetting collections and receipts that                               0                             0
     do not affect Net Cost of Operations
15. Resources that finance the acquisition of assets (-)                 (5,696,852)                      (5,907,746)
16. Other resources or adjustments to net obligated
     resources that do not affect Net Cost of
     Operations:
     16a. Less: Trust or Special Fund Receipts                                       0                             0
            Related to exchange in the Entity’s Budget (-)
     16b. Other (+/-)                                                      (500,080)                         (74,862)
17. Total resources used to finance items not part             $         (6,301,083)      $               (6,054,952)
     of the Net Cost of Operations
18. Total resources used to finance the Net Cost               $         (5,754,335)      $               (6,267,515)
     of Operations




                                                         149
   United States Air Force


 As of September 30
                                                                         2012                          2011
 (Amounts in thousands)

 Components of the Net Cost of Operations that will
 not Require or Generate Resources in the Current
     Period:

 Components Requiring or Generating Resources in
     Future Period:
 19. Increase in annual leave liability                        $                       0    $                          0
 20. Increase in environmental and disposal liability                                  0                               0
 21. Upward/Downward reestimates of credit subsidy                                     0                               0
     expense (+/-)
 22. Increase in exchange revenue receivable from                                  7,840                             259
     the public (-)
 23. Other (+/-)                                                                   3,137                           66,258
 24. Total components of Net Cost of Operations that           $                  10,977    $                      66,517
     will Require or Generate Resources in future
     periods

 Components not Requiring or Generating Resources:
 25. Depreciation and amortization                             $                  168,796   $                   179,031
 26. Revaluation of assets or liabilities (+/-)                                 2,184,928                     2,732,182
 27. Other (+/-)
     27a. Trust Fund Exchange Revenue                                                  0                              0
     27b. Cost of Goods Sold                                                   9,190,484                      9,261,101
     27c. Operating Material and Supplies Used                                     2,708                          7,531
     27d. Other                                                              (4,750,081)                    (4,732,122)
 28. Total Components of Net Cost of Operations that           $               6,796,835    $                 7,447,723
     will not Require or Generate Resources

 29. Total components of Net Cost of Operations                $                6,807,812   $                 7,514,240
     that will not Require or Generate Resources in
     the current period

 30. Net Cost of Operations                                    $                1,053,477   $                 1,246,725


Due to the AFWCF’s financial system limitations, budgetary data does not agree with proprietary expenses and
capitalized assets. The difference between budgetary and proprietary data is a previously identified deficiency.

A $2.0 million adjustment was made to the Resources That Finance the Acquisition of Assets in order to align the note
schedule with the amount reported on the Statement of Net Cost.

The following Reconciliation of Net Cost of Operations to Budget lines are presented as combined instead of
consolidated due to intraagency budgetary transactions not being eliminated:

 • Obligations Incurred
 • Less: Spending Authority from Offsetting Collections and Recoveries
 • Obligations Net of Offsetting Collections and Recoveries
 • Less: Offsetting Receipts
 • Net Obligations
 • Undelivered Orders



                                                         150
                                                                       Agency Financial Report 2012
                                                                                                   Working Capital Fund
                                                                                         Notes to the Principal Statements

 • Unfilled Customer Orders

The $465.1 million in Resources Used to Finance Activities, Other, consists primarily of other gains and losses due to
the reclassification of intragovernmental transfers in or out without reimbursement for which Air Force could not
determine the trading partners.

Resources Used to Finance Items not Part of the Net Cost of Operations, Other, is comprised of:

1. Other gains and losses totaling $465.1 million due to the reclassification of intragovernmental transfers in or out
without reimbursement for which Air Force could not determine the trading partners.

2. Property transfers in from DoD agencies totaling $35.0 million.

Components Requiring or Generating Resources in Future Period, Other, in the prior year column, represents the
change in the Federal Employees Compensation Act (FECA) unfunded liability.

Components not Requiring or Generating Resources, Other, is comprised of $4.8 billion for Consolidated Sustainment
Activity Group - Maintenance Division work-in-process offsets.




                                                          151
  United States Air Force


Note 21. Reconciliation of Net Cost of Operations to Budget



As of September 30
                                                                   2012                    2011
(Amounts in thousands)

 Resources Used to Finance Activities:
Budgetary Resources Obligated:
1. Obligations incurred                                        $       12,336,028      $       12,375,556
2. Less: Spending authority from offsetting                          (12,469,386)            (12,854,369)
   collections and recoveries (-)
3. Obligations net of offsetting collections                   $          (133,358)    $          (478,813)
    and recoveries
4. Less: Offsetting receipts (-)                                                  0                       0
5. Net obligations                                             $          (133,358)    $          (478,813)
Other Resources:
6. Donations and forfeitures of property                                         0                        0
7. Transfers in/out without reimbursement (+/-)                             34,967                 (10,561)
8. Imputed financing from costs absorbed by others                         180,027                  191,388
9. Other (+/-)                                                             465,112                   85,423
10. Net other resources used to finance activities             $           680,106     $            266,250
11. Total resources used to finance activities                 $           546,748     $          (212,563)
Resources Used to Finance Items not Part of the Net
     Cost of Operations:
12. Change in budgetary resources obligated for
    goods, services and benefits ordered but not yet
    provided:
    12a. Undelivered Orders (-)                                $            213,648    $            329,160
    12b. Unfilled Customer Orders                                         (308,865)               (399,773)
13. Resources that fund expenses recognized in prior                         (8,934)                 (1,731)
     Periods (-)
14. Budgetary offsetting collections and receipts that                            0                       0
     do not affect Net Cost of Operations
15. Resources that finance the acquisition of assets (-)              (5,696,852)             (5,907,746)
16. Other resources or adjustments to net obligated
     resources that do not affect Net Cost of
     Operations:
     16a. Less: Trust or Special Fund Receipts                                    0                       0
            Related to exchange in the Entity’s Budget (-)
     16b. Other (+/-)                                                   (500,080)                (74,862)
17. Total resources used to finance items not part             $      (6,301,083)      $      (6,054,952)
     of the Net Cost of Operations
18. Total resources used to finance the Net Cost               $      (5,754,335)      $      (6,267,515)
     of Operations




                                                         152
                                                                    Agency Financial Report 2012
                                                                                                Working Capital Fund
                                                                                      Notes to the Principal Statements



As of September 30
                                                                       2012                          2011
(Amounts in thousands)

Components of the Net Cost of Operations that will
not Require or Generate Resources in the Current
    Period:

Components Requiring or Generating Resources in
    Future Period:
19. Increase in annual leave liability                        $                      0    $                          0
20. Increase in environmental and disposal liability                                 0                               0
21. Upward/Downward reestimates of credit subsidy                                    0                               0
    expense (+/-)
22. Increase in exchange revenue receivable from                                 7,840                             259
    the public (-)
23. Other (+/-)                                                                  3,137                          66,258
24. Total components of Net Cost of Operations that           $                 10,977    $                     66,517
    will Require or Generate Resources in future
    periods

Components not Requiring or Generating Resources:
25. Depreciation and amortization                             $                 168,796   $                    179,031
26. Revaluation of assets or liabilities (+/-)                                2,184,928                      2,732,182
27. Other (+/-)
    27a. Trust Fund Exchange Revenue                                                  0                               0
    27b. Cost of Goods Sold                                                   9,190,484                       9,261,101
    27c. Operating Material and Supplies Used                                     2,708                           7,531
    27d. Other                                                              (4,750,081)                     (4,732,122)
28. Total Components of Net Cost of Operations that           $               6,796,835   $                   7,447,723
    will not Require or Generate Resources

29. Total components of Net Cost of Operations                $               6,807,812   $                  7,514,240
    that will not Require or Generate Resources in
    the current period

30. Net Cost of Operations                                    $               1,053,477   $                  1,246,725


Due to the AFWCF’s financial system limitations, budgetary data does not agree with proprietary expenses and
capitalized assets. The difference between budgetary and proprietary data is a previously identified deficiency.

A $2.0 million adjustment was made to the Resources That Finance the Acquisition of Assets in order to align the
note schedule with the amount reported on the Statement of Net Cost.

The following Reconciliation of Net Cost of Operations to Budget lines are presented as combined instead of
consolidated due to intraagency budgetary transactions not being eliminated:

 • Obligations Incurred
 • Less: Spending Authority from Offsetting Collections and Recoveries
 • Obligations Net of Offsetting Collections and Recoveries
 • Less: Offsetting Receipts
 • Net Obligations



                                                        153
  United States Air Force

 • Undelivered Orders
 • Unfilled Customer Orders

The $465.1 million in Resources Used to Finance Activities, Other, consists primarily of other gains and losses
due to the reclassification of intragovernmental transfers in or out without reimbursement for which Air Force could
not determine the trading partners.

Resources Used to Finance Items not Part of the Net Cost of Operations, Other, is comprised of:

1. Other gains and losses totaling $465.1 million due to the reclassification of intragovernmental transfers in or out
without reimbursement for which Air Force could not determine the trading partners.

2. Property transfers in from DoD agencies totaling $35.0 million.

Components Requiring or Generating Resources in Future Period, Other, in the prior year column, represents the
change in the Federal Employees Compensation Act (FECA) unfunded liability.

Components not Requiring or Generating Resources, Other, is comprised of $4.8 billion for Consolidated
Sustainment Activity Group - Maintenance Division work-in-process offsets.




                                                         154
                                            Agency Financial Report 2012
                                                                Working Capital Fund
                                                      Notes to the Principal Statements

Note 23. Earmarked Funds

AFWCF has no Earmarked Funds.



Note 24. Fiduciary Activities


AFWCF has no Fiduciary Activities.



Note 25.          Other Disclosures


AFWCF has no other disclosures.



Note 26. Restatements

AFWCF has no Restatements.




                                      155
United States Air Force


Working Capital Fund
Fiscal Year 2012
Required Supplementary Information




                          156
                                                                                      Agency Financial Report         2012
                                                                                                       Working Capital Fund
                                                                                           Required Supplementary Information

                                                  Department of Defense
                                             Air Force Working Capital Fund
                               STATEMENT OF DISAGGREGATED BUDGETARY RESOURCES
                                   For the periods ended September 30, 2012 and 2011
                                                    ($ in Thousands)


                                              Operations, Readiness & Support              2012 Combined       2011 Combined


Budgetary Resources:
Unobligated balance brought for, October 1                                 555,328               555,328              532,408
        Unobligated balance brought forward,
        October 1, as adjusted                                            555,328                555,328              532,408
Recoveries of prior year unpaid obligations                                38,915
Other changes in unobligated balance (+ or -)                           (553,765)                (553,765)            (19,801)
Unobligated balance from prior year budget authority, net                  40,478                  40,478             616,546
Appropriations (discretionary and mandatory)                                    0                       0               66,861
Contract Authority (discretionary and mandatory)                       7,559,690                7,559,690           7,989,074
Spending Authority from offsetting collections
(discretionary and mandatory)                                          4,842,419                4,842,419           4,258,403
Total Budgetary Resources                                             12,442,587               12,442,587          12,930,884

Status of Budgetary Resources:
Obligations Incurred                                                  12,336,028               12,336,028          12,375,556
Unobligated balance, end of year, Apportioned                            106,559                  106,559             555,328
Total unobligated balance, end of year                                   106,559                  106,559             555,328
Total Budgetary Resources                                             12,442,587               12,442,587          12,930,884

Change in Obligated Balance:
Unpaid obligations, brought forward, October 1 (gross)                 7,364,314                 7,364,314          7,824,540
Uncollected customer payments from Federal sources,
Brought forward, October 1 (-)                                        (3,619,244)              (3,619,244)          (3,893,169)
Obligated balance start of year (net), before adjustments (+ or -)     3,745,070                3,745,070             3,931,371
Obligated balance, start of year (net), as adjusted                    3,745,070                3,745,070             3,931,371
Obligations incurred                                                  12,336,028               12,336,028           12,375,556
Outlays (gross) (-)                                                  (12,601,195)             (12,601,195)        (12,731,843)
Change in uncollected customer payments from
Federal Sources (+ or -)                                                   505,812                505,812             273,922
Recoveries of prior year unpaid obligations (-)                            (38,915)               (38,915)           (103,939)
Obligated balance, end of year
         Unpaid Obligations, end of year (gross)                       7,060,232                 7,060,232          7,364,314
         Uncollected customer payments from Federal sources,
         end of year (-)                                              (3,113,433)              (3,113,433)         (3,619,247)
Obligated balance, end of year                                         3,946,800                 3,946,799          3,745,067

Budget Authority and Outlays, Net:
Budget authority, gross (discretionary and mandatory)                 12,402,109                12,402,109         12,314,338
Actual offsetting collections (discretionary and mandatory) (-)      (12,936,282)             (12,936,282)        (13,024,352)
Change in uncollected customer payments from Federal
Sources (discretionary and mandatory) (+ or -)                            505,812                  505,812             273,922
Budget Authority, net (discretionary and mandatory)                      ( 28,361)                  28,361)          (436,092)
Outlays, gross (discretionary and mandatory)                           12,601,195               12,601,195         12,731,843
Actual offsetting collections (discretionary and mandatory) (-)       (12,936,282)             (12,936,282)       (13,024,352)
Outlays, net (discretionary and mandatory)                                335,087)                (335,087)          (292,509)
Agency Outlays, net (discretionary and mandatory)                        (335,087)                (335,087)           (292,509)




                                                                     157
United States Air Force


Working Capital Fund
Fiscal Year 2012
Audit Opinion




                          158
      Agency Financial Report     2012
                     Working Capital Fund
                            Audit Opinion




159
United States Air Force




                          160
      Agency Financial Report     2012
                     Working Capital Fund
                            Audit Opinion




161
United States Air Force




                          162
      Agency Financial Report     2012
                     Working Capital Fund
                            Audit Opinion




163
United States Air Force




                          164
      Agency Financial Report     2012
                     Working Capital Fund
                            Audit Opinion




165
United States Air Force




                          166
This page intentionally left blank




               167
 “Aim High …



fly-fight-win ”
For more information or to contact us:
 Assistant Secretary of the Air Force for
 Financial Management and Comptroller
    SAF/FMPA (Financial Reporting)
 1500 West Perimeter Road, Suite 3100
        Andrews AFB, MD 20762
           www.saffm.hq.af.mil
